<html>
<title> - TEXAS' INNOVATIVE APPROACHES TO JOBS AND EMPLOYMENT FOR VETERANS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





    TEXAS' INNOVATIVE APPROACHES TO JOBS AND EMPLOYMENT FOR VETERANS

=======================================================================

                                HEARING

                               before the

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS

                        HOUSE OF REPRESENTATIVES
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                       Wednesday November 6, 2013

                               __________

                           Serial No. 113-42

                               __________

       Printed for the use of the Committee on Veterans' Affairs






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






         Available via the World Wide Web: http://www.fdsys.gov

                               _____

                         U.S. GOVERNMENT PRINTING OFFICE 

85-867 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001






                     COMMITTEE ON VETERANS' AFFAIRS

                         JEFF MILLER, Chairman

DOUG LAMBORN, Colorado               MICHAEL H. MICHAUD, Maine, Ranking 
GUS M. BILIRAKIS, Florida            Minority Member
DAVID P. ROE, Tennessee              CORRINE BROWN, Florida
BILL FLORES, Texas                   MARK TAKANO, California
JEFF DENHAM, California              JULIA BROWNLEY, California
JON RUNYAN, New Jersey               DINA TITUS, Nevada
DAN BENISHEK, Michigan               ANN KIRKPATRICK, Arizona
TIM HUELSKAMP, Kansas                RAUL RUIZ, California
MARK E. AMODEI, Nevada               GLORIA NEGRETE MCLEOD, California
MIKE COFFMAN, Colorado               ANN M. KUSTER, New Hampshire
BRAD R. WENSTRUP, Ohio               BETO O'ROURKE, Texas
PAUL COOK, California                TIMOTHY J. WALZ, Minnesota
JACKIE WALORSKI, Indiana

                       Jon Towers, Staff Director

               SUBCOMMITTEE ON ECONOMIC OPPORTUNITY (EO)

                      BILL FLORES, Texas, Chairman

JON RUNYAN, New Jersey               MARK TAKANO, California Ranking 
MIKE COFFMAN, Colorado               Minority Member
PAUL COOK, California                JULIA BROWNLEY, California
BRAD R. WENSTRUP, Ohio               DINA TITUS, Nevada
                                     ANN M. KIRKPATRICK, Arizona

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.



















                            C O N T E N T S

                              ----------                              
                                                                   Page

                            November 6, 2013

Texas' Innovative Approaches To Jobs And Employment For Veterans      1

                           OPENING STATEMENT

Hon. Bill Flores, Chairman of the Subcommittee of Economic 
  Opportunity                                                         1
    Prepared Statement...........................................     2
Statement of the Hon. Mark Takano, Ranking Minority Member            4

                               WITNESSES

Ms. Mary Kennedy Thompson, President, Mr. Rooter, LLC
    Oral Statement...............................................     7
    Prepared Statement...........................................     9
Mr. David Amsden, Vice President, Recruiting Cognizant Technology 
  Solutions
    Oral Statement...............................................    13
    Prepared Statement...........................................    15
Mr. Chris Burton, Store Manager The Home Depot
    Oral Statement...............................................    18
    Prepared Statement...........................................    20
Mr. John Vizner, Facility Manager Caterpillar Global Work Tools--
  Waco
    Oral Statement...............................................    22
    Prepared Statement...........................................    24
Mr. Joseph Kosper, CEO RideScout
    Oral Statement...............................................    27
    Prepared Statement...........................................    29
Dr. Janet Bagby, VETS Coordinator Senior Lecturer, Department of 
  Education Psychology Baylor University
    Oral Statement...............................................    38
    Prepared Statement...........................................    40
Mrs. Kris Cervantes, Veterans Specialist McLennan Community 
  College
    Oral Statement...............................................    42
    Prepared Statement...........................................    44
Mr. Rob Wolaver, Executive Vice-President Texas State Technical 
  College--Waco
    Oral Statement...............................................    47
    Prepared Statement...........................................    48
Col. Gerald ``Jerry'' L. Smith USMC (Ret.), Director Veteran 
  Resource and Support Center Texas A`M University
    Oral Statement...............................................    52
    Prepared Statement...........................................    54
Mr. Andres Alcantar, Chairman Texas Workforce Commission
    Oral Statement...............................................    70
    Prepared Statement...........................................    72
Mr. Shawn Deabay, Director, Veterans Employment Services Texas 
  Veterans Commission
    Oral Statement...............................................    74
    Prepared Statement...........................................    76

                                APPENDIX

Aggie Vet Connect Program........................................    87

 
    TEXAS' INNOVATIVE APPROACHES TO JOBS AND EMPLOYMENT FOR VETERANS

                              ----------                              


                      Wednesday, November 6, 2013

                   House of Representatives
               Subcommittee on Economic Opportunity
                             Committee on Veterans' Affairs
                                                   Washington, D.C.
    The subcommittee met, pursuant to notice, at 10:04 a.m., at 
the Bill Daniel Student Center, Baylor University, 1311 South 
5th Street, Waco, Texas, Hon. Bill Flores [chairman of the 
subcommittee] presiding.
    Present: Representatives Flores and Takano.
    Also Present: Representative Williams.

           OPENING STATEMENT OF CHAIRMAN BILL FLORES,

    Mr. Flores. Good morning. I would like to call the 
subcommittee to order.
    And the first thing I would like to do is to introduce 
Judge Ken Starr, the president of Baylor University, who is 
going to say a few words. Before he gets up here, I would like 
to ask us all to give him and all of the Baylor team a round of 
applause for being such great hosts today.
    [Applause.]
    Judge Starr. Mr. Chairman, thank you.
    We are honored at Baylor to have you here, from Riverside 
and the great Inland Empire of California to Fort Worth and the 
great district that runs from Tarrant County down to Hays 
County. And of course, the chairman is our own Member of the 
House of Representatives. So, Congressman Flores, Mr. Chairman, 
we are delighted that you are here.
    You know, at Baylor, we have billboards that say things 
such as ``Baylor loves Waco.'' We could quite readily have a 
billboard that says ``Baylor loves veterans.''
    We have close to 100 student veterans here who are very 
active in the organization that really promotes veteran 
welfare, beginning right here at home on the Baylor campus, but 
also much more generally. You know, it was General Washington, 
who was quite a veteran himself, in that magnificent speech, a 
member of his own officers--when he was facing a mutiny of this 
one officer--was talking about growing old in the service of 
his country.
    And at a dramatic moment, he reached into his breast pocket 
and pulled out his spectacles and paused dramatically. And he 
asked his officers, who were on the verge of mutiny, to bear 
with him because of his growing old in the service of his 
country.
    We owe again to General Washington and the great sons of 
the Revolution, century after century, down to the 21st 
century, an unpayable debt, a moral debt and other debts to our 
veterans. And so, we are so thankful that you are here to focus 
on issues that are of concern to the veterans, their loved 
ones, but also to the American people.
    So God bless this committee. We are able to say that here 
at Baylor University. We love the fact that our elected 
representatives from Texas, from California, and our own 
congressman has seen fit to honor Baylor University, the oldest 
continually operating university in the State of Texas 
chartered by the Republic of Texas, older than Texas itself.
    Welcome to Baylor University.
    [Applause.]
    Mr. Flores. I thank everyone for joining us today for 
today's field hearing of the Subcommittee on Economic 
Opportunity of the House Committee on Veterans' Affairs.
    I am Congressman Bill Flores, and not only is it my 
pleasure to serve as congressman for the great City of Waco and 
the rest of the 17th District of Texas, but also to serve as 
the chairman of this subcommittee. Whether it is the popular 
post 9/11 GI bill or rehabilitation and training for disabled 
veterans, the goal of the subcommittee is to ensure that our 
veterans have economic opportunity and success.
    I am proud of the work that--the great work that we have 
already accomplished this year by improving the Transition 
Assistance Program, which assists service members' transition 
to civilian life, streamlining the processing of the GI bill 
benefits, examining educational outcomes for student veterans, 
and various other legislative and oversight accomplishments to 
improve the lives of America's veterans.
    I am joined here this morning by my colleague and ranking 
Democratic member of the subcommittee, Mr. Mark Takano of 
California. Mr. Takano is a former educator from Riverside, 
California, and it was a pleasure to be in his district on 
Monday for another field hearing on educational opportunities 
for veterans. We had a great turnout, and we learned a lot from 
the panelists and the witnesses at that hearing.
    I am very happy to have him here today, and I hope all of 
you will show him some of our Texas hospitality while he is 
with us. So welcome to you, Mr. Takano, and thanks again for 
traveling to Waco to be with us today.
    [Applause.]

          STATEMENT OF THE HON. BILL FLORES, Chairman

    ``Texas' Innovative Approaches to Jobs and Employment for 
Veterans''
    November 6, 2013
    Good morning everyone and the Subcommittee will come to 
order.
    I thank everyone for joining us for today's field hearing 
of the Subcommittee on Economic Opportunity of the House 
Committee on Veterans' Affairs.
    As many of you know, I am Congressman Bill Flores and not 
only is it my pleasure to serve as the congressman for the 
great city of Waco and the rest of the 17th district of Texas, 
but to also serve as the Chairman of this Subcommittee.
    Whether it is the popular Post 9/11 G.I. Bill or 
rehabilitation and training for disabled veterans, the goal of 
the subcommittee is ensuring that veterans have economic 
opportunity and success.
    I am proud of the great work we have already accomplished 
this year by improving the transition assistance program which 
assists servicemembers' transition to civilian life, 
streamlining the processing of G.I. Bill benefits, examining 
education outcomes for student veterans, and various other 
legislative and oversight accomplishments to improve the lives 
of America's veterans.
    I am joined here this morning by my colleague and Ranking 
Democratic Member of the Subcommittee, Mr. Mark Takano of 
California. Mr. Takano is a former educator from Riverside, 
California, and it was a pleasure to be in his district on 
Monday for another field hearing.
    I am very happy to have him here today and I hope you all 
will show him some of our famous Texas hospitality while he is 
with us. So welcome to you Mr. Takano and thanks again for 
traveling to Waco to be with us today.
    I also want to extend a special thanks to Baylor University 
who has graciously provided the facilities for our use today.
    We are here this morning to focus on one of the most 
important goals I have for this subcommittee - reducing 
unemployment amongst our nation's veterans. While this is a 
hearing we could easily have had in Washington, DC, I think it 
is very important to hear from folks first hand here in Texas 
about this issue.
    We are lucky, that the unemployment rate for veterans in 
Texas was 5.5% for the month of September, which is well below 
the national average of 6.8%.
    We all know that some of the reasons for this difference is 
our great state's focus on pro-growth policies, low taxes, and 
efficient and innovative government programs that partner with 
the private and non-profit sector to give unemployed veterans 
the little boost they need to be successful.
    I would also be remiss if I did not highlight the people of 
Texas' long standing commitment to the military and those who 
have served as another major reason for our success. This is 
shown not only in the priority our small and large businesses 
place on hiring veterans, but on the policies, programs, and 
benefits our institutions of higher learning offer to these 
heroes.
    I am excited for our witnesses today to bring attention to 
these laudable efforts and hope we can bottle a bit of that 
Texas magic and share it with the rest of the country.
    Congress can write all the laws and create all the programs 
they want, but as a former businessman myself, I know that jobs 
for veterans start and end with continued commitment from 
American enterprise.
    While we will hear about many successes today, our work in 
Congress is never complete, and I look forward to hearing from 
our distinguished panelists about how we can improve the 
oversight of federal programs to help put our veterans back to 
work.
    A few housekeeping items before I recognize the Ranking 
Member. I want to remind our audience that today's hearing is 
not a town hall and we will be hearing only from members and 
invited panelists. My staff and I would be happy to speak with 
members of the public following the hearing. I would also like 
to point out Penny Forrest and Jessica McKinney with my staff, 
who are available to help you with any veteran casework issues 
you may have.
    Finally, I want to thank my Texas colleague and good 
friend, Roger Williams, for being with us for this important 
hearing today. Mr. Williams represents Texas' 25th 
Congressional District and has a number of Texas veterans in 
his district. I ask that our colleague Mr. Williams be allowed 
to sit at the dais and ask questions. Hearing no objection so 
ordered.
    I now recognize Mr. Takano for any opening remarks he may 
have.

           OPENING STATEMENT OF THE HON. MARK TAKANO

    Mr. Takano. Thank you, Mr. Chairman.
    I am very happy to be in Waco this morning, meeting so many 
of your constituents involved in finding good-paying, long-term 
jobs for America's veterans. I know I certainly appreciate the 
way in which you have conducted the hearings and the way you 
run our committee.
    We have a strong bipartisan history on the Veterans' 
Committee. While much of the Congress is at odds with each 
other, at the Veterans' Committee, we often pass legislation by 
voice vote, and certainly your subcommittee is line with that 
tradition.
    I appreciate the opportunity to hear firsthand about the 
innovative approaches to hiring and educating veterans in 
Texas. I am very interested in hearing about the successful 
outcomes of these approaches.
    We heard from my local colleges on Monday, and today I look 
forward to hearing from Baylor and your own alma mater, Texas 
A&M University. Employment continues to be a challenge for 
veterans across the country, and looking at different models 
for assisting veterans in finding jobs is very helpful, 
especially as we review national policy.
    I also want to highlight a program in my own State of 
California that is doing great things to assist unemployed 
members of the National Guard to find jobs. The Work for 
Warriors program places unemployed CNG members directly into 
jobs.
    Staff members connect with businesses to identify job 
openings, find qualified unemployed CNG members, and guide CNG 
members through resume and interview preparation and other 
elements of the hiring process. Since its establishment in 
2012, WFW has successfully placed over 16,005 Guardsmen in 
jobs, 2 to 3 placements per day.
    While successful Federal veterans employment initiatives 
typically cost over $10,000 per placement, the program--this 
program that I am talking about has a total per placement cost 
roughly of $500 per placement. This is something I would like 
to see replicated for Reservists and veterans, and I hope it 
will soon spread to other States.
    I know the Texas Veterans Commission seeks to advocate and 
provide superior services to veterans to significantly improve 
their lives. Thank you for what you do in Texas, and for all 
our veterans who retire here and decide to come back to Texas.
    And I just want to add offhand, I know that California took 
Texas' lead in the size of the backlog. The way you are trying 
to solve the backlog problem in the State of Texas by 
supplementing the number of case workers at the VA with state 
workers is something we in California, are trying to do too 
after looking at the successful implementation here.
    I look forward to hearing the witnesses' testimony. Thank 
you, Mr. Chairman. I yield back.
    Mr. Flores. Thank you, Mr. Takano.
    I also would like to extend a special thanks to Baylor 
University, who has graciously provided the facilities for our 
use today.
    We are here this morning to focus on one of the most 
important goals that I have for this subcommittee, and that is 
reducing unemployment amongst our Nation's veterans. While this 
is a hearing that we could easily have in Washington, D.C., I 
think it is very important to hear from folks firsthand here in 
Texas about this issue.
    Nobody knows these issues better than those right here in 
the real world. We are lucky that the unemployment rate in 
Texas for veterans was 5.5 percent last month, which is well 
below the national average of 6.8 percent. But still, we need 
to do more.
    We all know that some of the reasons for this difference is 
our great State's focus on pro-growth policies, low taxes, and 
efficient and innovative government programs that partner with 
the private and nonprofit sector to give unemployed veterans 
the helpful tools that they need to be successful.
    I would also be remiss if I did not highlight the people of 
Texas' longstanding commitment to the military and those who 
have served us as another major reason for our success. This is 
shown not only in the priority that our small and large 
businesses place on hiring veterans, but also on policies, 
programs, and benefits that our institutions of higher learning 
offer to these heroes.
    I am excited for our witnesses today to bring attention to 
these laudable efforts, and I hope that we can bottle a little 
bit of that Texas experience and share it with the rest of the 
country, particularly back in Washington.
    As we all know, Congress can write all the laws and create 
all the programs that it wants. But as a former business person 
myself, I know that jobs for veterans start and stop with the 
continued commitment from American private enterprise. While we 
will hear about many successes today, our work in Congress is 
never complete, and I look forward to hearing from our 
distinguished panelists about how we can improve the oversight 
of Federal programs to help put more of our veterans back to 
work.
    Now a few housekeeping issues before I recognize other 
persons on the dais today. I want to remind our audience that 
today's hearing is not a town hall. We will be hearing only 
today from the panelists and the Members of Congress.
    My staff and I would be happy to speak with members of the 
public following the hearing, and I would also like to point 
out Jessie McKinney, with my staff--Jessie, will you please 
stand? Over here. Jessica, with my staff, and Luke Connolly are 
available here to answer any questions you may have.
    We also have a veterans resource center that is available 
outside the door, either immediately following the hearing.
    Finally, I would like to thank my Texas colleague and good 
friend Roger Williams for being with us today for this 
important hearing. Mr. Williams represents the 25th 
Congressional District and has a number of Texas veterans in 
his district.
    I ask that our colleague Mr. Williams be allowed to sit at 
the dais and ask questions. Hearing no objection, so ordered.
    I would also like to let everybody know that we have two 
representatives from Congressman Carter's office here today 
Greg Schannap and Cheryl Hassmann. Would you please stand? So 
thank you for being here and representing Judge Carter at this 
hearing today.
    Mr. Takano, do you have any follow-on opening comments?
    Mr. Takano. I do not, sir.
    Mr. Flores. Okay. I now recognize Mr. Williams for any 
opening comments that you may have.
    Mr. Williams. Thank you, Chairman Flores.
    And I would like to start by thanking you for all the work 
you have done and appreciate that very much.
    And Ranking Member Takano, one of my colleagues, for your 
hard work and for your leadership.
    I would also like to say real quick there is a football 
game coming up Thursday.
    [Laughter.]
    Mr. Williams. And I am pretty good at predicting scores. So 
I am going to predict the Baylor Bears over the Oklahoma 
Sooners, 35-21.
    [Applause.]
    Mr. Williams. I would also want to thank all of those who 
are here to testify today. Appreciate that. Your investment, 
your leadership on this issue is greatly appreciated.
    And at a point in time when Washington, I think my 
colleagues will agree, seems very divided on just about 
everything, supporting our veterans is something we can all and 
will always agree on.
    Many have signed up more in recent years to protect our 
great Nation, stepping up to answer the call of duty, and we 
are forever indebted and forever grateful for their service and 
their sacrifice. It is now our duty to make sure these veterans 
are given all the resources needed to transition back to a 
civilian lifestyle.
    In Texas' 25th Congressional District, which I represent, I 
am fortunate to have the opportunity to represent Foot Hood and 
its surrounding communities. And after speaking with many of 
these communities, I can tell you they want veterans to stay.
    Veterans are America's greatest asset. We must always 
remember that. And they need to be given opportunities to 
succeed as civilians.
    Thus, we must create an environment that is friendly toward 
our veterans, whether they are looking to step into the 
workforce or further their education. And I am proud to say 
that the House has recently passed H.R. 2011 and H.R. 2481 with 
the help of Leader Flores, aimed to advance our veterans in 
both the workforce and the classroom.
    Our veterans deserve the very best, and the current 
unemployment rate among veterans should never be the norm. 
Texas is home to an extraordinary number of soldiers, sailors, 
airmen, and Marines, many of whom call central Texas their 
home. They are the true heroes and heroines of our country, and 
I vow to continue, as my colleagues do, to stand for them, just 
as they have stood for us and will stand for us.
    So I appreciate being here today. And may God bless all of 
you, and may God bless our troops and our veterans as we move 
forward.
    I yield back, Mr. Chairman.
    [Applause.]
    Mr. Flores. Thank you, Mr. Williams.
    Our first panel will have Ms. Mary Kennedy Thompson, with 
Mr. Rooter, LLC; Mr. David Amsden, with Cognizant Technology 
Solutions; Mr. Chris Burton, with the Home Depot; Mr. John 
Vizner, with Caterpillar Global Work Tools; and Mr. Joseph 
Kopser from RideScout.
    Each of you will be recognized for 5 minutes, and we will 
begin with Ms. Thompson.
    I would like to say this at the beginning. You will see 
some lights on your table there. The green light means that you 
have got--your time has started. The yellow light means that 
you have a minute left. The red light means that we need to 
wrap up pretty quickly.
    So, with that, I would like to recognize Ms. Thompson.

               STATEMENT OF MARY KENNEDY THOMPSON

    Ms. Thompson. Good morning, Chairman Flores, Ranking Member 
Takano, and the subcommittee. Thank you so much for bringing us 
here together today.
    I am Mary Kennedy Thompson, and I am the president of Mr. 
Rooter Plumbing, which is the world's largest all-franchised 
plumbing company.
    I am a veteran, having served 8 years in the United States 
Marine Corps as a logistics officer. I am the daughter of a 
Vietnam veteran. I am the wife of a veteran. I am the sister of 
a veteran, and I am a friend of many veterans across the United 
States and across the world.
    As the president of Mr. Rooter, I am a proud brand of the 
Dwyer Group brands that include Aire Serv, Glass Doctor, 
Grounds Guys, Mr. Electric, Mr. Appliance, Rainbow, and Mr. 
Rooter. And in 2006, I was chosen to be the first female 
president of the 40-year-old Mr. Rooter brand. It is my honor 
to be here talking to you today.
    I am here representing the Dwyer Group and the 
International Franchise Association in our work with VetFran. 
In 2012, PricewaterhouseCoopers conducted a study that showed 
that 820,000 franchise establishments are across the United 
States, generating 17 million jobs. That is close to one in 
eight jobs in the United States.
    I came into franchising as a franchisee first. When I left 
the Marine Corps, I came in as a Cookies by Design franchisee, 
and that company helped create wealth for me. It helped create 
jobs for my community. And when I was a multi-unit franchisee 
in Austin, Texas, I employed close to 50 employees during my 
time.
    Franchising is the great American dream, and it created for 
me and my family something that I had looked for for a long 
time after serving in the Marine Corps.
    VetFran was started right here in Waco, Texas. It was 
founded by Don Dwyer Sr., who was the CEO of the Dwyer Group at 
the time and the founder. And he decided in 1991 that we had to 
come together and we had to offer our veterans opportunities in 
small business ownership and asked franchisors to come together 
and offer their best discounts.
    And then, in 9/11, Dina Dwyer-Owens, who is the CEO of the 
Dwyer Group now, she relaunched VetFran and said we have got to 
do more. We have got to offer more.
    In 2011, we partnered with the first lady, who was doing 
Joining Forces, and launched Operation Enduring Opportunity. 
And with Operation Enduring Opportunity, we pledged the 
franchising community to hire 80,000 veterans by 2014. We 
launched it November 10th of 2011.
    I am proud to announce that with the Dwyer Group, we have--
since that time, we have brought in 298 veterans into small 
business ownership, offering $1.8 million in discounts. And I 
am announcing here for the first time that we, the franchising 
community, have brought in and hired 151,557 veterans since 
November of 2011.
    We have also brought into small business ownership 5,192 
veterans. Something that started here in Waco, Texas, has 
affected 151,000 veterans.
    Veterans make great franchisees, and they make great 
employees in franchising because franchising is about the 
systems, it is about the discipline, and it needs leaders. And 
veterans have that. They understand what systems to the core of 
their being. They understand and have had experience with 
leadership, whether they are a staff sergeant or whether they 
are a Navy captain. They understand that.
    Since we launched Operation Enduring Opportunity at the 
Dwyer Group, our brands have hired 624 veterans. I have two 
veterans here with me today. Captain John Mendel, who is a 
retired captain who served in Baghdad and Bahrain, is our new 
vice president of operations for Mr. Rooter, joined us about a 
year ago. And Jason Lee, staff sergeant in the United States 
Army, and he has toured in Kuwait and Iraq. And I thank them 
both for their service.
    I would like to ask everyone here in this subcommittee to 
consider bringing to the 113th Congress the Help Veterans Own 
Franchises Act. It would offer a tax credit of 50 percent to 
veterans for their franchise fee, and it would be capped at 
$25,000.
    I would just like to remind everybody that when that 
veteran starts that small business not only is he providing a 
job and opportunity for his family, but he is also providing 
jobs for those in his community. And that is something that can 
make a very large difference.
    I would like to thank everyone here for what you are doing. 
I remember watching a TV commercial once where everybody got up 
and gave an ovation to all the veterans. And I would like to 
say this. Let us not just give them an ovation. Let us give 
them a vocation.
    Let us give them the power to prosper, and I thank you for 
your very good work here.

            [The prepared statement of Ms. Thompson]

    Testimony of Mary Kennedy Thompson
    On Behalf of The Dwyer Group and International Franchise 
Association
    November 6, 2013
    Good morning Congressman Flores and members of the 
subcommittee. My name is Mary Kennedy Thompson and I am 
President of Mr. Rooter Plumbing based in Waco, TX, which is a 
proud brand of The Dwyer Group family of service enterprises 
representing more than 1600 franchisees worldwide and 124 
franchisees in Texas employing more than 850 people. I am 
honored to have the opportunity to speak at this field hearing 
of the House Veterans' Affairs Subcommittee on ``Texas' 
Innovative Approaches to Jobs and Employment for Veterans.'' 
Taking care of our veterans who have faithfully served our 
country is a subject that is very near and dear to my heart as 
is the Veterans Transition Franchise Initiative, or VetFran.
    In 1985, I received my commission as an officer in the U.S. 
Marine Corps where I served for eight years and achieved the 
rank of Captain while on active duty. During my service, I had 
the honor to become the first female platoon commander for my 
unit and my service took me around the world, including North 
Carolina, California the Philippines and Japan. When I returned 
home to Texas I made the decision to go into franchising. I 
became a franchisee in the Cookies by Design system in Austin, 
Texas where I earned company awards for Top Performer and 
Outstanding Customer Service. After I sold my businesses, the 
corporate office asked me to join the headquarters as the 
Director of Franchise Operations, eventually becoming the 
brand's President. I came to Mr. Rooter in October of 2006 to 
proudly serve the 40 year old company as its first female 
President.
    I appear before you today on behalf of The Dwyer Group and 
the International Franchise Association (IFA). The Dwyer Group 
opened its doors in 1981 with only one brand and has grown to 
become the holding company of seven service-based franchise 
organizations: Aire Serv, Glass Doctor, Mr. Appliance, Mr. 
Electric, Rainbow International, The Grounds Guys, and my brand 
Mr. Rooter. We are an active member of the IFA and the founding 
company for VetFran. As the largest and oldest franchising 
trade group, the IFA's mission is to safeguard the business 
environment for franchising worldwide. IFA protects, enhances 
and promotes franchising by advancing the values of integrity, 
respect, trust, commitment to excellence and diversity.
    According to a 2012 study conducted by 
PricewaterhouseCoopers, there are more than 820,000 franchised 
establishments in the U.S. that are responsible for creating 
more than 17 million American jobs and generating $2.1 trillion 
in economic output. Franchising operates in a variety of 
industries; including automotive, commercial and residential 
services, restaurants, lodging, real estate and business and 
personal services. One out of every eight private, non-farm 
jobs in the United States comes from franchising. This is 
especially true in Texas.
    The IFA and its members have long supported the efforts of 
this Subcommittee and the Department of Veterans Affairs'. For 
several years, the IFA has maintained an ongoing dialogue with 
the U.S. Department of Veterans Affairs' Center for Veteran 
Enterprise, seeking ways to improve program outreach to 
transitioning veterans.
    Watching the events of the Gulf War unfold in 1990, the 
president and founder of my parent company, The Dwyer Group, 
Don Dwyer Sr., a veteran himself, decided he had to do more for 
our service men and women. He considered the traditional ways 
of support, but saw nothing that captured the spirit on the 
scale he envisioned. A short time later, while attending the 
IFA's 1991 annual convention, he conceived the ideal solution: 
help our veterans achieve the American Dream by owning their 
own franchised small business.
    Just before Veterans Day in 1991, the program was 
officially launched during a press conference in Washington, 
D.C. and soon, more than 100 franchise systems were 
participating as partners in the effort, providing financial 
incentives for honorably-discharged veterans. Following the 
events of September 11, 2001, the VetFran initiative was 
reenergized by Dina Dwyer Owens, the CEO and Chairwoman of The 
Dwyer Group and now boasts more than 600 franchise systems 
participating offering veterans discounts, incentives to help 
them in small business ownership and connecting them to jobs 
throughout the United States as well as the great state of 
Texas. I am so proud that an initiative started right here in 
Waco, Texas by The Dwyer Group has had such an impact across 
our nation.
    In November 2011 the First Lady, Michelle Obama, partnered 
with the IFA to launch Operation Enduring Opportunity. She was 
looking to the business community to help hire and recruit 
100,000 veterans as business owners and team members by 2014. 
Our franchising community pledged to hire 80,000 veterans. To 
date, I am so proud to announce that a program first started in 
Texas by The Dwyer Group and then built throughout the nation 
as ensured that 151,557 veterans and military spouses have been 
hired through franchising these past two years. Also 5,192 
veterans have come into small business ownership through this 
program. Veterans looking for opportunities in franchising can 
begin by logging onto to www.VetFran.com to start their 
journey. VetFran.com includes a veteran tool kit, information 
on franchising, and a veterans job bank to help match veterans 
to employers.
    I am pleased to report that since 2002, The Dwyer Group had 
brought in more than 298 veterans into small business ownership 
with more than $1.8 million in discounts awarded to veterans. 
When Operation Enduring Opportunity was launched we pledged to 
hire 300 veterans throughout the United States as our promise. 
To date our franchisees combined with our corporate 
headquarters have hired more than 624 veterans. Some examples 
include my Vice President of Operations, John Mendel, who 
joined our company late last year after retiring as a Navy 
Captain. He proudly served in Bahrain and Baghdad. Jason Lee, 
the newest member of our marketing team joined us this past 
July after serving in the Army as an E-4. He is our Public 
Relations Specialist and at this very moment is in Kansas 
performing his Army Reserve duty.
    Franchising and Veterans - a Great Match
    Franchising is the great American Dream. It allows people 
to own a business and teaches them a system to help them be 
successful. As a franchisee, you have control over what you are 
doing in your life--you are your own boss. I grew up in a 
military family and served in the military, we were not an 
entrepreneurial family, and I did not know how to run a 
business. However, I wanted that control--to be my own boss--I 
was successful because I followed the system that the franchise 
set up.
    When I was in the Marine Corps, I became accustomed to 
following the systems of the military, and it is has directly 
helped me succeed in franchising where systems are the 
foundation of success. That is why I believe that franchising 
offers significant advantages over other types of business--
particularly for military veterans. As was the case with my 
experience, we often say that franchising allows you to be in 
business for yourself, but not by yourself. By choosing 
franchising, an entrepreneur not only has immediate access to 
support, training and expertise from the franchisor but is also 
buying the rights to use a valuable and recognized name brand. 
Furthermore, the franchisor provides the entrepreneur with a 
business plan and operations manual that were developed to help 
guide and direct the successful operation of the business. 
Combined with ongoing support and teamwork, the franchise 
business model gives entrepreneurs a solid foundation to be 
successful and a leg up on the competition.
    Franchising is an interdependent relationship in which the 
franchisor licenses to the franchisee the right to use its 
trademarks, intellectual property, and business and operating 
plans in exchange for a fee. The result is a relationship in 
which both the franchisor, who is able to develop new units 
more effectively than through corporate ownership, and the 
franchisee, who is able to operate an independent business 
backed by the power of a recognized brand and proven operating 
system, win. This mutually dependent relationship requires the 
franchisor and the franchisee to collaborate to achieve mutual 
success, since neither will be successful without the other.
    As a proud veteran of the United States Marine Corps, I can 
attest to the fact that members of our armed forces are 
disciplined, hard-working, passionate people who have an 
ingrained trait to work within systems. They are accustomed to 
following standard operating procedures, which is very similar 
to franchising which uses manuals, systems and procedures to 
maintain the integrity of the brand. That is the main reason 
why former members of the military make excellent candidates 
for franchise ownership as well as outstanding employees.
    It is estimated that in the next five years more than a 
million service men and women will transition out of the 
military. These men and women are looking forward to rejoining 
their families, going back to school or starting their own 
business. With the diversity of jobs in the military, veterans 
reenter civilian life with the skills needed to succeed in 
franchising whether it's as a small business owner or an 
employee of a franchisee. Their Military Occupation Specialty, 
which is the military's way to identify an individual's 
particular specialty, can help our returning service men and 
women identify the best franchise system that meets their 
skills and training.
    Helping fellow veterans make the transition to civilian 
life and realize their dream of small business ownership is one 
of my passions. In addition to recruiting veterans to Mr. 
Rooter Plumbing, I am the Director of Veteran Affairs for The 
Dwyer Group, and from 2010 to 2013 served as the chairwoman of 
the IFA's VetFran Committee. In this role, I worked with other 
members of the IFA and VetFran participating companies to 
encourage more systems to offer veterans discounts and benefits 
when purchasing a franchise as well as provide employment 
opportunities for our returning veterans. In that two year 
period we grew participation in the program by 79% and launched 
Operation Enduring Opportunity. In addition, I teach the 
franchising class at the Entrepreneurship Bootcamp for Veterans 
with Disabilities hosted by the Center for New Ventures and 
Entrepreneurship at Texas A&M University.
    As we at The Dwyer Group and IFA strive to honor our 
nation's returning veterans I ask this committee to help pass 
legislation to aid our veterans' investment in their future. 
The Help Veterans Own Franchises Act (HVOFA) introduced by 
Representative Aaron Schock (R-Ill) and Senator Bob Casey (D-
Pa.) in the 112th Congress would have provided significant 
incentives for veterans to own their own franchise business. 
This legislation establishes a tax credit for franchise 
businesses offering qualified veterans a discounted initial 
franchise fee. The tax credit would amount to 50% of the total 
franchise fee discount offered by the franchisor, capped at 
$25,000 per unit, and also provides a tax credit to the veteran 
for the remaining initial franchise fee paid. Enactment of this 
tax credit will encourage economic growth and create more jobs. 
Our veterans deserve this chance after so faithfully serving 
our county. IFA is engaged with members of Congress to re-
introduce the HVOFA in the 113th Congress. Franchising has 
shown it's commitment to hiring veterans and veterans hire 
veterans. Let's help get more veterans into small business 
ownership and provide more jobs here in Texas and our great 
nation.
    Again, on behalf of the International Franchise Association 
as well as Mr. Rooter Plumbing and the entire Dwyer Group 
family of brands, we sincerely appreciate the good work of this 
subcommittee. We strongly urge you to support and help pass the 
Help Veterans Own Franchises Act, so that more of our veterans 
may return home to begin building a bright future for 
themselves, their families and their communities through small 
business ownership. The members of the IFA look forward to a 
continued working relationship with this Subcommittee as well 
as supporting the initiatives underway at the Department of 
Veterans Affairs and the Small Business Administration to 
assist our returning men and women of the Armed Services.
    Thank you and God Bless America.
    Mr. Flores. Thank you, Ms. Thompson. Well said.
    Mr. Amsden, you are recognized for 5 minutes.

                   STATEMENT OF DAVID AMSDEN

    Mr. Amsden. Thank you, sir.
    On behalf of Cognizant Technology Solutions, I want to 
thank the Subcommittee Chairman Flores and Ranking Member 
Takano for holding the field hearing on veterans hiring, a 
topic that I hold very close to my heart and in which the 
company I represent here has made great strides.
    On a personal note, I am a graduate of the Virginia 
Military Institute and come from a long line in family members 
that served in the United States military. I was honored to be 
an Army officer and follow in the footsteps of both my father 
and grandfather, each of whom wore the uniform of our country.
    For those who may not have heard of Cognizant, we are well 
known to many of the businesses in your State. We provide 
information technology solutions, consulting, and business 
process services to hundreds of companies in the United States.
    Our 27,000 employees in the U.S. tend to work for energy 
companies and at pharmaceutical companies, banking 
institutions, healthcare payers and providers, manufacturers, 
retailers, and colleges and universities in the 49 States where 
we have employees.
    Texas is and has been a very important State to our 
company. It is the third-largest presence in the U.S. for 
Cognizant, with over 2,000 employees. And to date, our Texas 
clients include energy, healthcare, financial services 
companies, in addition to universities. We work and live 
locally, pay taxes, and patronize local businesses throughout 
the State. We appreciate the business-friendly environment that 
the State offers to innovative companies such as ours.
    The overall goal of our company is to help our customers 
build stronger businesses by both running better or driving 
performance efficiencies and effectiveness and running 
different or driving growth through innovation and business 
transformation. But we have an additional goal to give back to 
our communities in which we live and work. I acknowledge to 
some that those may just seem like a sound bite.
    But I can assure you that this is a creed that has been 
engrained here in my company, at Cognizant, and makes our 
business better in every way.
    In 2008, our company leadership saw that soldiers arriving 
back from Iraq and Afghanistan needed support to find 
employment. This was underscored by a growing number of 
unemployed veterans.
    In response, Cognizant launched a multi-tiered program 
aimed to helping those veterans get trained and help that they 
needed to secure job interviews and stable employment 
situations.
    The goals of our Veterans in Technology program, or what we 
call VIT, are twofold. First, to design and implement 
initiatives that not just create a military-friendly work 
environment, but also allow the veterans and their families to 
assimilate into the private sector. And second, to maintain a 
disability program that is ADAAA compliant for all disabled 
employees.
    We are currently involved in several different initiatives 
focused on addressing the issue of veteran unemployment in this 
country.
    Cognizant is working with Virginia Military Institute--of 
course, my alma mater--to become a member of the military 
outplacement program and is also connecting with all the 
military academies, such as West Point, Air Force Academy, 
Naval Academy, and Coast Guard.
    We also entered into a partnership with SAP, another large 
technology company, to hire recently separated veterans as part 
of a pilot program. SAP, our partner veterans to work program, 
should certainly be acknowledged in our national technology 
economy. They are providing certification to areas to include 
HANA, ASC, business intelligence, Web intelligence, and the 
Sybase unwired program--all really, really important programs 
in our technology platform.
    Cognizant is developing a job transition program also, 
called Public To Private, which we will help veterans with 
basic job search skills, such as resume writing, interview 
skills, job searching techniques via the Internet, networking, 
use of alumni programs, and these are complementary programs 
that our company has built to help veterans. Several of these 
programs have already taken place across the country in this 
past year. We have several more scheduled in the coming months, 
one of which will be here in Texas.
    Cognizant has also partnered with Monster, the Internet 
site, and will be taking part in the 100,000 Jobs Mission 
established by JP Morgan Chase and other big-branded 
organizations that are very passionate about hiring veterans. 
We have briefed the White House on these initiatives, and they 
are supportive of our veteran recruitment programs. We will 
continue to update them as we make progress and grow these 
efforts.
    Although we are pleased with our successes so far, it would 
be pertinent to highlight a few challenges, both from our 
perspective and of the veterans.
    From the company's perspective, the challenges--and these, 
I think, are very important that you hear from the field what 
is going on--are finding that veterans with the right skills, 
we have a hard time finding veterans with the right skills for 
our specific jobs and those that have interest in training for 
highly technical skills and translating veteran resumes into 
specific job requirements.
    From the veterans' perspective, one key challenge that they 
are not sure how their interests--that they are not sure how 
their interests, skills, and experience translate into civilian 
jobs. Frequently, they do not have experience marketing 
themselves with resumes and interviewing. The veteran and 
military community is relatively less familiar with my 
Cognizant brand and other major brands as well. So veterans do 
not approach Cognizant on their own, and there is a lack of 
formalized training programs to build and augment technical 
skills of veteran hires.
    We know that we can overcome these challenges, particularly 
because there is a natural compatibility between Cognizant and 
the veteran workforce. Those that served in our armed forces 
now form a workforce that comes with certain key qualities, 
such as leadership, teamwork, critical thinking, problem 
solving, and the ability to work under pressure--qualities that 
both Cognizant and companies we work with value tremendously.
    This past year, in 2013, Cognizant added over 100 veterans, 
and as a company, we currently employ over 200 veterans and 
growing. The number of veterans hired thus far has been higher 
than what we originally projected because those hires have 
proven to be such exceptional employees.
    The company is very proud of these accomplishments but 
knows there is more to be done.
    Cognizant's Veterans in Technology program aims to increase 
veteran hiring in 2013 and 2014 by up to 30 percent year-over-
year through continued programming and increased partnerships. 
Discussions are already underway with Texas A&M and other 
colleges in the State of Texas and universities that would 
significantly expand our Veterans in Training program, 
particularly--also particularly on the west coast.
    Our recruiting mission includes building and maintaining a 
community of employees who have served in the U.S. military, 
providing opportunities for veterans and their families. We 
want to help make it possible for them to lead productive, 
satisfying, prosperous lives, contributing in the private 
sector after completion of their distinguished military 
service.
    I am extremely proud to work for--for the work that we have 
been doing with the veteran community. We have created a strong 
foundation that we can expand upon for years to come.
    Again, I am grateful for the opportunity to testify today, 
to share what Cognizant has been doing to recruit and help 
retain our Nation's veterans in the private workforce.We are 
grateful to you, Mr. Chairman, and to all the members of this 
committee for your attention to the needs of our Nation's 
veterans.
    Thank you very much, and on a last note, wishing everyone a 
great Veterans Day on Monday.

             [The prepared statement of Mr. Amsden]

    Testimony of David Amsden
    Vice President, Recruiting
    Cognizant Technology Solutions
    Before the US House of Representatives
    Subcommittee on Economic Opportunity
    Committee on Veterans Affairs
    November 6, 2013
    Waco, Texas
    On behalf of Cognizant Technology Solutions, I want to 
thank Subcommittee Chairman Bill Flores and Ranking Member Mark 
Takano for holding this field hearing on Veterans Hiring, a 
topic that I hold very close to my heart, and in which the 
company I represent here has made great strides.
    On a personal note, I am a graduate of the Virginia 
Military Institute and come from a long line of family members 
that served in the United States military. I was honored to be 
an Army officer and follow in the footsteps of both my father 
and grandfather, each of whom also wore the uniform of our 
country.
    For those who may not have heard of Cognizant, we are well 
known to many of the businesses in your state. We provide 
information technology, consulting, and business process 
services to hundreds of companies in the U.S.
    Our 27,000 employees in the U.S. tend to work for energy 
companies and at pharmaceutical companies, banking 
institutions, healthcare payers and providers, manufacturers, 
retailers, and colleges and universities in the 49 states where 
we have employees.
    Texas is and has been a very important state to the 
company; it is our 3rd largest presence in the U.S. with over 
2,000 employees to date. Our Texas clients include energy, 
healthcare and financial services companies, in addition to 
universities. We work and live locally, pay taxes and patronize 
local businesses throughout the state. We appreciate the 
business-friendly environment that the state offers to 
innovative companies such as ours.
    The overall goal of our company is to help our customers 
build stronger businesses, by both running better, or driving 
performance efficiencies and effectiveness, and running 
different, or driving growth through innovation and business 
transformation. But we have an additional goal: to give back to 
the communities in which we live and work. I acknowledge to 
some that those words may just seem like a sound bite, but I 
can assure you, this is a creed that is ingrained in us and 
makes our business better in every way.
    In 2008, our company's leadership saw that soldiers 
arriving back from Iraq and Afghanistan needed support to find 
employment. This was underscored by a growing number of 
unemployed veterans.
    In response, Cognizant launched a multi-tiered program 
aimed at helping those veterans get the training and help they 
needed to secure job interviews and stable employment 
situations.
    The goals of our Veterans in Technology (VIT) program are 
twofold: First, to design and implement initiatives that not 
just create a military-friendly work environment, but also 
allow the veterans and their families to assimilate into the 
private sector. And second, to maintain a disability program 
that is ADAAA compliant for all disabled employees.
    We are currently involved in several different initiatives 
focused on addressing the issue of veteran unemployment in this 
country.
    Cognizant is working with Virginia Military Institute to 
become a member of the Military outplacement program and will 
be connecting with other Military academies such as West Point, 
Air Force Academy and Coast Guard.
    We entered into a Partnership with SAP - another technology 
company - to hire recently separated veterans as part of a 
pilot program. SAP's Veterans-to-Work Program provides 
certification in areas that include HANA, ASE, Business 
Intelligence, Web intelligence, and the Sybase Unwired Program.
    Cognizant is developing a job transition program called 
``Public to Private,'' which will help veterans with basic job 
search skills such as resume writing, interviewing skills, job 
search via internet, networking and using alumni programs. 
Several of these programs have already taken place across the 
country this past year and we have several more scheduled in 
the coming months.
    Cognizant has also partnered with Monster and will be 
taking part in the ``100,000 jobs'' mission established by JP 
Morgan Chase.
    We have briefed the White House on these initiatives and 
they are supportive of our veteran recruitment programs. We 
will continue to update them as we progress and grow these 
efforts.
    Although we are pleased with our successes so far, it would 
be pertinent to highlight a few challenges - both from our 
perspective and from that of the veterans.
    From the company's perspective, the challenges have 
included: finding the veterans with the right skills or those 
that have interest in training for the skills; and translating 
veteran resumes into specific job requirements.
    From the veterans' perspective, the one key challenge is 
that they are not sure how their interests, skills and 
experience translate into civilian jobs; frequently they do not 
have experience marketing themselves with resumes and 
interviewing. The veteran/military community is relatively less 
familiar with the Cognizant brand. So veterans do not approach 
Cognizant on their own. And there is a lack of formalized 
training programs to build and augment the technical skill sets 
of veteran hires.
    We know that we can overcome these challenges, particularly 
because there is a natural compatibility between Cognizant and 
the veteran workforce. Those that served in our armed forces 
now form a workforce that comes with certain key qualities such 
as leadership, teamwork, critical thinking, problem solving and 
the ability to work under pressure; qualities that both 
Cognizant and the companies we work with value tremendously.
    This past year, in 2013, Cognizant added over 100 veterans, 
and, as a company, we currently employ over 200 veterans and 
growing. The number of veterans hired thus far has been higher 
than what we originally projected because those hires have 
proven to be such exceptional employees.
    The company is very proud of these accomplishments but 
knows that there is more to be done.
    Cognizant's Veterans in Technology program aims to increase 
Veteran hiring in 2013 and 2014 through continued programming 
and an increase in partnerships. Discussions are already 
underway with Texas A&M and other colleges and universities 
that would significantly expand our Veterans in Training 
program, particularly on the west coast.
    Our recruiting mission includes building and maintaining a 
community of employees who have served in the US military and 
providing opportunities for veterans and their families. We 
want to help make it possible for them to lead productive, 
satisfying, prosperous lives, contributing in the private 
sector after completion of their military service.
    I am extremely proud of the work we have been doing with 
the veteran community. We have created a strong foundation that 
we can expand upon for years to come.
    Again, I am grateful for the opportunity to testify today 
to share some of what Cognizant has been doing to recruit and 
help our nation's veterans enter the private workforce. We are 
grateful to you, Mr. Chairman, and to all of the members of 
this committee for your attention to the needs of our nation's 
veterans.
    Biography
    David Amsden
    Vice President, Recruiting Cognizant Technology Solutions
    David Amsden is the leader of Talent Acquisition and 
serving his 9th year with Cognizant; during the last 9 + years 
Cognizant has grown from under 5,000 employees to over 165,000 
employees. David leads a global team of over 130+ recruiting 
professionals supporting all functions within Cognizant. He 
leads hiring across all vertical and horizontal business 
platforms including H1, H2 and H3, the Future of Work, Campus, 
Veteran and Diversity programs. David is a distinguished 
graduate of the Virginia Military Institute and proudly served 
in the United States Army. David resides in Dover, MA with his 
three daughters-Alexandra, Katharine and Isabel.
    Mr. Flores. Thank you, Mr. Amsden.
    Mr. Burton, you are recognized for 5 minutes.

                   STATEMENT OF CHRIS BURTON

    Mr. Burton. Good morning, Chairman Flores, Ranking Member 
Takano, and Congressman Williams.
    Thank you for the opportunity to speak today on behalf of 
the Home Depot about our commitment to veterans, especially in 
Texas. As the world's largest home improvement retailer, we 
employ more than 300,000 associates, 35,000 of them veterans, 
thousands more that are military spouses. And at any given 
time, we have approximately 1,500 Reservists who are currently 
serving on active duty while working at the Home Depot.
    Since our founding in 1978, the Home Depot's dedication to 
quality and excellence has been the foundation of our success. 
We recognize and respect the same spirit of determination in 
the members of our U.S. military community and seek to support 
our soldiers and their families in every way possible.
    Veterans work in every part of our organization, from the 
president of our Western Division, who is a former enlisted 
Marine, to store managers who are logistics and IT 
professionals, also store employees who are experts in every 
kind of trade you can imagine.
    The Home Depot believes that veterans are one of the most 
talented applicant pools from which we can recruit. I know this 
firsthand as a U.S. Marine myself and now store manager of the 
Home Depot here in Waco, Texas. I came to the Home Depot 26 
years ago--my anniversary is actually today--during a 6-year 
tour as an active duty Marine Reservist. I worked as a sales 
associate in many, multiple departments and directly benefited 
from the support of the Home Depot, provided as my unit was 
activated multiples times to support Operation Desert Storm.
    I have had the opportunity throughout my Home Depot career 
to give back, helping my employees prepare themselves and their 
families for deployment, especially during the Iraq war--as I 
was the store manager of the Killeen Home Depot at that time--
and current operations in Afghanistan as well. I have also 
hosted several military job-related fairs.
    In the military, men and women gain valuable skills that 
are transferable to civilian workforces. Unfortunately, it can 
be difficult to translate those skills into civilian 
terminology. That is why we created our new military skills 
translator available at the homedepotmilitary.com.
    The online program allows applicants to enter their service 
pay grade, their military job title, and translate that to 
experience in the civilian world and skills. It also allows the 
applicant to add those items to refined searches to view 
available jobs available at the Home Depot.
    Our newest military-friendly hiring program is an online 
social network community for job seekers, called the HomeTown, 
available at the homedepotcommunity.com Web site. Military job 
seekers can attend live chats, read and comment on military-
related topics, participate in webinars, and interact with 
actual Home Depot employees.
    Another way we have engaged veterans is through our 
civilian career workshops. On October 27, 2012, the Home Depot 
stores across the country hosted these events, which were 
designed to help service members and veterans understand how to 
successfully navigate the transition into the civilian 
workforce, whether the Home Depot or any other employer that 
they might be interested in.
    These workshops included sessions focused on job search 
strategies, resume optimization, and interviewing techniques. 
Throughout the 100-plus workshops, we were able to engage as 
many as 5,000 participants across the Nation. In Texas, events 
were held in Selma, Killeen, Lake Worth, El Paso.
    We participate in nearly 100 veteran-focused career fairs 
across the country each year. In partnership with the Recruit 
Military, our most recent job fairs in Texas were held in San 
Antonio, Dallas, and Houston.
    Finally, we recently committed to the White House's Joining 
Forces initiative to increase our veterans hiring by 10 
percent, or 55,000 new veterans over the next 5 years.
    Our commitment to veterans doesn't stop with our hiring 
efforts. Through the Home Depot Foundation, we have pledged 
over $80 million over 5 years to address veterans' housing 
needs to ensure that every veteran and their family has a safe 
place to call home.
    In addition, through Team Depot, an associate-led volunteer 
force, our employees are volunteering their time and skills to 
repair and remodel veterans' homes and facilities. In Texas so 
far this year, we have invested nearly $900,000 in grants to 
renovate more than 100 veterans housing units and complete 
rehab and repair projects for nonprofit facilities that serve 
veterans in Austin, Dallas, El Paso, Houston, and San Antonio.
    All of these efforts are possible because we operate 
businesses that succeed when customers come into our stores to 
invest in improvements in their own homes. Therefore, we urge 
Congress to support efforts that promote a strong economy and a 
strong housing market.
    We also encourage the support of the veteran hiring 
organizations that we are partnered with, such as Operation 
Career Front, a partnership between the U.S. Department of 
Defense, Labor, and Veterans Affairs, GI Jobs, and the Military 
Spouse Employment Program.
    On behalf of the Home Depot, I am honored to testify today 
and appreciate you in supporting our Nation's veterans.
    Gentlemen, thank you for your service.

             [The prepared statement of Mr. Burton]

    Witness Testimony of Chris Burton, The Home Depot
    House Veterans' Affairs Subcommittee on Economic 
Opportunity oversight field hearing on ``Texas' Innovative 
Approaches to Jobs and Employment for Veterans.''
    November 6, 2013
    Chairman Flores, Ranking Member Takano, and members of the 
Subcommittee, thank you for the opportunity to speak today on 
behalf of The Home Depot about our commitment to veterans, 
especially in Texas. As the world's largest home improvement 
retailer, we employ more than 300,000 associates: 35,000 of 
them veterans, thousands more that are military spouses, and at 
any given time have approximately 1,500 reservists who are 
currently serving on active duty while working at The Home 
Depot.
    Since our founding in 1978, The Home Depot's dedication to 
quality and excellence has been the foundation of our success. 
We recognize and respect this same spirit of determination in 
the members of our U.S. military community and seek to support 
our soldiers and their families in every way possible.
    Veterans work in every part of our organization - from the 
president of our Western Division, who is a former enlisted 
Marine, to store managers, logistics and IT professionals, to 
store employees who are experts in every kind of trade you can 
imagine. The Home Depot believes that veterans are one of the 
most talented applicant pools from which you can recruit. I 
know this first hand as a U.S. Marine veteran and now Store 
Manager at The Home Depot here in Waco. I came to The Home 
Depot 27 years ago--my anniversary is actually tomorrow--during 
a six year tour as an active duty Marine reservist. I worked as 
a sales associate in the lumber department and directly 
benefitted from the support Home Depot provided as my unit was 
activated multiple times to support Operation Desert Storm. 
I've had the opportunity throughout my Home Depot career to 
give back by helping my employees prepare themselves and their 
families for deployment, especially during the Iraq War and our 
current operation in Afghanistan. I have also hosted several 
military related job fairs.
    In the military, men and women gain valuable skills that 
are transferable to the civilian workforce. Unfortunately, it 
can be difficult to translate those skills into civilian 
terminology. That's why we created our new military skills 
translator, available at www.homedepotmilitary.com. The online 
program allows applicants to enter their service, pay grade, 
and military job title, translates that experience into 
civilian skills, and allows the applicant to add those items to 
a refined search to view available jobs at The Home Depot.
    Our newest military-friendly hiring program is an online 
social network community for job seekers called HomeTown, 
available at www.homedepotcommunity.com. Military job seekers 
can attend live chats, read and comment on military-related 
articles, participate in webinars, and interact with Home Depot 
employees.
    Another way we have engaged veterans is through our 
Civilian Career Workshops. On October 27, 2012, Home Depot 
stores across the country hosted these events which were 
designed to help service members and veterans understand how to 
successfully navigate the transition into the civilian 
workforce, whether with The Home Depot or any other employer. 
These workshops included sessions focused on job search 
strategies, resume optimization, and interviewing techniques. 
Throughout the 100 plus workshops we were able to engage as 
many as 5,000 participants across the nation. In Texas, events 
were held in Selma, Killeen, Lake Worth, and El Paso.
    We participate in nearly one hundred veterans-focused 
career fairs across the country each year. In partnership with 
Recruit Military, our most recent job fairs in Texas were held 
in San Antonio, Dallas, and Houston.
    Finally, we recently committed to The White House's Joining 
Forces initiative to increase our veterans hiring by 10 
percent, or 55,000 new veterans, over the next five years.
    Our commitment to veterans doesn't stop with our hiring 
efforts. Through The Home Depot Foundation, we have pledged $80 
million over five years to address veterans' housing needs to 
ensure that every veteran and their family has a safe place to 
call home. In addition, through Team Depot, our associate-led 
volunteer force, our employees are volunteering their time and 
skills to repair and remodel veterans' homes and facilities. In 
Texas so far this year, we have invested nearly $900,000 in 
grants to renovate more than one hundred veterans' housing 
units and to complete rehab and repair projects for nonprofit 
facilities that serve veterans in Austin, Dallas, El Paso, 
Houston and San Antonio.
    All of these efforts are possible because we operate a 
business that succeeds when customers come into our stores to 
invest in improvements to their homes. Therefore, we urge 
Congress to support efforts that promote a strong economy and 
housing market. We also encourage the support of veteran hiring 
organizations that we are partnered with such as Operation 
Career Front--a partnership between the U.S. Departments of 
Defense, Labor, and Veterans Affairs--GI Jobs, and the Military 
Spouse Employment Program.
    On behalf of The Home Depot, I am honored to testify today 
and appreciate your work in supporting our nation's veterans.
    Chris Burton is a Store Manager at The Home Depot in Waco, 
Texas. He has nearly three decades of experience working for 
the company in various roles from sales associate in the lumber 
department to working as Store Manager for the last ten years. 
He has worked in three different Texas markets: Austin, 
Houston, and Dallas-Fort Worth. Chris came to the Home Depot 
during a six year tour as an active duty Marine reservist and, 
after witnessing the support he received from The Home Depot 
during his service, has worked in various capacities to support 
Home Depot employees who are veterans. Some examples include 
supporting his employees as they prepare their families and 
themselves for deployment especially during both the Iraq war 
and Afghanistan operation, helping with various military 
focused job fairs, and facilitating the Killeen Mission 
Transition workshop in 2012 to help service members and 
veterans successfully navigate the transition into the civilian 
workforce. Chris lives in Waco with his wife and two children.
    House Rule XI clause 2(g)(5) statement:
    I have not received any federal grants in the past two 
years.
    Chris Burton, The Home Depot
    Mr. Flores. Thank you, Mr. Burton. Did you say today is 
your 26th anniversary at----
    Mr. Burton. Yes, sir.
    Mr. Flores. Well, congratulations.
    Mr. Burton. Thank you.
    Mr. Flores. Mr. Vizner, you are recognized for 5 minutes.

                    STATEMENT OF JOHN VIZNER

    Mr. Vizner.
    Good morning, Chairman Flores, Ranking Member Takano, and 
Congressman Williams.
    My name is John Vizner. I am the facility manager for 
Caterpillar's manufacturing plant here in Waco, Texas.
    While we have 240 employees at our facility, there are 
approximately 550 Caterpillar employees here in Waco and more 
than 3,000 employees across the State of Texas. Caterpillar is 
headquartered in Illinois, with more than 121,000 employees 
worldwide.
    Personally, I am a proud veteran, having served in the 
United States Navy for 6 years from 1988 to '94. I completed 
the Navy's nuclear power program and served 4 years on the USS 
Jefferson City. After leaving the Navy, I attended Kansas State 
University, where I received my degree in mechanical 
engineering.
    In '98, I joined Caterpillar as a design engineer and for 
the past 15 years have held a variety of leadership roles where 
my military experience really provided those core skills needed 
for success.
    So why veterans? At Caterpillar, we recognize the numerous 
benefits of hiring military veterans. Veterans are an under 
tapped employment resource. Their strong work ethics, their 
values, their skills learned in the military translate well 
into positions that are available within Caterpillar.
    Nationally, Caterpillar supports our active and former 
military employees through the Caterpillar Armed Forces Support 
Network, which was launched in May of 2007. The employees 
resource group has four primary committees--growth, 
participation, partnership, and troop and family support. The 
Caterpillar Armed Forces Support Network promotes and supports 
personal and career development for Caterpillar military 
veterans through networking and mentoring programs.
    To focus on national recruiting initiatives, Caterpillar 
created a new position in June of this year, a military 
recruiting manager that is solely dedicated to creating and 
launching a strategy and standardizing approaches for hiring 
veterans. This will allow us to share successful practices 
across the company, as well as provide focus on a few national 
initiatives, such as the White House Joining Forces initiative, 
Hiring Our Heroes, American Corporate Partners, and 100,000 
Jobs Mission. I would like to take a few moments just to 
discuss some of these programs.
    Hiring Our Heroes, which was a program sponsored by the 
U.S. Chamber of Commerce Foundation to help veterans and 
military spouses find meaningful employment by working with the 
U.S. Chamber's vast network of State and local chambers and 
other strategic partners. As an active member, Caterpillar has 
access to a large military talent pool through the more than 
530 job fairs across the country.
    The next veteran-focused program we support is the 100,000 
Jobs Mission. One hundred twenty-two leading U.S. companies 
launched the 100,000 Jobs Mission in 2011, with the goal of 
collectively hiring 100,000 transitioning service members and 
military veterans by 2020.
    As a collective group, we conduct career and hiring events, 
provide resources to transition military members and make them 
more competitive and expose them to job opportunities. As of 
September 30th, the companies within this coalition have hired 
over 92,000 veterans.
    Next, we have joined the American Corporate Partners 
Veterans Mentoring Program, which connects veteran protees with 
corporate mentors for a yearlong mentorship. Caterpillar has 
recently become a supporter of this nonprofit organization with 
varying members of our executive office, including our CEO and 
chairman, with military members. Over the course of the year, 
they will meet to discuss things from resume building and 
interview skills, to networking and small business development.
    And finally, the U.S. Army PaYS program, which is a 
partnership between the U.S. Army and a cross-section of 
companies in the private sector. Caterpillar uses this program 
to source talented military personnel.
    Most recently, we have used this Army PaYS program to 
recruit machinists and welders for our Waco facility and will 
continue to use this program to increase awareness among the 
military members that Caterpillar is a military-friendly 
company.
    To wrap up, I would like to discuss a few things we are 
doing here locally in Waco. As I mentioned, we used the Army 
PaYS to attract welders and machinists. We also participate in 
the annual Hiring Red, White, and You job fair that happens 
here in Waco and will take place next week.
    Our facility is targeting significant growth over the next 
several months and would like to leverage the talents of many 
military veterans that are becoming available. We recently 
launched a local chapter of the Caterpillar Armed Forces 
Support Network. This veterans support group is gaining 
traction quickly, as more of our employees are learning about 
the benefits this group provides.
    Further, we have been engaged with General Don Jones, U.S. 
Army, Retired, and Crystal Dyer, a U.S. Army veteran, and their 
efforts with the Warriors to the Workforce initiative. Their 
focus is to improve the connection between veterans, local 
colleges and universities, and potential employers. Though this 
program is in its infancy, the vision of this program will have 
a positive impact on connecting veterans to future careers.
    So, as you can see, Caterpillar recognizes there are 
numerous benefits of hiring military veterans and spouses. 
Their strong work ethic, core values, and leadership skills 
align well to the same values found in Caterpillar. Caterpillar 
is committed to hiring our veterans and helping with their 
transition from the military to the civilian life.
    I appreciate the opportunity to testify today in this 
hearing on this important subject, and I look forward to 
questions that you may have.
    Thank you.

             [The prepared statement of Mr. Vizner]

    Testimony of
    John C. Vizner, Facility Manager
    Caterpillar Inc.
    House Veterans' Affairs Subcommittee on Economic 
Opportunity
    Hearing on Texas' Innovative Approaches to Jobs and 
Employment for Veterans
    Introduction
    Good morning. Chairman Flores, Ranking Member Takano, and 
members of the House Committee on Veterans Affairs Subcommittee 
on Economic Opportunity, thank you for holding this important 
hearing.
    My name is John Vizner, and I am the Facility Manager of 
the Waco, Texas facility of Caterpillar. While we have over 240 
employees in our facility, there are approximately 550 
Caterpillar employees in Waco and more than 3,000 employees 
across the state of Texas. Caterpillar is headquartered in 
Peoria, IL and employs more than 121,000 employees worldwide 
and distributes products to more than 180 countries.
    In my position, I oversee the manufacturing operations for 
our Caterpillar Work Tool business unit here in Waco, where we 
produce three product lines - buckets, couplers, and hydraulic 
hammers - primarily attachments for our excavator equipment.
    Personally, I am a proud veteran - I served in the United 
States Navy for six years, from 1988 to 1994. I completed the 
Navy's nuclear power program and was stationed on the USS 
Jefferson City for four years. After leaving the Navy, I 
attended Kansas State University where I received my bachelor's 
degree in mechanical engineering.
    In 1998, I joined Caterpillar as a design engineer. I have 
held a variety of leadership roles over the past 15 years in 
which my military experience provided me the core skills needed 
for success.
    Why Veterans?
    At Caterpillar, we recognize the numerous benefits to 
hiring military veterans and spouses. Veterans are an under-
tapped employment resource that has great potential to benefit 
Caterpillar. Military personnel bring a strong work ethic and 
values that were honed during their service time. Many of those 
skills that were learned in the military can translate into 
positions that we have within Caterpillar.
    The skills, leadership and values that veterans parallel 
the same values found in the Caterpillar culture and we want to 
bring in as many qualified veterans in to work for our company.
    Nationally, Caterpillar supports our active and former 
military employees through the Caterpillar Armed Forces Support 
Network (or CAFSN), which launched in May 2007. Through its 
four principle committees--Troop & Family Support, 
Partnerships, Participation and Growth--CAFSN promotes and 
supports personal and career development for Caterpillar 
military veterans through networking and mentoring programs. 
CAFSN also is ready to serve those Caterpillar employees and 
their families during times of re-activation and deployment.
    Each of CAFSN's four committees focuses on an important 
area. The Growth Committee explores opportunities to partner 
with corporate organizations in order to showcase the 
experience and knowledge of veterans who are seeking employment 
with Caterpillar. The Participation Committee encourages the 
membership to take part in various aspects of CAFSN activities. 
The Partnership Committee establishes military and community 
support networks that are able to partner in support of the 
Armed Forces to meet the critical success factors of the CAFSN. 
Finally, the Troop & Family Support Committee provides support 
for Caterpillar Employees called to active duty and their 
families.
    CAFSN's other role is to assist with recruiting and career 
development of veterans throughout the enterprise and Cat 
dealers. CAFSN believes that the talents and ``can-do'' 
philosophy developed in the military can tremendously benefit 
Caterpillar worldwide.
    National Recruiting Initiatives
    In June, Caterpillar created a new position that would be 
solely dedicated to creating and launching a strategy that 
would standardize our approach to hiring veterans. A corporate 
approach would allow us to share successful recruiting 
practices across division lines and give increased visibility 
to the issues that are important to our veterans. We have 
successfully launched a series of initiatives to identify and 
recruit exceptional military talent. With the creation of a 
comprehensive military recruiting strategy, our company will be 
able to focus on the vital few national initiatives, such as 
the White House Joining Forces Initiative, Hiring Our Heroes, 
American Corporate Partners and 100,000 Jobs Mission, to 
attract and develop our nation's military heroes. At this time, 
I will elaborate on a few of the nationally-focus veteran 
programs that we currently support, with plans to continue that 
support throughout 2014.
    Hiring Our Heroes
    Hiring Our Heroes, which is a program sponsored by the U.S. 
Chamber of Commerce Foundation, was launched in March 2011 as a 
nationwide initiative to help veterans and military spouses 
find meaningful employment. Working with the U.S. Chamber of 
Commerce's vast network of state and local chambers and other 
strategic partners from the public, private, and non-profit 
sectors, our goal is to create a movement across America in 
hundreds of communities where veterans and military families 
return every day. As an active member of this program, 
Caterpillar has access to a larger military talent pool through 
more than 530 hiring fairs in all 50 states, Puerto Rico, and 
the District of Columbia.
    100,000 Jobs Mission
    The next veteran-focused program that our company supports 
at a corporate level is the 100,000 Jobs Mission. A number of 
leading U.S. companies launched the 100,000 Jobs Mission in 
March 2011 with a goal of collectively hiring 100,000 
transitioning service-members and military veterans by 2020. As 
member companies of the coalition, we are committed to helping 
transitioning service-members and other veterans lead 
successful lives after their military service. As a collective 
group, we conduct career and hiring events, as well as provide 
resources to our transitioning military members to make them 
more competitive in the private sector and expose them to more 
job opportunities. As of September 30, the 122 companies 
comprising the 100,000 Jobs Mission have hired 92,869 veterans 
and we look forward to seeing that number grow.
    American Corporate Partners
    The American Corporate Partner's (ACP) Veteran Mentoring 
Program connects Veteran Proteges with Corporate Mentors for a 
yearlong mentorship. Caterpillar has recently become a 
supporter of this non-profit organization and will pair members 
of our Executive Office, including our Chairman and CEO, and 
members of our organizational leadership teams with military 
members who are currently serving or have served our country. 
Over the course of the year, all Caterpillar mentors and their 
paired protege will have at least 12 significant discussions, 
ranging from resume building and interview skills to networking 
and small business development.
    U.S. Army PaYS Program
    The Partnership for Youth Success (PaYS) Program is a 
strategic partnership between the U.S. Army and a cross section 
of companies, and public sector agencies. This unique program 
is part of the Army's effort to partner with and strengthen 
relationships America's business community and those who have 
served in the U.S. Army. Caterpillar uses this program to 
source talented military personnel that learned skills in the 
Army that could be used for positions within our company. Most 
recently, we have used the Army PaYS Program to recruit 
machinists and welders in the Waco facility, and we will 
continue to use this program to increase awareness amongst 
military members that Caterpillar is a military-friendly 
company that recognizes the value they can bring to our 
company.
    Local Recruiting Initiatives
    I wanted to take a few minutes to discuss what we are doing 
locally, here in Waco. As I mentioned, we are utilizing the 
Army PaYS program to attract military talent into our welding 
and machining positions. We also participate in the ``Hiring 
Red, White and You'' annual job fair for veterans here in Waco, 
which will take place next week. Our facilities are targeting 
significant growth over the next several months and would like 
to leverage the talents of the many veterans that are becoming 
available.
    We also recently launched our local chapter of the 
Caterpillar Armed Forces Support Network in Waco 3 months ago. 
This veteran's support group is gaining traction quickly as 
more of our employees are learning about the benefits this 
group provides.
    Further, we have been engaged with General Don Jones (U.S. 
Army retired) and Crystal Dyer (U.S. Army veteran) in their 
efforts with the Warriors to the Workforce initiative. Their 
focus is to improve the connection between veterans, local 
colleges and universities, and potential employers. Though this 
program is in its infancy, the vision of this program will have 
a positive effect on connecting veterans to future careers.
    Conclusion
    As you can see, Caterpillar recognizes that there are 
numerous benefits to hiring military veterans and spouses. 
Their strong work ethic, core values and leadership skills, and 
values parallel the same values found in the Caterpillar 
culture and we want to bring in as many qualified veterans in 
to work for our company as possible. Caterpillar is committed 
to hiring our veterans and helping with their transition from 
military to civilian life.
    I appreciate the opportunity to testify in today's hearing 
on this important subject and I look forward to answering your 
questions. Thank you.
    John C. Vizner, Biography
    Caterpillar Inc: 1998 - Present
    2010 - PresentFacility Manager: Waco, TX
    2006 - 2010Manufacturing Engineering Manager: Wamego, KS
    2005 - 2006Scheduling Supervisor: Wamego, KS
    2000 - 2005Manufacturing Engineer: Wamego, KS
    (Lean Manufacturing Coordinator, 6 Sigma Black Belt)
    1998 - 2000Design Engineer, Wamego KS
    Kansas State University, Manhattan, KS: 1994 - 1998
    BS in Mechanical Engineering with Minor in Economics
    U.S. Navy: 1988 - 1994
    Machinist Mate: Nuclear Power Program
    Current community involvement
    * Board of Directors: Waco Chamber of Commerce
    * Business Advisory Board: TSTC - Waco, TX (Weld Dept. and 
MET Dept.)
    * National Visiting Committee: National Center for Welding 
Education & Training
    * Business Advisory Board (President): Greater Waco 
Advanced Manufacturing Academy
    Mr. Flores. Thank you, Mr. Vizner.
    Mr. Kopser, you are recognized for 5 minutes.

                   STATEMENT OF JOSEPH KOPSER

    Mr. Kopser.
    Chairman Flores, Ranking Member Takano, Congressman 
Williams, it is an honor to be here today to talk before this 
committee. As a 20-year Army officer defending the U.S. 
Constitution, to get to be here today with you all, 
representing Article I, is really cool.
    Yesterday, I had the high honor of being at the White House 
to also talk about veterans initiatives. So that was Article II 
of the Constitution. I figured tomorrow if I can argue before 
the Supreme Court, it will be a perfect week.
    Mr. Flores. There you go.
    Mr. Kopser. In the interest of time, my colleagues at the 
table have already done a great job of explaining the values 
and qualities that veterans bring to the table. I think that is 
almost a given. And so, in the interest of time, I would like 
to submit as a written statement my comments before on the 
record.
    I want to go very straight, very quickly to the challenges 
that veterans have because I just retired in May after 20 
years, and so it is still fresh in my mind. I would like to 
share those experiences.
    Congress can stimulate the growth of a new economy and 
leverage the talents and power of veterans and the resources we 
have. But in short, the Government would be able to serve its 
veterans best by giving us better access to capital and by 
providing us the freedom to be able to succeed. If you can do 
this, I promise you will not be disappointed in what we could 
accomplish.
    First, despite the great efforts of the VA and DoD over the 
last 10 years, there is still a huge cliff at the end of time 
in service before a person transitions on active duty, and 
there are some very specific things we can do. The 2-week ACAT 
program 6 months out before the end of service, retirement, or 
ETS, PCS doesn't work.
    If you are going to start a company and you don't 
necessarily want to just sit in a cubical--because, remember, 
the last 10 years we have created adrenaline junkies that want 
to go out and serve their community like they served in Iraq 
and Afghanistan. We need better access to capital, and we need 
to understand the language of business and to get into the 
business of business. And to be able to do that, this next 
generation of volunteers that become members of the community 
are going to need to do things differently than I do.
    While I was teaching at the University of Texas for my 
final 2 years in uniform, leading Texas Army ROTC, I had to 
literally pull a Superman routine where I would change from 
uniform to civilian clothes in the restroom to leave to go off 
to events after work, to be able to be a part of the community 
and understand how business would work now that I have retired.
    Our military still frowns--because of our ethos frowns upon 
the idea of some kind of a conflict of interest at the end of 
your military career to begin this transition, and we need to 
change it because it doesn't need to be that hard. We can 
balance the issues of conflict of interest with being just very 
clear and giving guidance.
    We let these men and women in Iraq and Afghanistan work 
millions of dollars and the lives of men and women overseas. We 
can give them the balance that they need to be able to do 
things a little bit differently.
    Without asking for permission, I started auditing a class 
at the Texas School of Business, the McCombs School of 
Business, on entrepreneurship. We studied about Iraqi and 
Afghan culture for years before we deployed, but there is very 
little formal system to let us understand the business of 
business.
    The second major obstacle is the access to capital. Often 
what we need is just a little seed funding to get going. As we 
all know, as you know, military pay won't make you a 
millionaire. We don't serve for the money. We serve for love of 
country.
    But to get a business off the ground takes seed capital, 
and I have a few ideas because angel and investment groups are 
looking for the 19-year-old Dorito bag eating, Red Bull 
drinking young man or woman. And when they see them, they push 
money into their pockets.
    Not to a 42-year-old dad of 3 daughters living in central 
Texas. We are not the typical entrepreneur. So we need to do 
things specifically. Here are some ideas.
    For every year of service you have in uniform, why not 
provide a $1,000 matching grant for the amount of money that 
they can either save or find from other investors? Most of the 
money I started--or found to start my company, RideScout, came 
from my West Point classmate Craig Cummings. Most of the money 
I have achieved in the $1.2 million we have raised over the 
last 2 years has come from veterans or people who understand 
veterans. But I am the exception, not the rule. It should be 
much easier.
    We have served for 5 or 10 or 20 years, along the way 
serving and protecting the American dream of free enterprise. 
Now it is our turn to participate in the system, and Congress 
can act to do things to make it easier to change the laws and 
to help the military ease this ethos, the culture of sliding 
into service.
    At the end of the day, people matter, and that's what we do 
very well. We want--if you want to help someone in your 
community with a fundraiser, you find a veteran. You want 
someone to help speak up at city council, find a veteran. Want 
someone to partner with to do business, find a veteran.
    We make things happen because of three things. We do well 
in teams. We solve problems. And after being in combat, the 
most of us, we don't sweat the small stuff.
    So I am proud to testify today in front of this legislative 
body. I am open not only to talk during the question and 
answer, but hopefully afterwards, not only of my experiences 
starting this company, RideScout, but those veterans like me 
who follow behind me.
    It shouldn't have to be this hard. We owe it to this next 
greatest generation, and I appreciate the time to talk this 
morning.
    Thank you very much, Mr. Chairman.

             [The prepared statement of Mr. Kopser]

    Ride Scout Testimony
    Chairman Flores, Ranking Member Takano, and distinguished 
Members of the Committee:
    As a simple Cavalryman from Texas, it is truly an honor to 
be invited to testify in front of such an esteemed body. Thank 
you for the opportunity.
    Today we are in the midst of, and witness to, an historic 
change in our veteran community. As the active duty military 
continues to reduce its numbers in the coming years, hundreds 
of thousands of military service members, along with their 
families, will converge on the private sector. It is a 
crossroads, a challenge, and also an incredible opportunity.
    I say a challenge, because there are literally not enough 
existing cubicles, desks, storefronts or jobsites in this great 
country to absorb them all. And what's more, after more than 12 
years at war, this generation of innovative and eclectic combat 
veterans will likely not be satisfied by making PowerPoint 
slides everyday sporting ties or high heels.
    But every one of you there on the dais knows well the 
challenge we face in this arena. What I would like to talk to 
you about today is the great opportunity we can realize as a 
nation if we recognize it and provide our support.
    For the last decade we sent our volunteer military abroad 
in defense of our nation to places like Iraq, Afghanistan, the 
Arabian Peninsula and East Africa--often with a mission and 
expectations that far exceeded the resources we gave them on 
the way out the door. But they did not make excuses or come up 
short on those expectations; they exceeded them.
    The professional young men and women of our military merely 
responded with an entrepreneurial spirit not unlike what our 
forefathers witnessed after our Revolution when the first 
patriots turned to the task of building an America worthy of 
the American Dream.
    They responded with a dedication not unlike what we saw 
when our Veterans were called to heal and rebuild a nation torn 
apart by a Civil War.
    Our nation's veterans have responded throughout history 
with a spirit and drive that welcomed challenge embraced risk 
to pursue a better life for their families and their 
communities.
    And the Government has always been a key enabler and 
reliable partner to our veterans.
    When the nation mobilized for World Wars to keep the world 
safe for democracy. We forged a new generation of leaders in 
business, government and industry that we proudly called our 
Greatest Generation because they helped to start a new economy 
that rebuilt a country that was living in the shadows of the 
Great Depression and 4 years of war.
    And, with the help of a Congress that gave us the GI Bill, 
we created a first generation of college educated Americans.
    Now some of the logic behind incentivizing these vets to 
attend college was that there were not enough jobs available 
and higher education gave the economy the time and space to 
absorb many of them. But far more important, education gave 
them the skills and confidence they needed to start their own 
companies and set the conditions for economic growth that 
fueled an unprecedented six decades of economic growth.
    The current generation of veterans shares with those 
generations that came before them three very important traits.
    First, we work well as teams. Regardless of demographic--- 
race, ethnicity, or gender--- the military taught us to work 
with people we didn't previously know--or in some cases relate 
to or understand.
    Second, we solve problems. On the hillsides of Afghanistan 
or on the roads in Iraq, we learned to solve problems with the 
resources given without worrying or whining that our higher 
headquarters did not give us enough.
    Last, most of us experienced a post-traumatic growth. As 
General Casey, former Army Chief of Staff, used to say, ``while 
some of our veterans are experiencing a very real stress from a 
post-traumatic experience--and they need our help and 
assistance--the great majority of our veterans returned from 
combat experiencing a very real, post-traumatic growth. We have 
a new found sense of confidence. We have a perspective that 
does not revolve around the petty or trivial. We know that in 
tight situations, through teamwork and training, we can thrive 
and survive.'' Simply put--we don't sweat the small stuff.
    As was the case with our past generations, a public-private 
partnership is more than necessary--it is essential. Today's 
veterans need a basic education in the business of business, 
along with introductions to the network of wealth and capital 
that provide us the resources we need to get started.
    I believe Congress can help stimulate the growth of a new 
economy going forward it to provide the minimum access to 
education, training and resources needed to start a business. 
The cumbersome process of the Veteran-owned business concept 
needs to be revised and streamlined. In short, the government 
would serve its veterans best by providing access to capital 
and then give them the freedom to succeed. If you do this, I 
promise you will not be disappointed with what they accomplish.
    I say these things with confidence because I am one of 
those veterans. And for 20 years I worked with countless 
professionals who embody the same spirit and commitment.
    In creating RideScout, I was on a journey to make life 
easier for everyday Americans to find the transportation they 
needed in the hope they could leave their car behind. We waste 
so much energy everyday sitting in traffic, burning fuel--I got 
tired of it. I set out to find a web site or mobile App that 
would show me all my options in one place. I found great sites 
for buses and some for cabs and even a few carpool sites--but 
nothing that brought them all together. In Iraq, I was involved 
in making life better for Iraqis . . . Today, I'm proud to be 
making life better for all Americans. While I think its great 
that someone invented Angry Birds or SnapChat, I think it is a 
mark of things to come that our company is designed to make a 
real impact in improving the lives of people and our planet--- 
and if we happen to make a profit along the way for our 
investors--there is nothing wrong with that either.
    RideScout has found success in large part because I willed 
it to be and because the culture that I grew up in does not 
acknowledge failure as an option. But of course I could not 
have started this company without help. I have spent the last 
few minutes talking to you about the value of veteran human 
capital and there is no better proof that I believe what I say 
than the composition of my team. Four combat vets with over 
four decades of military service. And when my team needed help 
to get started--from advisors to sit on our board, to 
investors, to mentors--I turned to veterans. And they responded 
as you know they would: they ran to the sound of the guns.
    For the last 5, 10 and in some case 20 years, we served our 
country in support of defending the American dream of free 
enterprise. Today marks our turn to participate in that dream. 
And whether you are a for-profit business, a consumer of 
American goods and services, or a member of Congress, the 
Veteran is a wise repository in which to invest your time and 
your money.
    People matter.
    Want help from someone for the school fundraiser? Find a 
veteran.
    Want someone to stand with you and speak up at City Council 
on your behalf? Find a veteran.
    Want to find a partner to start a business? Find a veteran.
    Making it happen . . . it's what we do.
    I am proud to testify today in front of a legislative body 
that not only understands the challenge we face but also 
embraces the opportunity to be a partner with and invest in one 
of our nation's most important enterprises--the U.S. Military 
Veteran.
    Mr. Flores. Thank you, Mr. Kopser.
    Before we go on, I would like to go off script for a little 
bit. If we have anybody in the audience that is active 
military, Reservist, or Guard, would you please stand?
    [Nonverbal response.]
    Mr. Flores. And then any veterans in the crowd? I know we 
have got a number of them, including most of the panel here. So 
please stand.
    [Nonverbal response.]
    [Applause.]
    Mr. Flores. I thank the first panel for their remarks, and 
I now recognize myself for 5 minutes for questions.
    This is a question for each of you, and I think, Mr. 
Kopser, you hit on this. So I am going to start with you, if 
that is all right, and then we will work back this way.
    What types of characteristics do veterans have that make 
them such great employees? I mean, you kind of went through 
that. Why don't you go through that again for our benefit, if 
you would?
    Mr. Kopser. Thank you, Mr. Chairman.
    So, first and foremost, we work well in teams. The beauty 
of the United States military, because we are a volunteer 
force, we come from every county, every zip code, and every 
congressional district in the U.S. You are forced very early on 
in your military career to work with people you don't like, and 
then, over time, you learn to like them because you value the 
contribution of their talents rather than the color of their 
skin, their ethnicity, or even the way they talk.
    That is the first thing we do. We work really well in 
teams.
    Secondly, we solve problems. When we put young men and 
women into Afghanistan and Iraq, we often put them, sadly, 
without the resources they should have or deserve to have. But 
we didn't allow them, and they didn't and we didn't accept 
excuses as a reason to not accomplish the mission.
    Whatever is legal, moral, and ethical, the United States 
service member and veteran today will get it done, and they 
will do it in a way that makes not only themselves proud, but 
it benefits the community. So it is a win-win for all involved. 
We solve problems.
    And thirdly, and this is a real point, there is a lot of 
discussion about post traumatic stress, or the after-effects of 
trauma. And while there are a number of people who deserve and 
need extra attention and care, there is a greater number of 
veterans who experience what we call post traumatic growth. In 
other words, after they have been through combat and they have 
literally had people been shooting at them, and they learned 
through training to their buddies out safely and to take care 
of those needs, we come out with a sense of confidence, a sense 
of purpose, and we are not going back to the old ways of doing 
business, whether it be in training in our services today or 
how we go into communities and solve problems.
    That resiliency, that confidence is something that is rare 
among people, except for some of our first responders, to ever 
really put themselves in harm's way. So it is teamwork. It is 
the problem solving, and it is that resiliency that make us 
great in the civilian community as well as the military.
    Mr. Flores. Thank you, Mr. Kopser.
    Mr. Vizner, I would like to ask you all to keep your 
answers to about a minute.
    Mr. Kopser. Sorry.
    Mr. Flores. That is okay. I think there is a little bit of 
passion at that end--well, through the whole table, but 
particularly on that end of the table.
    Mr. Vizner?
    Mr. Vizner. To expand on the leadership portion of 
teamwork, we see our veterans step up on these teams and 
actually lead teams. From our hourly employees on the shop 
floor, all the way up through our executive office. So we see 
that teamwork is well beyond just participating, to really 
leading the team efforts.
    Lastly, accountability is probably one that comes to my 
mind. We can count on our veterans every single day. The 
workforce we have entering right now, the younger generation 
that are not veterans, it is hard just to get them to show up 
to work every day.
    Our veterans are very accountable, and they are there to 
serve us and to do what they can to be successful within our 
company.
    Mr. Flores. Mr. Burton?
    Mr. Burton. Thank you. Thank you.
    I think a poster child would be Mr. Kopser here. That would 
be exactly what I would be looking for when I was looking to 
bring somebody onto my team.
    You know, we look for the same skills that we look for for 
many of our associates, but a commitment to customer service 
and a ``whatever it takes'' philosophy, which you will find in 
most service people.
    You know, obviously, leadership, the ability to critically 
think, teamwork, empowerment, the ability to make decisions on 
your own, you know, are something--many of the attributes that 
many of our service people, servicemen and women, we look for.
    And people that embrace, you know, the values that our 
company were built on and the inclusion and passion for what 
they are doing. Many of the panel members have already alluded 
to just the things that are exhibited by most servicemen and 
women.
    Thank you.
    Mr. Flores. Mr. Amsden?
    Mr. Amsden. Very well said by all. There is only a few 
things I could add, and that is so we are in a global economy. 
And any experience that our veterans pick up serving around the 
world is definitely transferable back to when they come back 
home.
    In terms of understanding cultures, their ability to learn 
new cultures and translate that into the business workforce is 
very effective. It helps their colleagues that might not have 
global experience. So that is one thing.
    The other thing is in business today, we don't know what 9-
to-5 is. We are not a 9-to-5 workforce anymore. We are in a 
workforce that has no time barriers, has no time limits. It is 
just about getting the job done and getting it done well as 
quickly as possible.
    And any of the veterans that we work with, they pick up 
with this experience of it is a selfless service. It is we are 
going to work until we get the job done, even if it impacts the 
family at home. So these are things that you can't necessarily 
teach just out in the community.
    These are skills that these folks, these professionals pick 
up while they are on active duty or in the Reserves or in the 
Guards that they do make sacrifice. So, and they do know having 
time barriers. So that is what today's global workforce is 
about, and that is what these folks are picking up.
    Mr. Flores. Thank you, Mr. Amsden.
    And I am running over time, but I do want to get to Ms. 
Thompson. You made a suggestion in your testimony about getting 
Congress to pass the Help Veterans Own Franchise Act. Do you 
have an idea of the impact that would have had on the Dwyer 
Group in terms of how many more franchisees you would have been 
able to offer to veterans? Do you have a feel for that?
    Ms. Thompson. I don't have a feel for that, but I will tell 
you this. As someone who was a business owner, was a 
franchisee, came into franchising right out of the Marine 
Corps, and the Marine Corps did not pay a lot, I had to scrimp 
and save. This tax credit will give the veteran more money for 
getting them into business faster. It gets them on their feet 
faster.
    It allows them to hire more people faster and to get in 
their community as quickly as possible. And veterans hire more 
veterans. You know, when you ask about what do veterans do? 
Veterans understand commitment.
    I have a friend that always says the best thing about a 
veteran is they can put on their resume--you want to understand 
commitment--that they were willing to take a bullet for their 
previous employer. They completely understand that commitment.
    Mr. Flores. Okay. Thank you, Ms. Thompson.
    Sorry I ran over a little bit on my questioning.
    Mr. Takano, you are recognized for 5 minutes.
    Mr. Takano. Mr. Chairman, could you tell me more about Help 
Veterans?--Is it referred to our committee and has it been 
introduced?
    Mr. Flores. It has been introduced, but I think it is in 
Ways and Means.
    Ms. Thompson. It was introduced in the 112th Congress, and 
they didn't get it finished. So we are asking that it be 
reintroduced in the 113th Congress. And what we--what we want 
to do, all it does is it offers a tax credit to the veteran for 
up to 50 percent of their franchise fee. It is capped at 
$25,000.
    And I would contend that as soon as they hire somebody, 
what they are paying in payroll taxes will more than offset 
that $25,000 tax credit.
    Mr. Flores. So I think the jurisdiction is under Ways and 
Means, but I will work with you so that we can prod that along.
    Mr. Takano. Well, it is a very interesting.
    Mr. Flores. No, but I want to take action and apologize 
later about it.
    Mr. Takano. That is okay.
    [Laughter.]
    Mr. Takano. Well, you know, it seems to me that there is a 
way to synthesize some of the ideas here. Mr. Kopser, your idea 
of $1,000 matching for every year, and the idea that people 
build up educational benefits over time... and also, banking 
investment potential while in military service are ideas that 
could be coupled perhaps, to get veterans into franchising.
    I am curious. Does this bill also deal with perhaps the 
educating of the systems? I mean, what I like about franchising 
is the fact that it is a proven concept. There are already 
systems, a way to educate veterans toward the tail of their 
career to go through a sort of mini business school.
    Ms. Thompson. The beauty of franchising is that it is 
systems based. I didn't even know what P&L stood for. I didn't 
know it stood for profit and loss. But my franchisor taught me 
that, and they taught me how to understand that, and they 
taught me how to go in and run the business the way I needed 
to.
    And so, they can step into those systems which they 
understand and they already appreciate. And once they get into 
that franchise, they get franchise training. They get ongoing 
training. They have got support, somebody who is going to go 
out and work with them and help them get into that.
    If I had started my first business by myself, I don't think 
I could sit here and say I was a successful business woman 
starting off. No one in my family had ever been an 
entrepreneur.
    I knew I wanted to run my own team. I wanted to lead a team 
in a common mission. I wanted to be in business. I wanted to 
settle down in my community. But I needed help, and franchising 
was a great way to help.
    Mr. Takano. I see. The same way you have training wheels to 
work on a bicycle, franchising as a first business experience 
maybe a good way to go.
    I will tell you where I am coming from as a trustee of the 
community colleges in California for a number of years. We were 
toying with trying to set up a franchise center where the 
community colleges would provide a lot of the coursework. But 
we would have a one-stop shop where the student could learn 
about the different business skills and the knowledge you need, 
but also connect with the specific franchises that were a match 
for them, and also the financing.
    I can imagine something similar if we encouraged a 
community college or some institution to supply that one-stop 
shop or that transition for the veteran.
    Ms. Thompson. And could you use part of your GI bill? Not 
all military veterans who come out go right into college, but 
if they could use that for franchise education to get them into 
business quicker?
    Mr. Takano. That is where I am also going with it, and I 
also like the idea that they have a little pot of money that 
they can put toward actually buying the franchise. Or we have 
ways to help them finance purchase of the franchise.
    Ms. Thompson. And with VetFran, the 600 participating 
franchisors that participate, we offer our best discounts to 
the veterans coming in because we want them to have working 
capital as quickly as possible.
    Mr. Takano. Well, that is--go ahead. I will let you 
comment, Mr. Kopser.
    Mr. Kopser. Thank you, Congressman.
    The two points I hit and I want to reinforce is capital, 
which we very clearly have identified, but the freedom. And 
what I mean by the freedom is, whether it be a franchise or a 
high-tech company like what we are building, the best freedom 
for a transitioning service member is time.
    And laced also to the $1,000 per year of honorable service 
in the military would be 1 week of permissive TDY is what we 
call it in the military, where you are not required to go to 
your Army job or your military job, but you are still being 
paid. So it is permissive TDY, temporary duty, where they could 
either go to a community college model or go to a local 
university and just audit, just sit in the back of the class--
not even for a grade, not even the whole semester--until they 
got, as you say, the training wheels to go through it.
    So it is to give them the flexibility. And that freedom 
comes with time, as well as the capital in the form of money, a 
direct grant.
    Mr. Takano. Mr. Chairman, I will yield back at this point.
    Mr. Flores. Okay. Thank you, Mr. Takano.
    Mr. Williams, you are recognized for 5 minutes for 
questions.
    Mr. Williams. Thank you very much, Mr. Chairman.
    And I will be--I want to thank all of you for being here. 
You are doing a fantastic job.
    I will start with you, Ms. Thompson. I am a franchisee. My 
family has been in the franchise business since 1939, and it is 
the greatest opportunity for anybody to get into business.
    Ms. Thompson. I agree.
    Mr. Williams. And I want to let you know I support it very 
much. I believe incentivizing rather than penalizing.
    Ms. Thompson. Amen.
    Mr. Williams. And the franchise system does that and 
seeding and visibility unlimited to the franchisee. So I am 
very ----
    Ms. Thompson. It is the great American dream.
    Mr. Williams. There is no question about it. And like I 
say, since 1939, my family has been in it.
    And but I also want to emphasize, too, and you have heard 
support here from my two colleagues, the fact that you bring up 
about the 50 percent franchise fee tax credit is a huge thing. 
It converts to cash flow. That is the operating capital for 
that franchisee.
    And I will let you know I will support anything that has 
anything to do with that because that is the way to help 
franchisees get their seed capital.
    And also just to remind everybody, small business is what 
we are all talking about, is half the payroll, half the 
workforce in America is what builds--is totally what builds 
this country. So I want to tell you, you are on the right path, 
and I will be more than glad to help you as we go through, too.
    Ms. Thompson. On behalf of the veterans and franchising, 
thank you. It matters. What you are doing really matters, and 
this could make a big difference to someone going into business 
2 years earlier or getting off the ground 3 months faster.
    Mr. Williams. I am with you. I get it. So thank you.
    And also, Mr. Amsden, thank you for your work today. I 
found several things you said interesting. You talk about some 
challenges you had, one of which you thought that vets need a 
better way to market themselves.
    And you know, the truth of the matter is, life is retail. 
And when you have been in the service, sometimes you don't have 
that opening to understand that until later. What--and very 
briefly, what do you think we can do to help these vets market 
themselves as the great people they are and the great workers 
they will be and are?
    Mr. Amsden. Well, I think you all can look at developing 
some type of what I would call a shared services model. So 
whether it is for additional capital, whether it is legal 
services, where when you are starting a business, you need all 
types of ancillary services, which any franchisee or any 
entrepreneur needs to go through. It could be legal. It could 
be accounting. It could be sales/marketing, whatever.
    But now, so building a shared services model to support 
entrepreneurial growth, if you guys could build something like 
that, that would be very, very helpful to anyone that is trying 
to build a business.
    Now regarding the specific individuals, the soldiers that 
are getting out of the service, I think it was very eloquently 
stated, when these folks are first getting out of the service, 
it is like a hard and fast stop. They work, work, work, and 
there is no real serious transition phase for them to get 
trained or to even give them the period to learn how to 
interview, go take interviews.
    They should be encouraged to partner with private business 
and go take interviews, learn how to interview, learn how to 
market their skills. And very importantly, these are 
professionals that they have often gone around in the world in 
their service, but their mindset when they get out is often to 
come home--to come back to Texas, right?
    Which I am not trying to push anyone away from Texas. But 
the reality is, it's a national economy. And one of the things 
that these folks need to learn is that there are jobs in 
Seattle. There are jobs in California. There are jobs in 
Massachusetts. And they need to market themselves not just to 
Texas, but to our country in the private sector. And that is 
one of the things they need to learn.
    Mr. Williams. We want to work with you on that.
    The next thing is to John. Thanks for your service. 
Appreciate it very much.
    Let me go back to Chris real quick. Thanks for what you 
guys are doing. I found very interesting your translation 
program, I think that is great, and I think you need to keep 
that up. And anything we can do to help you with it. Because 
that is important. Terms can mean a lot of different things to 
people.
    Mr. Burton. Yes, sir.
    Mr. Williams. And I want to thank you. I want to thank you 
for that.
    And to John with Caterpillar, you guys do a fantastic job. 
I picked up on where you said welders are something we need to 
have. I can show where we have lost a lot of business right 
here in Texas because we don't have enough welders. And keep 
those things up.
    And the 100,000 goal of employees by 2020, I think I 
understood that.
    Mr. Vizner. That is correct. But we are well beyond that 
path. I believe there is over 92,000 with 6 to 7 years to go.
    Mr. Williams. That is what I heard you say. That is great. 
And ----
    Mr. Vizner. We could set another milestone, though.
    Mr. Williams.--we want to help you get to 200,000, if we 
can.
    And Joseph, you talked about angel investors. We have got a 
lot of issues right now that we have got to do better to 
promote angel investors. We need to instead of penalizing them, 
we need to be able to promote them. Because in many cases, that 
is the cash flow that these small business owners need to get. 
I understand that, and I want to help you there.
    And capital is the seed. We have got to be able to free up 
capital and let investors, whether they be private investors, 
banks, or whatever, be able to loan that capital, be able to 
let people take risk, and be able to let people get rewarded.
    That translates into entrepreneurship, capitalism, and the 
great American dream. I think we all get that, and I appreciate 
your words on that, and I think you can count on this group of 
people here to work for it and help you there.
    Mr. Kopser. Thank you, Congressman.
    Mr. Williams. Thank you very much. I yield back.
    Mr. Flores. Thank you, Mr. Williams.
    Normally, we don't do this. But I thought this panel was 
particularly instructive. How many in the audience agree with 
that? So ----
    [Applause.]
    Mr. Flores. Thank you for the first panel. We are going to 
ask you to be dismissed, and then we will bring up our second 
panel.
    On our second panel, we are going to have Dr. Janet Bagby, 
with Baylor University; Mrs. Kris Cervantes, with McLennan 
Community College; Mr. Rob Wolaver, with the Texas State 
Technical College; and finally, Colonel Gerald Smith, with 
Texas A&M University.
    I would like to thank the second panel for joining us 
today, and I would like to start with you, Dr. Bagby. You are 
recognized for 5 minutes.

                    STATEMENT OF JANET BAGBY

    Ms. Bagby.
    Good morning.
    Thank you, Chairman Flores, Ranking Member Takano, and 
Congressman Williams, for the opportunity to address this 
subcommittee.
    It is an honor to come before you and to represent Baylor 
University. My name is Janet Bagby. I am a faculty member in 
the School of Education and the VETS coordinator.
    On behalf of our president, Judge Kenneth Starr, I welcome 
you to our campus.
    As Judge Starr said in his opening remarks, we have about 
100 student veterans attending Baylor. Since Baylor is a 
private school, the financial benefit provided by the GI bill 
covers only about one semester of Baylor's tuition. By electing 
to participate in the Yellow Ribbon program, Baylor has made 
the financial commitment to support student veterans who choose 
to attend our university.
    While our student veteran enrollment may never match that 
of public universities, I am extremely proud of the services 
and support we are providing for those veterans who do attend.
    After researching the needs of student veterans on campus, 
Baylor created the Veteran Educational and Transition Services, 
VETS, program in the fall of 2012 to support the academic 
success of student veterans attending our campus. I work 
closely with our campus VA certifying agent, who assists our 
student veterans in their certification needs.
    Through the VETS program, I serve as an advocate and mentor 
for student veterans on campus. Undergraduate student veterans 
during their first semester at Baylor take a 1-hour, 1-credit 
course to assist in their transition to college and 
specifically to Baylor. Coming from a highly structured 
environment of the military to a highly unstructured 
environment of a university can present challenges for incoming 
student veterans.
    For those veterans who need extra assistance with math 
classes, the VETS program has partnered with our Air Force ROTC 
to offer free tutoring by the cadets who are fifth-year 
engineering majors. We have developed a similar partnership 
with Army ROTC to provide tutoring for student veterans in 
other content areas.
    Although VETS has existed for only three semesters, we are 
making a difference and positively impacting the lives of our 
student veterans. We are tracking their progress and look 
forward to sharing this data with you in the near future.
    Last spring, a Baylor counselor informed me that Armando, a 
senior philosophy major and an Army veteran, was in difficulty 
and asked if I could help. During the fall semester, Armando 
had been sitting on his motorcycle at a traffic light when a 
car crashed into him. His injuries were so severe that he had 
to take incompletes in all of his classes and postpone his 
pending graduation.
    In the spring semester, Armando worked with the professors 
of his six classes to satisfy requirements. However, since he 
was not formally registered for classes, Armando did not have 
access to the library or the student athletic facility. He was 
struggling to complete the required coursework without library 
resources, and without access to the fitness equipment in the 
Baylor Health Center, his physical healing suffered as well.
    I immediately assumed an advocacy role and shared Armando's 
story with the provost's office and the assistant vice 
president for student financial services. Within several days, 
Armando was enrolled in our VETS course, tuition free, and was 
granted access to all Baylor facilities. I am happy to report 
that he was able to complete all his coursework and graduated 
in May.
    The VETS program is currently partnering with Baylor's 
Career Development Department to develop or adapt career 
resources to specifically address the needs of our student 
veterans. Three years ago, the Veterans of Baylor student 
organization was chartered with the mission of providing a 
community for student veterans on campaign. I serve as the 
faculty adviser for Veterans of Baylor.
    While Baylor has a long tradition of being military 
friendly, we are now dedicated to becoming a military-embracing 
campus by cooperating together for the good of our students. In 
addition to partnering with our ROTC programs, career 
development, and our law school, who provides free legal advice 
for our veterans, we are also connecting with the veterans One-
Stop shop downtown Waco and local veterans in the business 
community.
    In conclusion, the VETS program, the Veterans of Baylor 
student organization, Army ROTC, and Air Force ROTC are 
cosponsoring a Veterans Day ceremony on November 11th at 5:00 
p.m. on campus for the Baylor and the Waco communities.
    Chairman Flores, Ranking Member Takano, Congressman 
Williams, this concludes my testimony today, and I am happy to 
answer any questions that you may have.

             [The prepared statement of Ms. Bagby]

    Preparing for Oral Testimony before Congressional Committee 
Dr. Janet Bagby09 Baylor University
    Opening Statement:
    Good morning,
    Thank you, Chairman Flores and Ranking member Takano for 
the opportunity to address the subcommittee this morning. It is 
an honor to come before you and to represent Baylor University.
    My name is Dr. Janet Bagby, Senior Lecturer in the 
Department of Educational Psychology and the VETS Coordinator. 
On behalf of our President, Judge Kenneth Starr, I welcome you 
to our campus.
    Testimony:
    Currently we have approximately 100 student veterans 
attending Baylor. I say ``approximately'' because we cannot 
identify our student veterans unless they are using VA benefits 
to pay for their tuition. Beginning in 2015, students will have 
the opportunity to check a box on the Baylor application if 
they are veterans. At that point, we will be able to identify 
all incoming Baylor student veterans not just those using GI 
benefits. Since Baylor is a private school, the financial 
benefit provided by the GI Bill covers only about one semester 
of Baylor's tuition. By electing to participate in the Yellow 
Ribbon Program, Baylor has made the financial commitment to 
support student veterans who choose to attend our University. 
While our student veteran enrollment may never match that of 
public universities, I am extremely proud of the services and 
support we are providing for those veterans who do attend.
    After researching the needs of student veterans on campus, 
Baylor created the Veteran Educational and Transition Services 
(VETS) Program in the fall of 2012 to support the academic 
success of student veterans attending the University. The VETS 
office, located in the Army ROTC facility, is administratively 
part of the Paul L. Foster Success Center that focuses on 
meeting the academic and career needs of all Baylor students. 
The VETS Program is staffed by LaNette Thompson, the VETS 
Transition Coach and an Educational Psychology doctoral 
student. Ms. Thompson's position has been generously funded by 
Baylor's Graduate School Dean for the past two years. In 
addition to my teaching responsibilities in the Educational 
Psychology Department, I serve as the VETS Coordinator. The 
Provost's office supports the VETS Program with an annual 
operating budget. The Baylor Veterans' Coordinator is Ms. 
Jessica Alford whose full-time responsibilities include 
assisting our student veterans in their VA certification needs. 
The VETS Program and the Veterans' Coordinator provide duel 
support for Baylor's student veterans.
    Through the VETS Program, I serve as an advocate and mentor 
for student veterans on campus. Having loved my experience of 
being a Baylor faculty member for over 20 years, I have 
developed a strong passion for serving this special population.
    Undergraduate student veterans, during their first semester 
at Baylor, take a one-hour, for-credit course to assist in 
their transition to college and specifically to Baylor. This 
class gives student veterans an opportunity to connect on 
campus. Coming from a highly structured environment of the 
military to the highly unstructured environment of a university 
can present challenges for incoming student veterans. Topics 
covered in the course include:
    Implementing study strategies
    Utilizing Baylor's technology
    Accessing support systems on campus
    Registering for classes and securing tuition assistance
    Planning a career path
    Receiving free legal assistance through Baylor's Law School
    The majority of these sessions are presented by key 
faculty/administrators who have expertise in these areas and 
who demonstrate their support by personally addressing the 
students. One class member, an Army veteran whose husband was 
just deployed, leaving her to cope alone with four small 
children while at the same time beginning her college career, 
has especially appreciated the support that the class provides. 
As part of the course, student veterans submit a writing sample 
and receive individual feedback on techniques for improving 
their writing skills, a practice that is helping them in their 
other classes. For those student veterans who need extra 
assistance with math classes, besides options in the Paul L. 
Foster Success Center, the VETS Program has partnered with Air 
Force ROTC to offer free tutoring by the AF cadets who are 
fifth year Engineering majors. We are in the process of 
developing a similar partnership with Army ROTC to provide 
tutoring for the student veterans in other content areas.
    Although VETS has existed for only three semesters, we are 
making a difference and positively impacting the lives of our 
student veterans. Last spring, a Baylor counselor informed me 
that Armando, a senior Philosophy major and an Army veteran, 
was in difficulty and asked if I could help. Armando had been 
sitting on his motorcycle at a traffic light when a car crashed 
into him. His injuries were so severe that he had to take 
incompletes in all his classes and postpone his impending 
graduation. That spring, Armando worked with the professors of 
his six classes to satisfy requirements. However, since he was 
not formally registered for classes, Armando did not have 
access to the library or the student athletic facility. He was 
struggling to complete the required coursework without library 
resources, and without access to the fitness equipment in the 
Baylor health center, his physical healing suffered as well. I 
immediately assumed an advocacy role and shared Armando's story 
with the Provost's office and the Assistant Vice-President for 
Student Financial Services. Within several days, Armando was 
enrolled in our VETS course, tuition-free, and was granted 
access to all Baylor facilities. I am happy to report that he 
was able to complete all his coursework and graduated in May.
    The VETS Program is currently partnering with Baylor's 
Career Development Department to develop or adapt career 
resources to specifically address the needs of our student 
veterans. For example:
    Resume/cover letters: Tailoring military language and 
experience to civilian job market and skills
    Interview practice: Customize specific questions veterans 
might encounter in interview settings
    Veteran Mentor Program: Develop a mentoring program where 
student veterans are paired with successful alumni who are also 
veterans.
    A VETS Advisory Board, composed of key Baylor 
administrators and community leaders, meets regularly to guide 
and support the VETS Program.
    Three years ago, the Veterans of Baylor student 
organization was chartered with the mission of providing a 
community for student veterans on campus. I serve as the 
faculty advisor for Veterans of Baylor. With cooperation from 
the Provost's office, we are in the process of identifying 
Baylor faculty and staff who are veterans or who have immediate 
family members currently serving in the military.
    While Baylor has a long tradition of being ``military 
friendly,'' we are now dedicated to becoming a ``military 
embracing'' campus by cooperating together for the good of our 
students. For example, the VETS program, the Veterans of Baylor 
student organization, Army ROTC, and Air Force ROTC are co-
sponsoring a Veterans Day Ceremony on November 11th at 5:00 PM 
on campus for the Baylor and Waco communities.
    Conclusion:

    Chairman Flores, Ranking member Takano this concludes my 
testimony today. I am happy to answer any questions that you 
may have.
    Mr. Flores. Thank you, Dr. Bagby. And thank you for what 
you did to help Armando out.
    Ms. Cervantes, you are recognized for 5 minutes.

                  STATEMENT OF KRIS CERVANTES

    Ms. Cervantes. Good morning. It is a pleasure to be here.
    My name is Kris Cervantes, and I am the veterans specialist 
at McLennan Community College here in Waco. I am a military 
spouse. My husband is now finished with the military and works 
at the VA Center for Excellence.
    At MCC, we have a program called RSVP, and it came to their 
attention that veterans experience higher unemployment rates 
than the general population. There are lots of causes for this, 
but some of the contributing factors, according to the Texas 
Veterans Commission and the VA Center for Excellence, are lacks 
in the areas of personal support, up to date work experience 
and resumes, and also that veterans aren't necessarily willing 
to just settle for any old job. They want a job that has 
meaningful purpose.
    With that in mind, the RSVP program received funding from 
the Corporation for National and Community Service, and the MCC 
Foundation also applied for and received funding from the Texas 
Veterans Commission to expand their offerings to veterans, and 
the Connect-A-Vet program was created.
    There is a reason that it is called military service. 
Veterans want to give back to their community. And what 
Connect-A-Vet does is it addressed all those lacks we 
mentioned. It creates networks of personal support, allows the 
opportunity for veterans to update their resumes, and provides 
meaningful work that makes a difference.
    And the way it does that is that if a veteran is referred 
to Connect-A-Vet, they might come from the TVC, from the One-
Stop shop downtown, from me as the education officer at MCC. 
They would come in and meet with a Connect-A-Vet counselor and 
be paired with a veteran mentor. And then that veteran is 
paired with an agency--an area nonprofit that they can 
volunteer with.
    This volunteer work is done while the veteran is adjusting 
to community life, pursuing needed treatments, and exploring 
education options. For example, a veteran with an MOS in 
transportation might be assigned to a local area agency that 
has a fleet of buses used to transport Head Start children. We 
have nearly 1,000 in the Waco area alone.
    In this way, the veteran's resume is going to be updated. 
They are going to get a good reference, and they might 
eventually be able to leverage that into a paid position.
    Some other examples might be that somebody with experience 
in inventory could be matched with Caritas, a local food back, 
to help them deal with over 6,000 clients. A veteran who is 
good with their hands might be assigned to work with Habitat 
for Humanity.
    A veteran who needs to change over to office work but lacks 
some computer skills would be given some training through 
Connect-A-Vet and MCC and then perhaps put into an 
administrative position in a local nonprofit, and thereby, they 
get some experience on the job so that they can translate that 
into a position.
    According to the National Survey on Giving, Volunteering, 
and Participating, 28 percent of survey volunteers said their 
unpaid service helped them obtain jobs. So far--and let me just 
say this program is in its infancy. We really just started 
accepting cases in September of this year.
    So far, we have already had enrollment in case management 
of 14 veterans. We have 11 mentors onboard, 9 of whom have 
completed training. We have already done resource referral for 
two military dependents. We have placed five veterans in local 
nonprofit volunteer positions, and we have two veterans who 
have already had paid employment as an outcome of their 
connection with this program.
    We do have a resource center at the MCC campus, which has a 
beautiful framed flag from Congressman Flores' office. Thank 
you.
    Mr. Flores. You are welcome.
    Ms. Cervantes. Some other Connect-A-Vet services that we 
will be offering include resume building, resource referrals. 
Of course, education information and referral, they are free to 
send veterans to me, and whether the veteran wants to attend 
MCC or another college, I will be happy to help them connect 
with what their benefits are.
    We have a small business development center on MCC's campus 
that is award winning and can give them lots of great 
information about how to start their own business. Career 
planning, networking opportunities.
    Emotional assessment services. One of the main things that 
this program is meant to address is that feeling of disconnect 
and sort of culture shock as a person leaves the military and 
may not have gainful employment already set up. We want to help 
them fill their days with something meaningful. And of course, 
we will recognize their service.
    McLennan Community College, as a college, has over 100 
certificates and degrees which are approved for pursuit with 
Federal education benefits. And we have partnerships with six 
Texas public universities as well as Baylor. We have award-
winning programs and instructors in a wide variety of fields.
    Most of the veterans that we see on campus are combat 
veterans. They have seen combat in Iraq and Afghanistan. They 
are family members. They have wives, children, husbands, et 
cetera.
    At MCC, last spring, I processed 575 State and Federal 
claims for veterans and their dependents. So we have a fairly 
large military population on campus. We have so far this fall 
already processed 581 claims. So it is ahead of the curve, and 
we expect those numbers to continue growing.
    And that is all. If anybody has any questions, I would be 
happy. And thank you for the opportunity to speak.

           [The prepared statement of Ms. Cervantes]

    Connect-a-Vet Project and Other Veterans' Services
    RSVP, McLennan Community College and MCC Foundation
    Presenter: Kris Cervantes, VA Specialist in the Office of 
Financial Aid, McLennan Community College
    CONNECT-A-VET PROJECT
    Over 2.2 million veterans served in Iraq and Afghanistan as 
part of Operations Enduring Freedom and Iraqi Freedom. The 
Department of Labor (DOL) state unemployment rates for these 
returning veterans is more than 2% higher than the rates from 
other combat eras and is 29.1% for those aged 18-24. Texas 
Veteran's Commission (TVC) and the VA Center for Excellence 
report that lack of personal support, current work experience 
and meaningful purpose during the first months of transition to 
civilian life is a contributing factor to these statistics.
    Screened and referred by TVC and other organizations, 
veterans will be placed in volunteer positions with partner 
non-profit agencies. Participating agencies will sign an 
updated Memorandum of Understanding that not only secures 
proper supervision and safety, but will encourage learning 
opportunities and job placement for the veterans when possible. 
RSVP volunteers will provide training and mentor support, all 
while our veterans provide manpower needed to meet growing 
demands for social services. This project will assist veterans 
in adjusting to their community while they, in turn, help build 
the capacity of the nonprofit organizations. The concept 
creates a two-fold impact.
    Veterans can ``make a difference'' while they may also be 
receiving treatment, counseling, attending school, seeking jobs 
or re-connecting with their families. Resumes will be 
strengthened and self-value will be increased. TVC reports 
veterans often face months of uncertainty, plagued with dated 
work experience, empty days and lack of direction. We will fill 
that gap with 30 new RSVP volunteers to supervise veterans.
    Over 800 HOT RSVP volunteers serve in McLennan, Hill, 
Bosque, Falls, Freestone and Limestone counties, 15% of them 
veterans. With the exception of Waco itself, the area is widely 
rural with a total of 52,500 veterans living in our region. 
This RSVP is only six miles from the Waco VA Medical Center, 30 
miles from the Temple VA Medical Center and 46 miles from Fort 
Hood's military installation. For these reasons among others, 
Waco has been designated by USAA Magazine as the #1 location 
nationally for military retirement, providing a ready supply of 
new volunteers.
    Some examples of how the project will work: A soldier 
returns from duty with an MOS in transportation. He might 
volunteer with our regional community action agency to maintain 
a fleet of buses used to transport the 1,000 Head Start 
children in this area. Another veteran has experience in 
shipping and receiving supplies, a skill that could be utilized 
by our local food bank in serving 6,000 clients monthly. Maybe 
a third veteran was in combat for so long that she lost 
relevant skills, or perhaps she simply has the desire to learn 
something new. Habitat for Humanity could teach a building 
trade. A veteran with new physical limitations could obtain 
office or management experience. The possibilities are endless. 
Some agencies may wish to hire our heroes and benefit from the 
tax credits available. At the very least, these veterans have 
added experience to their resume and begun the process of 
rejoining their community. With a proven Emotional Assessment 
Profile pre- and post-test given by trained professionals at 
MCC, RSVP will be able to document that depression is lessened, 
self-worth is increased, resources have become more accessible 
and relationships built. As an added benefit, agencies will 
have increased their capacity to serve this region.
    Participating Agencies:
    * HOT Veterans Coalition (Veterans One Stop)
    * Congressman Bill Flores' District Office
    * Waco Transit
    * McLennan County Veterans Services
    * Advocacy Center
    * Waco Habitat for Humanity
    * Friends for Life
    * Mission Waco
    * Caritas of Waco
    * Area Agency on Aging/HOTCOG
    * Tarleton University School of Social Work
    * VA Medical Center
    * MCC Mental Health Division
    * MCC Adult Basic Education program
    * San Saba RSVP (Ft. Hood)
    * Meals and Wheels
    * Helpings SNAP Outreach
    Grants were provided to RSVP by the Corporation for 
National and Community Service. The McLennan Foundation later 
applied for an additional grant through the Texas Veterans 
Commission, which allowed the RSVP program serving veterans to 
be greatly expanded. McLennan Community College sponsors RSVP 
in the Heart of Texas, which is funded by the Corporation for 
National and Community Service and the Texas Department on 
Aging.
    McLENNAN COMMUNITY COLLEGE VETERANS' SERVICES
    McLennan Community College offers more than 100 certificate 
and degree programs which are approved for pursuit using 
federal and state veterans' education benefits (visit http://
www.mclennan.edu/students/admissions/aprog.html for a list of 
programs). We also partner with six state universities and 
Baylor University to offer transfer programs which allow 
students to complete a variety of Bachelor, Masters, and 
Doctoral programs here in Waco.
    Veterans are offered exceptional service through all 
departments of the college, as well as personalized assistance 
in using federal and state education benefits by the Veterans 
Specialist within the Office of Financial Aid. MCC is a 
Servicemembers' Opportunity College which has processed over 
580 state and federal VA education claims so far this Fall 
(2013):
    * 11 students using Reserve education benefits.
    * 25 veterans using the Veterans Retraining Assistance 
Program.
    * 33 students using VA Vocational Rehabilitation.
    * 35 students using the Montgomery GI Bill.
    * 87 dependents of deceased or 100% disabled veterans, 
using the Dependents Education Assistance Program.
    * 196 students using the Post-9/11 GI Bill.
    * 63 veterans using Hazlewood alongside another VA benefit.
    * 46 veterans using only the Hazlewood benefit.
    * 24 dependents using the Hazlewood alongside their 
dependent benefits.
    * 61 dependents using only the Hazlewood benefit.
    McLennan Community College's mission is to provide access 
to excellent workforce and transfer programs, student services, 
and continuing education that promotes student success 
including proficiency in identified student learning outcomes, 
successful course completion, graduation, employment, and 
transfer to a senior institution. The college engages and 
strengthens its community through successful educational 
attainment, strong leadership, sustainability efforts, best 
practices, community service, and integrity.
    MCC is accredited by the Commission on Colleges of the 
Southern Association of Colleges and Schools to award the 
Associate in Arts, Associate in Science, Associate in Applied 
Sciences, and Associate of Arts in Teaching degrees. The school 
was established in 1965 by the citizens of McLennan County. MCC 
provides equal educational opportunity for all qualified 
students and does not discriminate on the basis of sex, 
disability, race, creed or religion, color, age, national 
origin or any other unlawful factors in its educational 
program, activities, or employment, as required by Title VI of 
the Civil Rights Act of 1964, Section 504 of the Rehabilitation 
Act of 1973, Total IX of the Educational Amendments Act of 1972 
and the Age Discrimination Act of 1978.
    FEDERAL GRANT AWARDS ACTIVE FOR FY2014
    (Does not include Federal Student Financial Aid)
    McLennan Community College
    * Small Business Development Center (SBDC); $105,815 
awarded by U.S. Small Business Administration.
    * RSVP Continuation Grant; $62,865 by the Corporation for 
National and Community Service.
    * RSVP Veteran Augmentation Grant; $10,500 by the 
Corporation for National and Community Service.
    * Adult Basic Education Consortium; $513,416 plus 
$67,891Federal TANF by U.S. Department of Education.
    * TRIO Upward Bound; $342,068 by U.S. Department of 
Education.
    * TRIO Student Support Services; $305,051 by U.S. 
Department of Education.
    * Perkins; $711,119 by U.S. Department of Education.
    Mr. Flores. Thank you, Ms. Cervantes.
    Mr. Wolaver, you are recognized for 5 minutes.

                    STATEMENT OF ROB WOLAVER

    Mr. Wolaver. Thank you, Mr. Chairman, Ranking Member 
Takano, Congressman Williams. Thank you for the opportunity for 
Texas State Technical College to participate today.
    My name is Rob Wolaver. I am the executive vice president. 
I am here today representing Chancellor Mike Reeser, who is out 
of town at our college's Board of Regents meeting.
    TSTC is soon approaching our 50-year anniversary as a 2-
year institution of higher education, offering occupationally 
oriented programs in advanced and emerging technical fields. 
The core mission of TSTC and our programs is to produce top-
quality graduates and to place them in high-demand, high-
earning fields.
    TSTC is the only State-supported technical college system 
in the State of Texas. We have locations in Harlingen, 
Marshall, Sweetwater, Waco, and centers that are located in 
Abilene, Breckenridge, Brownwood, Hutto, Ingleside, Red Oak, 
and Richmond.
    TSTC system offers 151 associate of applied science degrees 
and 7 associate of science degrees. We are very proud to have 
produced 93,000 graduates in our 48-year history.
    Currently, there are 611 veterans enrolled across the TSTC 
system. Those students have the opportunity to participate in a 
number of financial assistance programs, VRAP, post 9/11 GI 
bill, the Reserve Educational Assistance Program, Montgomery GI 
bill, Veterans Assistance Program, Rehabilitation Act, and 
Hazlewood.
    TSTC deploys various strategies specifically targeted 
providing additional support to veteran students. The military 
credit crosswalk is a Web-based tool that allows veterans to 
determine ahead of time potential college credit for training 
that they have received while in the service.
    The Veterans Council, a group of individuals that represent 
military support services, as well as college staff meet 
monthly to promote awareness on veterans issues and to explore 
additional assistance opportunities for veterans. The Veterans 
Support Center, fully deployed at our Harlingen location and 
currently in development at the Waco location, provides 
enhanced intake services, expedited benefits assistance and 
processing, specialized counseling services and referrals, 
educational support through coaching and mentoring, social 
activities, enhanced placement services.
    In addition, the college actively conducts expanded 
recruiting programs at military installations for veterans who 
are in the process of processing out of services. For instance, 
in Fort Hood, Congressman Williams.
    Customized competency-based curriculum is a pilot project 
that we have initiated which decouples skills development, a 
student's skills development from a traditional semester 
credit-hour format. This format allows a student to demonstrate 
mastery of real-world job skills at their own pace, expediting 
their path to a credential and placement in the workforce.
    This curriculum is an important and viable option, we 
believe, for veterans to utilize because it allows them to 
utilize the skills that they learned in the service and advance 
through an educational curriculum at an accelerated pace. This 
program is currently fully deployed in one discipline at our 
Harlingen location, and we are in the initial rollout stages of 
this format at our East Williamson County Higher Education 
Center, which is located in Hutto, in multiple disciplines.
    We are very proud that in the past few years, TSTC has seen 
a 32 percent increase in graduates and a 36 percent increase in 
placements. TSTC has graduated 134 veterans this past year, and 
TSTC Waco alone has graduated 279 veterans since 2009.
    Texas State Technical College is committed to serving 
veterans through a number of opportunities--the expansion of 
support services that we offer to those, the development of new 
methods of skills assessment allowing a veteran to progress 
through a training curriculum at an advanced pace, additional 
customized curriculums that allow for an efficient pathway to 
employment and credential, and the development of specialized 
short-term training programs that are targeted directly at 
those veterans.
    Thank you again, Mr. Chairman, Members of Congress, for the 
opportunity for TSTC to be here today and to serve the veterans 
of the United States.

            [The prepared statement of Mr. Wolaver]

    House Committee on Veterans' Affairs
    Oversight Field Hearing for the Subcommittee on Economic 
Opportunity
    ``Texas' Innovative Approaches to Jobs and Employment for 
Veterans''
    Presentation by
    Texas State Technical College System
    Mr. Rob Wolaver
    Executive Vice President, TSTC Waco
    Background and History
    Texas State Technical College was established in 1965 as 
the James Connally Technical Institute (JCTI) of Texas A & M 
University to meet the state's evolving workforce needs. JCTI 
was located in Central Texas at the former James Connally Air 
Force Base in Waco. In 1967, JCTI expanded to include a South 
Texas campus in Harlingen. Additional locations soon followed.
    JCTI separated from Texas A&M University in 1969 and became 
an independent state system with its own nine-member Board of 
Regents and the name Texas State Technical Institute (TSTI). In 
1991, the Texas Legislature elevated the status of TSTI's 
campuses by designating them as technical colleges with the 
name Texas State Technical College.
    The four independent colleges within the Texas State 
Technical College System (TSTC) are co-educational, two-year 
institutions of higher education offering occupationally 
oriented programs with supporting academic courses for 
certificates or associate degrees. Emphasis is on advanced and 
emerging technical programs not commonly offered by public 
junior colleges with a core focus on placement and earnings 
outcomes. For 48 years, TSTC has been producing top-quality 
graduates, who are nationally recognized for their highly 
specialized, technical capabilities and job-ready skills. 
TSTC's strong relationship with business and industry ensures 
that coursework focuses on the regional and statewide needs of 
Texas' employers and leads to success in the job market.
    TSTC is Texas' only state-supported technical college 
system. Its statutory mission is to provide an articulated and 
responsive technical education system aimed at identifying and 
addressing industry needs. These two features make TSTC unique 
among institutions of higher education. The TSTC System 
currently has campuses in Waco, Harlingen, Marshall and West 
Texas, with locations in Abilene, Breckenridge, Brownwood and 
Sweetwater. The System also has extension centers in Hutto, 
Ingleside, Red Oak and Richmond, in addition to partnerships 
with many of the state's public junior colleges.
    Accolades
    TSTC's colleges consistently rank as top producers of 
associate degrees in engineering, precision production, 
computer information systems, computer & information sciences, 
and enrollment of Hispanic students. In Community College 
Week's annual report titled ``Top 100 Associate Degree 
Producers,'' TSTC has ranked number one in Texas numerous times 
in one or more categories and has consistently stayed among the 
top 50 colleges in the nation in nearly every applicable 
category.
    In the 2012 report, TSTC Waco ranked number one in Texas 
for graduating the most students in the categories of precision 
production, engineering technologies/engineering-related 
fields, and computer & information sciences & support services. 
In both 2012 and 2013, the college ranked third in the nation 
for conferring engineering-related associate degrees.
    TSTC offers more than 151 Associate of Applied Science 
(AAS) degrees and certificates and has produced more than 
93,570 graduates in its 48-year history. TSTC Harlingen also 
offers seven Associate of Science (AS) degrees in biology, 
computer science, engineering, mathematics, physics, nursing 
preparatory and health professions.
    Since 2009, the TSTC System has generated a 32 percent 
increase in graduates and a 36 percent increase in job 
placements. The combined first-year earnings of TSTC graduates 
are projected to surpass $55 million in new salaries for Texas 
- a 54 percent increase over the last four years.
    Demographics
    TSTC students across the System are a diverse group 
demographically. They are 65.7 percent minority (56.91 percent 
Hispanic, 8.60 percent black, 0.19 percent other minorities) 
and 34.3 percent white. The student body is comprised of 39.83 
percent females and 60.17 percent males. Students come from 200 
of Texas' 254 counties, and nearly 63 percent are economically 
disadvantaged.
    Veterans at TSTC
    TSTC is proud to have many veterans of the armed services 
among its graduates. Since 2010, TSTC Waco alone has graduated 
279 veterans. Roger Hinojosa, from Brownwood, Texas, served in 
the United States Army as a combat medic prior to attending 
TSTC Waco. Roger completed his Associate of Applied Science 
degree in Avionics and is currently working for L3 
Communications as an avionics cable assembly technician. Travis 
Beach, from Chester, New York, served in the United States Army 
as a generator mechanic. Travis completed his Associate of 
Applied Science degree in Aviation Maintenance, also from TSTC 
Waco, and is currently working for L3 Communications as a night 
shift supervisor for the Manufacturing Division.
    > TSTC System - Competency-Based Education, A New Approach 
to Workplace Readiness
    Central to TSTC's efforts to assist veterans in their 
transition into the workplace is a new initiative intended to 
shorten the time necessary to earn an award. The new 
competency-based education model, however, does not sacrifice 
the quality of skills learned. TSTC began offering this 
competency-based approach in the fall of 2013 at two locations. 
The model aligns particularly well with the needs of veterans, 
displaced workers and career-focused high school graduates.
    TSTC Harlingen has implemented the first competency-based 
certificate in Industrial Systems Technology, part of the 
growing field of Mechatronics. This prototype decouples skills 
development from semester credit hours and is recognized as 
being among the first competency-based certificates in Texas by 
the Texas Higher Education Coordinating Board.
    TSTC's multi-institution teaching center in Hutto, the East 
Williamson County Higher Education Center (EWCHEC), has 
implemented competency-based instructional delivery across 
multiple certificate and degree programs. The primary emphasis 
is on skills mastery. Lecture materials are delivered online, 
and class time is focused on applied learning in state-of-the-
art labs where students work both individually and in teams. 
Students are routinely assessed for their ability to 
demonstrate competency in skills which are linked to courses 
within a semester.
    Competency-based programming is designed to allow a student 
to demonstrate mastery of real-world job skills at his or her 
own pace. In this way, a student will not spend unnecessary 
``seat time'' in classes reviewing information he or she 
already knows, either through past job experience or through 
military service. As a result, a two-year welding degree can 
now be completed in as few as four semesters - saving time and 
money while minimizing a student's deferred wages. Competency 
programming also ensures that the student learns and masters 
each required skill, rather than simply earning an average 
score for a semester-long course.
    > TSTC Waco - Veterans Enrichment Efforts
    Although TSTC's smaller locations work with state and 
community organizations to provide services to assist veterans, 
the larger campuses have implemented a number of special 
programs for veterans. For the sake of brevity and this 
Congressional Field Hearing, the services and programs listed 
below are specific to TSTC Waco.
    <bullet> Veterans' Council - Created in the spring of 2011, 
the Veterans' Council meets monthly on the TSTC Waco campus in 
order to bring awareness to activities, issues and/or 
challenges that pertain to veteran students. The council is 
comprised of TSTC staff, faculty, students and representatives 
from several community support organizations. The council also 
coordinates an annual Veterans' Day Appreciation Luncheon for 
students, faculty and staff who are veterans. The 2013 luncheon 
will be held November 7th at the Student Recreation Center on 
campus.
    <bullet> Credit Crosswalk - Developed through a grant in 
2010, the Credit Crosswalk provides veterans a tool to 
determine if college credit can be awarded for their military 
training. The Crosswalk compares military occupations to TSTC's 
coursework and is used to determine if military training is 
transferrable to TSTC. The Crosswalk is available online at 
http://www.waco.tstc.edu/veterans/militaryoccupations, an 
efficient tool available at the fingertips of any veteran 
searching for the right place to continue his education.
    <bullet> Targeted Recruiting at Fort Hood in Killeen - TSTC 
Waco's staff and faculty regularly make targeted recruiting 
trips to Fort Hood, located nearby in the Central Texas area. 
Hundreds of people transition from military assignments to 
civilian life each month from this installation. Recruiters 
attend transition events, along with job and career fairs. TSTC 
Waco's information is disseminated to interested persons and 
help is offered to veterans who wish to begin the enrollment 
process. Also, Fort Hood personnel are regularly apprised of 
the opportunities for veterans at TSTC Waco.
    <bullet> Veterans' Support Services Center - A Wagner-
Peyser grant proposal is currently under consideration within 
the Texas Governor's Office. Although TSTC Waco traditionally 
enrolls a significant population of veteran students, the 
college's success in retaining and placing veteran students 
needs improvement. During the 2012 - 2013 academic year, 571 
veterans attended TSTC Waco, about 13 percent of the student 
population. Historically, however, many of them leave without 
earning a certificate or degree (see addendum). The college 
currently has only one full-time staff member devoted to the 
needs of veteran students. The Wagner-Peyser funding will 
launch a Veterans' Support Services Center with the goal of 
improving TSTC Waco's ability to recruit, enroll, retain and 
graduate veteran students into high-demand occupations.
    TSTC Waco's Veterans' Support Services Center will be 
located within the Division of Student Development and will 
provide the following services:
    <bullet> Expanded recruiting efforts, especially at Fort 
Hood which is located approximately one hour south of campus 
(In fiscal year 2013, approximately 11,000 soldiers will exit 
the service from Fort Hood.)
    <bullet> Enhanced intake assistance, including review of 
military training transcripts and TSTC Waco program 
recommendations and including the use of Credit Crosswalk 
software to review military transcripts for college credit
    <bullet> Expedited benefits assistance, processing and 
validation
    <bullet> Social services support and referrals
    <bullet> Specialized counseling support and referrals 
(PTSD, social adjustment, etc.)
    <bullet> Educational support (coaching, mentoring, 
tutoring, etc.)
    <bullet> Enhanced placement assistance
    The project will utilize strategies from the Texas 
Workforce Commission's College Credit for Heroes, along with 
the Credit Crosswalk developed at TSTC Waco, to ensure that 
military training can be applied to a technical training 
program.
    TSTC Harlingen recently created a similar full-service 
Veterans' Center, serving approximately 200 veteran students. 
Services offered include benefit assistance, referrals for 
support services, scholarships, tutoring, academic advisement 
and veterans' event coordination with outside service agencies. 
The college is also actively involved in the College Credit for 
Heroes Scholarship Program.
    Conclusion
    Without exception, the colleges within the TSTC System are 
committed to serving U.S. military veterans. That commitment 
has led to the creation of a Veterans' Service Center on one 
campus and to the development of plans for another. TSTC is 
also committed to finding innovative educational pathways for 
the efficient and cost-effective transition of veterans into 
the workplace. The competency-based learning prototype is but 
one such pathway. As part of Texas' Skilled Workforce 
Initiative, the prototype is intended for statewide 
implementation and is geared toward assisting veterans wanting 
to maximize military training and earn a college credential. 
With the competency-based learning model in place and access to 
the Credit Crosswalk, veterans attending TSTC will be able to 
make the most of their military training as they successfully 
transition into the civilian workforce.
    Texas State Technical College System / November 6, 
20130Page 1
    Mr. Flores. Thank you, Mr. Wolaver.
    Colonel Smith, you are recognized for 5 minutes.

         STATEMENT OF COLONEL GERALD ``JERRY'' L. SMITH

    Colonel Smith. Yes, sir. Chairman Flores and distinguished 
subcommittee members, as I look down the line to my colleagues 
here, I don't have a fancy slide presentation, but I can offer 
you a good, old-fashioned Texas A&M howdy.
    Mr. Flores. Howdy back.
    Colonel Smith. My name is Gerald Smith, and I have had the 
privilege to serve as the Director of the Texas A&M Veteran 
Resource and Support Center, or VRSC, for the last year. I 
retired as a Colonel with 30 years of experience in the U.S. 
Marine Corps when I opened the doors of our VRSC last year.
    First, I would like to thank you for this opportunity. 
Texas A&M deeply values the service and sacrifice of our 
veterans and their families, and we also value your support of 
our veterans. Given our rich military history, A&M is committed 
to supporting our over 650 student veterans with a unique, 
dual-office partnership.
    The first office is our Financial Aid Veteran Services 
Office. It is a direct extension of our original Aggie Veteran 
Office that opened in 1946. They offer streamlined military 
educational benefit processing, and they also award veterans 
scholarships.
    To better serve well those who have served, we opened our 
VRSC last year, and we now perform all of the other functions 
outside of those financial aid functions to identify and 
provide uniquely tailored resources to our military-affiliated 
students. Our two offices now together support veterans from 
application to vocation.
    Initially, our office focused on facilitating student 
veteran transitions, and we launched our Aggie Veteran Network 
to connect students with existing resources. Next year, we will 
take this network and we will link it to our new Association of 
Former Students Veteran and Military Constituent Network. In 
the future, they will connect current student veterans to one 
of the largest and most active former student organizations in 
the country to promote countless employment and other 
opportunities.
    Back in 2008, our Mays School of Business introduced the 
Entrepreneurship Bootcamp for Veterans with Disabilities, or 
EBV, following the original program that started in 2007 at 
Syracuse University. It offers experiential training in 
entrepreneurship and small business management to veterans who 
are disabled as a result of service since 9/11, and it is 
entirely free to qualifying veterans.
    Two-thirds of our participants have started and continue to 
grow a business through the EBV. Along with Syracuse and Texas 
A&M, it has also been adopted by six other universities across 
the country.
    Now within weeks of opening our VRSC, we immediately 
partnered with our career center on campus. Our first 
cosponsored event was called Boots to Business Suits, where we 
brought in corporate leaders to discuss the skills valued in 
veterans, job search techniques, and other employer assistance.
    What we found is frequently we get prospective employers 
would contact their office or our office to talk about veteran 
employment, and we didn't always give them the full package. We 
now have a very systematic plan to make sure both offices are 
included in the discussion to better serve prospective 
employers and students.
    We have also started collecting security clearance 
information in our student veterans so that we can use the 
previous clearances to help connect them with Federal agency 
opportunities out there, and that has paid us a lot of 
dividends on the employment with Federal agencies.
    In August, we held our first Aggie Veteran Camp. It is an 
in-depth orientation for new student veterans, and typically, 
these kind of orientations focus on the short-term transition 
challenges. But we took a broader, longer-term perspective. We 
brought in the career center to immediately stress the 
importance of connecting with employment resources from the 
time they first start their college experience.
    Our career center also continues to develop other veteran-
specific programs. They have two dedicated student veteran 
advisers, both with military experience. They have updated 
their post graduation survey to track veteran employment 
better. Their database flags both recruiters and student 
veterans.
    They specifically market existing programs for veteran 
students. In the last year, they have had over 350 student 
veteran advising contacts and 400 interviews on campus. Since 
August, they have had over 200 student veterans access their 
online recruiting system.
    Some of our other veteran employment initiatives are going 
to include next February, we are going to host Operation Vet 
Success, which will be Texas A&M's first annual national 
student veteran career fair. We also work with local Texas 
workforce and TVC by referring students to these offices, and 
we invite them on campus to meet with students. We use social 
media to advertise, and we even provide them with the office 
space. And we have had representatives from the Texas Veterans 
Leadership Program also come to campus and provide one-on-one 
campus resume reviews.
    We assist in part-time employment for student veterans, and 
we recently reorganized our Student Veteran Association. We had 
a student veteran employment liaison officer to facilitate 
employment for other members of the SVA. Future programs that 
we are going to start will include student veteran family 
programs to assist in numerous areas, including spouse 
employment and scholarships.
    Now our new office is just beginning to develop some of 
these programs to serve veterans like James Rowin, who is with 
me today. In his 10 years in the U.S. Marine Corps Reserve, he 
went to Iraq three times and later deployed to the Horn of 
Africa in a civilian capacity.
    His wife is a U.S. Army Reserve officer. They are both 
Aggie student veterans who exemplify another generation of 
great Americans who have earned and deserve our support. Our 
VRSC is determined to help develop innovative best practices to 
enhance the future success of our student veterans.
    Thank you again for this opportunity for myself and Texas 
A&M to assist you in your efforts. God bless, and gig 'em.

           [The prepared statement of Colonel Smith]

    Written Testimony of
    Colonel Gerald L. Smith, (USMC) Ret.
    Director, Veteran Resource & Support Center, Texas A&M 
University
    Before the
    Subcommittee on Economic Opportunity of the House Committee 
on Veterans' Affairs
    Field Hearing on ``Texas' Innovative Approaches to Jobs and 
Employment for Veterans''
    November 6, 2013
    Chairman Flores and distinguished members of the 
Subcommittee on Economic Opportunity of the House Committee on 
Veterans' Affairs, my name is Gerald Smith and I have the 
privilege of serving as Director of the new Veteran Resource & 
Support Center at Texas A&M University. In addition, I am a 
retired Colonel with 30 years of service in the US Marine 
Corps.
    I want to begin by thanking you for the chance to come 
before you today to present testimony on important issues 
relating to supporting veteran employment. At Texas A&M, we 
deeply value the sacrifice and service of veterans and their 
families. We appreciate this committee's actions to investigate 
and focus on innovative ways to support meaningful employment 
for our service men and women after they leave the military.
    Today, Texas A&M remains committed to building upon our 
rich military history. Since 1876, Texas A&M has produced 
thousands of commissioned officers and has eight Congressional 
Medal of Honor recipients. No university in the nation (other 
than the service academies) has contributed more to military 
service than Texas A&M. In our Post 9-11 world, Texas A&M is 
undeniably veteran friendly; hence the large number of active 
duty personnel and veterans on campus. Currently, the veteran 
enrollment is approximately 650 students as Texas A&M continues 
to support veterans by enhancing their future employment 
opportunities through higher education.
    Through a unique and powerful ``dual office partnership,'' 
Texas A&M offers numerous programs and resources that benefit 
veterans. We now have two offices designed specifically to 
support veterans. The Scholarships and Financial Aid Veteran 
Service Office (VSO) is the direct extension of the original 
Veterans Advisory Office that opened in 1946. To better ``serve 
well those who have served,'' we opened the Veteran Resource 
and Support Center (VRSC) in 2012. Together, these offices 
provide a robust capability that truly supports our Aggie 
veterans from ``application to vocation.''
    The VSO offers streamlined processing of all federal and 
state educational benefits, deferred tuition pending Veterans 
Administration (VA) funds, veteran new student orientation, 
faculty and staff mentor training and cross campus referrals 
that reach campus wide. The VSO also identifies and awards 
scholarships for veterans. We are a partner school with the Pat 
Tillman Foundation and currently have recipients on campus that 
benefit from that scholarship. Recent procedural improvements 
in the VSO have significantly improved military educational 
benefit processing to ensure the best possible financial 
support for both veterans and military dependents.
    The mission of the VRSC is to constantly enhance Texas 
A&M's ``military friendly'' legacy by identifying, developing 
and providing uniquely tailored resources & programs to 
students that are: Veterans, Active Duty, Reserve or National 
Guard, military dependents, survivors and families in order to 
enrich their holistic development and overall academic success. 
By embracing the ``application to vocation'' mindset, we 
support veteran recruiting and college/career transitions by 
leveraging our Aggie Core Values to ``Serve Well Those Who Have 
Served!''
    The VRSC vision is to become ``the Texas A&M System Model 
University'' and improve our national ranking to truly become 
the university known for personal, all-inclusive support to 
Aggie Veterans and their families. As a highly visible 
institutional single point of contact (``one-stop referral 
shop''), the VRSC finds new avenues to maximize both TAMU and 
external resources to ensure world class academic and 
transition support that prepares Aggie Vets for future 
leadership in a global society. In short, as the focal point of 
Aggie Veteran collaboration and support, we foster a new sense 
of Aggie tradition to ``Serve Well Those Who Have Served!''
    Using these mission and vision statements as a guide, the 
VRSC has developed and implemented a variety of new programs 
that enhance veteran recognition, improve health service 
access, increase academic support, connects students with local 
community resources, and identifies employment opportunities 
(both full and part time). The VRSC was designed to ensure that 
Texas A&M continues to improve the quality of support as our 
student veteran population increases.
    The VRSC recently launched the Aggie Veteran Network (AVN). 
It is designed to connect Aggie student vets, dependents, 
military families, and veteran faculty/staff with each other 
and with external organizations. The mission of the AVN is 
twofold: First, to connect those who are providing, or are 
willing to provide, resources and support to our students. The 
second part of the AVN mission is to link our military 
affiliated students with high-impact opportunities to support 
each other and the local community. In the next year, the AVN 
will link with the new Association of Former Student Aggie 
Veteran & Military Constituent Network. As these programs grow, 
they will become a foundational and innovative method to 
effectively link and network current student veterans with one 
of the largest and most active former student organizations in 
the country to promote countless internship and employment 
opportunities.
    In 2008, the Mays School of Business at Texas A&M 
University introduced the Entrepreneurship Bootcamp for 
Veterans with Disabilities (EBV) which followed on the heels of 
a successful program launch at Syracuse University in 2007. At 
Texas A&M, EBV is a collaboration between the Center for New 
Ventures and Entrepreneurship, and the Center for Executive 
Development and Mays Business School. The EBV initiative offers 
cutting edge, experiential training in entrepreneurship and 
small business management to Soldiers, Sailors, Airmen and 
Marines disabled as a result of their service supporting 
operations Enduring Freedom and Iraqi Freedom. The intent of 
the program is to open the door to entrepreneurial opportunity 
for these men and women, developing their competencies in the 
many steps and activities associated with creating and 
sustaining an entrepreneurial venture. Importantly, the program 
is offered entirely free to qualifying veterans.
    EBV has been a tremendously successful program for our 
veterans, specifically highlighting the role that 
entrepreneurship may play as a means through which our veterans 
with disabilities can take meaningful steps toward 
independence. Recent survey data highlighted that 66% of the 
Texas A&M EBV participants (for the five year period) had 
started and continued to grow a business. Of these respondents, 
87% still had a business in operation at the time they took the 
survey. Participant comments included the following:
    ? ``I have no words that can describe the effect this 
program has made on me. Life-changing is the closest I can 
think of. Dr. Lester, Ashley Crane, and Jennifer Cutler deserve 
great praise for the time and effort spent on the program.''
    ? ``Hands-down one of the best experiences of my life.''
    Along with Syracuse University and Texas A&M University the 
program was also adopted by Florida State University, U.C.L.A., 
Purdue University, University of Connecticut, LSU, and Cornell.
    In the first year, the Texas A&M VRSC also started numerous 
other initiatives to fulfill the ``application to vocation'' 
mission to better support our student veterans (see Attachment 
A for the complete summary). Many of the VRSC new programs are 
focused on facilitating the veteran transition from the 
military environment to the college campus. These efforts 
included extensive partnerships, workshops, programs, and 
events that are focused on academic success and ultimately, 
meaningful employment after graduation.
    To provide an immediate positive impact on the student 
veteran transition and initial academic success, the VRSC 
developed a series of initiatives in the new ``Aggie Vet 
Connect Program'' (see Attachment B for details). As ``non-
traditional students,'' many of our veterans were unaware of 
existing campus and community resources. Aggie Vet Connect was 
designed to proactively provide student veterans with 
information about available resources. The elements of Aggie 
Vet Connect include: New student conference presentations; Vet 
Camp; Faculty/Staff and Academic Advisor engagement 
opportunities and student veteran awareness presentations and 
panels; recreational sports/wounded warrior engagement; Peer-
to-Peer Mentoring Training/Programs; and special events to 
promote veteran engagement with traditional students. As the 
VRSC prepares for the second year, the initial success of the 
Aggie Vet Connect Programs dictates that these programs will 
increase in both size and scope.
    Within weeks of opening, the VRSC established a new 
partnership with the Texas A&M Career Center. With the Career 
Center's dedicated focus on student veteran employment, this 
partnership has continued to strengthen and grow over the past 
year. This partnership has produced a number of effective 
events and programs to include:
    * One of the first events co-sponsored by these offices was 
the ``Boots to Business Suits'' program. The Career Center 
invited corporate leaders to discuss the skills valued in 
veterans, how veterans can be successful in the job search 
process, how employers assist veterans in making the successful 
transition into their organizations, and how veterans can 
continue to further their careers. As a result of the very 
positive response from student veteran attendees, this type of 
event will be repeated in the future.
    * Throughout the year, numerous corporations and federal 
agencies contact either the VRSC or the Career Center to 
specifically discuss veteran internship and future employment 
opportunities. Our offices have developed a systematic plan to 
ensure that both the Career Center and VRSC staffs are 
represented at these meetings. This partnership allows both 
offices to better serve both prospective employers and our 
student veterans. Additionally, the VRSC now confidentially 
collects information about security clearances previously (or 
currently) held by student veterans. We are rapidly learning 
how to use this information to better ``connect'' students with 
clearances to federal agencies and corporations that require 
security clearances for future employment.
    * In August 2013, the VRSC held the first ``Vet Camp'' to 
provide an in-depth orientation for new student veterans prior 
to the first day of classes. The typical ``best practices'' for 
this type of orientation tend to focus only on the immediate 
``transition to college'' challenges. The Texas A&M VRSC and 
Career Center took a slightly different approach; we included 
topics and information that incorporated a longer-term 
perspective. The Career Center provided three presenters to 
stress the importance of ``connecting'' with their office and 
employment resources early in their college experience to 
facilitate future employment.
    In addition to partnership activities with the VRSC, the 
Career Center continues to develop and expand their own veteran 
specific programs. They have designated two staff members, both 
of whom have military experience, to advise student veterans. 
They added veteran specific questions to their post-graduation 
survey to track veteran outcomes. In their employment system 
database, they added a flag to tag those recruiters interested 
in veteran students and they also added a flag for veteran 
students to facilitate easier notification of veteran students 
about employment opportunities. They have included student 
veterans on panels during annual Recruiter Training and during 
Advisory Council meetings. They have marketed existing 
programs, including a National Security Panel, specifically to 
veteran students.
    In the past year, the staff of the Texas A&M Career Center 
had more than 350 advising contacts with student veterans. In 
addition, student veterans had more than 400 interviews on 
campus through the Texas A&M Career Center last year. Finally, 
more than 200 student veterans have accessed their online 
recruiting system, ``HireAggies,'' since the beginning of the 
fall 2013 semester.
    In February 2014, the Student Government Vice President for 
Veterans Affairs will host OPERATION VET SUCCESS; the 1st 
Annual Texas A&M Student Veteran Career Fair. The mission of 
this event is to improve or build student veterans career 
preparation skills through the use of a national career fair, 
workshops, and keynote speakers by providing the opportunity to 
network with national veteran support organizations and 
veterans enrolled in higher education from across the country. 
The Texas A&M Career Center has been instrumental in the 
development of this event.
    The VRSC has established close ties with the local office 
of both the Texas Workforce Commission and the Texas Veterans 
Commission. We frequently refer students to these offices for 
employment and other assistance. Periodically, the VRSC has 
invited both TVC and TWC employees to campus to meet with 
students. The VRSC used social media to advertise the ``office 
hours'' and provided office space for these meetings. 
Representatives from the Texas Veterans Leadership Program have 
used a similar arrangement to provide ``one-on-one'' resume 
reviews.
    The VRSC has partnered with several university departments 
to explore unique academic, recruiting and employment support. 
The History Department (through funding by the Texas A&M 
Association of Former Students) is currently teaching a 
``Veteran Only'' History class to provide student veterans with 
the opportunity to connect with each other in an academic 
environment. The VRSC has partnered with Mays Business School 
and the Construction Science Department to proactively recruit 
more veterans to their programs. As the Aggie Veteran Network 
expands, the VRSC will seek additional partnerships to assist 
with recruiting and employment support for our student 
veterans. We are only just now beginning to understand the 
potential impact that can be realized through our networking 
and partnerships.
    In addition to full time employment assistance, the VRSC 
also provides student veterans with numerous part time 
employment opportunities that provide financial support while 
enrolled in classes. The VRSC maintains lists of local 
businesses (and other campus departments) that are actively 
seeking to hire veterans. These employment opportunities are 
advertised through the student veteran social media channels. 
The VRSC and the VSO also employ approximately 8 VA work study 
students on a part time basis to support the activities of both 
offices.
    As the Director of the VRSC, one of my roles is to serve as 
the co-advisor for the Student Veteran Association (SVA) at 
Texas A&M. In early 2013, we helped to facilitate the expansion 
and reorganization of the SVA. The leadership structure was 
expanded from five to 22 students. One of the new leadership 
positions is the Student Veteran Employment Liaison Officer. 
This position is designed to serve as a way for a student SVA 
leader to help collect information (i.e., job leads), advertise 
and facilitate employment for other SVA members.
    As the VRSC develops new programs for the second year, it 
is now evident that a student veteran spouse group or network 
is in high demand. We are currently working with the SVA 
leaders to determine the structure and focus for this effort. 
Although the final details are still under development, it will 
include aspects of family support and resources to include 
childcare, medical and dental services, marriage enrichment, 
financial planning, housing, and spouse employment.
    In August 2013, Texas A&M welcomed our new ``VetSuccess'' 
on Campus (VSOC) VA counselor. This VA funded position provides 
our students with direct access to the VA. As we develop future 
plans, we are working to determine the most efficient ways to 
employ this added resource. Although not directly related to 
future employment, the VSOC counselor (in a short two months) 
has already proven to be a superb advocate for our student 
veterans as she enhances the student's abilities to receive 
timely and appropriate VA support. In turn, this helps them 
focus on their current mission: Academic Success!
    In summary, the Texas A&M VRSC is a very new office that is 
just beginning to explore and fully develop programs to better 
serve student veterans like James Rowin whom I brought with me 
today. In his 10 years in the US Marine Corps Reserve, he 
deployed to Iraq three times and later deployed to the Horn of 
Africa in a civilian capacity. His wife is a US Army Reserve 
Officer. Both James and his wife are student veterans at Texas 
A&M. The Rowin's exemplify another generation of great 
Americans who have earned and deserve our support. As our 
office grows, we are determined to proactively combine and 
leverage our networks, programs and resources to develop 
innovative best practices that enhance the development of our 
student veterans who have been, and remain, dedicated to 
serving the greater good.
    Thank you again for providing this opportunity for me and 
Texas A&M to support the efforts to improve programs that 
directly assist veterans in finding meaningful employment 
following the completion of their studies.
    Mr. Flores. Thank you, Colonel Smith. Thank all of the 
panel for their testimony.
    I am now going to recognize myself for 5 minutes. This is a 
question for everyone on the panel, and we will start with you, 
Dr. Bagby.
    The question is this, and that is what recommendations do 
each of your institutions have for Congress to help you better 
assist the veterans that are part of your communities? So, Dr. 
Bagby?
    Ms. Bagby. Thank you.
    Mr. Flores. And if you could, if you could keep your 
question to a little over a minute, that would be great.
    Ms. Bagby. I have three recommendations to share with you. 
One, we find that the $1,000 a year for 24 credits book 
allowance oftentimes does not cover the cost of the books. So 
if there is any way that you could increase.
    Our students take at least 12 hours a semester, and many 
times they are also taking courses in the summer as well. So 
the $1,000 certainly does not cover the cost of those 
textbooks.
    A second issue that we are facing is with the BAH. Right 
now in Texas, in Waco, the veterans get almost $1,100 a month, 
which certainly covers housing allowance living in Waco. But we 
encourage our vets to do internships, and oftentimes, those 
internships are in cities that are much more costly to live. We 
have students who go into nursing, and our campus in Dallas, 
the cost of living is much more.
    So there could be any stipulation for the VAH when our 
students are temporarily leaving our campus or permanently, as 
in going to the nursing school, if it could be adjusted to that 
particular city's housing allowance.
    The third recommendation is regarding the Fry Scholarship. 
The Fry Scholarship is for those dependents whose parents was 
killed in action. Currently, the way we understand the 
legislation, a student who is going to school using the Fry 
Scholarship is not eligible to participate in the Yellow Ribbon 
program. So, in a sense, they are penalized.
    And at Baylor, as I mentioned in my testimony, the GI bill 
covers about one semester at Baylor. So those would be my three 
recommendations.
    Mr. Flores. Thank you.
    Ms. Cervantes?
    Ms. Cervantes. I would say she covered all the GI bill 
things that I could have thought of beautifully. VRAP, the 
Veterans Retraining Assistance Program, is currently scheduled 
to end in April of 2014, but there are several bills coming up 
that may extend it. And if it does happen, there are some 
changes I think that would make it more accessible to its 
target audience, which would be right now there is a full-time 
requirement, and a lot of the folks that we see coming in have 
been out of school for 20 years.
    I mean, and it is just a major culture shock to have them 
come in and be expected to be full-time students. We see quite 
a lot of classes get dropped by these students as they make 
that adjustment.
    Another thing that would help with VRAP is if those 
students were allowed to do the veterans work study. Currently, 
they are not eligible for it, and they are in the program 
specifically because they are unemployed. And so, it would be 
very helpful for them to have the opportunity to work as work 
studies at the Texas Veterans Commission, the VA hospital, or 
even at the schools, if there are positions available.
    Mr. Flores. Okay. Mr. Wolaver?
    Mr. Wolaver. Yes, Mr. Chairman. I would recommend that we 
look at the funding mechanisms that veterans have to pay for 
for training in college and try to explore some avenues for 
flexibility.
    I mentioned our competency-based program, the pilot 
project. Most of those funding models that veterans have access 
to are based on traditional semester credit formats, and we are 
trying to be creative and enhance those opportunities and allow 
students, whether they be veterans or not, but specifically 
veterans, to maybe start at an advanced place, rather than a 
starting point in a training curriculum and to work at their 
own pace and utilize the skills that they have developed while 
they are in the military toward a credential and us being able 
to place them in gainful employment.
    And the funding mechanisms don't always work well with 
nontraditional sort of curriculum formats.
    Mr. Flores. Colonel Smith?
    Colonel Smith. I would concur with the VAH and the work 
study comments prior. The other one that I would add is 
priority registration. I saw a list probably 6 or 8 months ago 
of a lot of national universities that do have priority 
registration for their student veterans, and a lot of them are 
in California. And I have been told, but I can't confirm, that 
it is a State law out there.
    If we can do this for our athletes at nearly every school, 
we should be able to do it for our veterans. And with the way 
the GI bill is set up, they need to get in and be on a certain 
degree plan in order to get those benefits, and we are not 
making enough progress there.
    Thank you.
    Mr. Flores. Those are helpful comments.
    I will now recognize Ranking Member Takano for 5 minutes 
for your questions.
    Mr. Takano. Ny questions are along the lines you have 
mentioned, Colonel Smith. In California, I do have a background 
in community colleges, and particularly at the hearings 
yesterday, priority registration was one of the things we 
highlighted. Along with a veterans club, the college district 
actually allocates $400,000 a year for its 1,200 veteran 
student population--with the resource center--to actually try 
to assist veterans.
    My question for all of you is, is there a variance, as you 
have noticed, between the success rate of your nonveteran 
student population and your veteran population? Just quickly go 
on down the line, starting with Ms. Bagby.
    Ms. Bagby. No. I don't--I am hesitating because I want to 
be thoughtful with my answer.
    Mr. Takano. You only have 100 veterans here, right?
    Ms. Bagby. We do. And----
    Mr. Takano. So it is kind of a small sample.
    Ms. Bagby. It is a small sample. What we are seeing is that 
there are not necessarily inherent challenges with those 
veterans coming to Baylor. But they are a population that is 
the exception at Baylor because they are older. They have had 
life experiences that many of our traditional student 
population have not had.
    Mr. Takano. Yes. Mindful of the time, I just want to sort 
of quickly move to the public institutions.
    Ms. Cervantes?
    Ms. Cervantes. I would--I don't have numbers in front of 
me, but I would say that, generally speaking, the veterans tend 
to be successful. We are an open enrollment school, and so I 
think that most of the time when veterans show up at the door, 
they are good at planning ahead. They are used to having a 
mission and accomplishing it.
    And so, generally speaking, the ones that I don't see are 
the ones that I don't see are the ones who come in, get 
everything started. So I see them that one time. And then they 
are off. They are off and running, and they do well and they 
finish.
    And either they transfer on to another institution, since 
we are a community college, or they complete their degree, and 
they are out the door. The ones that I see are the ones in my 
office a lot are the ones who are a little more lost.
    But I do think that is a small subset. Generally speaking, 
I think they do well.
    Mr. Takano. Great. Mr. Wolaver?
    Mr. Wolaver. Our students do persist, the veterans do 
persist at a better rate than our nonveteran students. But it 
is still not to a level of satisfaction that we are pleased 
with at all.
    Colonel Smith. We are just trying to get our arms around 
some of the measurement terms for these nontraditional 
students. My sense is that their academic success and GPA is 
very consistent with traditional students. We are still--we are 
working with our Texas A&M system and other schools to develop 
better measurements and metrics for this population.
    Mr. Takano. Tell me a little more about your 
entrepreneurship bootcamp for veterans. You say it is 
completely paid for, no cost to the veteran. Tell me more about 
the financial support that you have generated.
    Colonel Smith. Yes, on the financial support, I know there 
are some grants and some other support through Texas A&M. I 
would have to get back to you on the specifics. This is not my 
program. It is run through the Mays Business School, and it 
started well before I came back to start opening the center.
    It is about a 2-year process. It is 9 days during the 
bootcamp, but there is a period of time before the bootcamp 
where they get mentoring and training, and then there is a year 
follow-on after they finish the actual bootcamp itself. So it 
is a pretty lengthy process for them.
    Mr. Takano. Do you know how many students have gone through 
the program?
    Colonel Smith. We have had 95 go through, sir.
    Mr. Takano. And what types of businesses have they opened 
up? They tend to be the kind of--well, you probably don't know.
    Colonel Smith. Well, I have had the opportunity the last 
few years to set--there are about 20 to 25 students each year, 
and they are all over the vocational map, if you will. It is 
everything from small ventures with water rides down off 
Galveston Beach to more along the lines of some of the 
businesses that we were talking about earlier today.
    Mr. Takano. Perhaps I can connect with whoever is running 
that program to find out more about what they are doing.
    I yield back, Mr. Chairman.
    Mr. Flores. Okay. Thank you, Mr. Takano.
    I could tell you the EBV program is funded in a couple of 
ways. Mays Business School puts up some nontaxpayer dollars, 
and then they reach in the pockets of private citizens, private 
venture, because Gina and I have contributed to that program. 
Got to be a speaker at two of the classes, and it is a great 
program.
    Mr. Takano. Well, I will talk to you more about it.
    Mr. Flores. Yes. So, Mr. Williams, you are recognized for 5 
minutes.
    Mr. Williams. Thank you, Mr. Chairman.
    And the purpose of my remarks will be basically to 
encourage all of you. You are doing a fantastic job, all of 
you, and I appreciate it greatly.
    Real quick, Dr. Bagby, one of the questions I have is are 
you--do you also focus on getting these men and women into--for 
an advanced degree or graduate school, too? I mean, is that 
something that you help them with or ----
    Ms. Bagby. Yes. If that is of interest to them. In fact, 
the president of our Veterans of Baylor student organization is 
graduating in December, and she has already been accepted at 
NYU to do a master's in public relations.
    Mr. Williams. Well, that is great.
    Ms. Bagby. So we are really proud of her.
    Mr. Williams. You should be. That is great. Well, thanks 
for your work you are doing.
    Ms. Cervantes, you mentioned just briefly, I just want to 
reinforce how important it is about how you work in helping 
start their own businesses. That is so important because that 
converts to unemployment and employment and so forth, and I 
would just encourage you to keep doing that. That is what we 
need most of all right now.
    So thank you for that.
    And Mr. Wolaver, you are doing a great job. I am familiar 
with everything that you all are doing and so forth, and I just 
would like to reinforce that we do a lot of--as I tell people, 
we do really great in graduating lawyers and business people 
and so forth. But sometimes we come short on some of the 
graduates that you are putting out.
    And we have about 100,000 kids a year dropping out of 
school in Texas at the ninth grade level because they don't see 
any hope or whatever. And with the programs you are generating 
by helping these veterans get onboard, I can see the veterans 
beginning to help these 100,000 kids, help employ people. They 
will start their own businesses. They will begin to realize the 
dream again.
    So you have got a huge opportunity, which you are taking 
advantage of, and responsibility, frankly, for the future of 
our country, and I want to say thanks. Very important.
    Mr. Wolaver. Thank you, Congressman, for the recognition.
    Mr. Williams. You bet.
    And then, Colonel Smith, thanks for what you are doing. And 
of course, in my world, you hit some key buzz words. And 
marketing is important and how can these young men and women 
market themselves is important because I have found that 
veterans that I deal with, they don't talk about their service. 
They are humble. And sometimes there has got to be a way to let 
them be able to talk about it because it is big to an employer 
that they know that.
    So I want to thank you for helping there, and business 
ownership is, again, what we talked about is so important. And 
I like your priority authorization ideas. I think that is 
something that needs to happen. You put it in perspective. And 
so, I think we are all in support of that.
    But that is basically all I want to say. You are doing a 
great job, and you really have the future of our country in 
your hands, and we appreciate it, and we want to help to the 
extent that we can. And you have great ideas that we can be 
involved with you. So thank you, and God bless you.
    I yield back.
    Mr. Flores. Thank you, Mr. Williams.
    And thank the second panel for your testimony. If there is 
any supplemental information you would like to submit in 
response to any of our questions, please do that within 5 days. 
We will incorporate that with our record, into the record, and 
also with potential activities that the subcommittee may take 
in the future.
    [The attachment appears]
    Written Testimony of
    Colonel Gerald L. Smith, (USMC) Ret.
    Director, Veteran Resource & Support Center, Texas A&M 
University
    Before the
    Subcommittee on Economic Opportunity of the House Committee 
on Veterans' Affairs
    Field Hearing on ``Texas' Innovative Approaches to Jobs and 
Employment for Veterans''
    November 6, 2013
    Chairman Flores and distinguished members of the 
Subcommittee on Economic Opportunity of the House Committee on 
Veterans' Affairs, my name is Gerald Smith and I have the 
privilege of serving as Director of the new Veteran Resource & 
Support Center at Texas A&M University. In addition, I am a 
retired Colonel with 30 years of service in the US Marine 
Corps.
    I want to begin by thanking you for the chance to come 
before you today to present testimony on important issues 
relating to supporting veteran employment. At Texas A&M, we 
deeply value the sacrifice and service of veterans and their 
families. We appreciate this committee's actions to investigate 
and focus on innovative ways to support meaningful employment 
for our service men and women after they leave the military.
    Today, Texas A&M remains committed to building upon our 
rich military history. Since 1876, Texas A&M has produced 
thousands of commissioned officers and has eight Congressional 
Medal of Honor recipients. No university in the nation (other 
than the service academies) has contributed more to military 
service than Texas A&M. In our Post 9-11 world, Texas A&M is 
undeniably veteran friendly; hence the large number of active 
duty personnel and veterans on campus. Currently, the veteran 
enrollment is approximately 650 students as Texas A&M continues 
to support veterans by enhancing their future employment 
opportunities through higher education.
    Through a unique and powerful ``dual office partnership,'' 
Texas A&M offers numerous programs and resources that benefit 
veterans. We now have two offices designed specifically to 
support veterans. The Scholarships and Financial Aid Veteran 
Service Office (VSO) is the direct extension of the original 
Veterans Advisory Office that opened in 1946. To better ``serve 
well those who have served,'' we opened the Veteran Resource 
and Support Center (VRSC) in 2012. Together, these offices 
provide a robust capability that truly supports our Aggie 
veterans from ``application to vocation.''
    The VSO offers streamlined processing of all federal and 
state educational benefits, deferred tuition pending Veterans 
Administration (VA) funds, veteran new student orientation, 
faculty and staff mentor training and cross campus referrals 
that reach campus wide. The VSO also identifies and awards 
scholarships for veterans. We are a partner school with the Pat 
Tillman Foundation and currently have recipients on campus that 
benefit from that scholarship. Recent procedural improvements 
in the VSO have significantly improved military educational 
benefit processing to ensure the best possible financial 
support for both veterans and military dependents.
    The mission of the VRSC is to constantly enhance Texas 
A&M's ``military friendly'' legacy by identifying, developing 
and providing uniquely tailored resources & programs to 
students that are: Veterans, Active Duty, Reserve or National 
Guard, military dependents, survivors and families in order to 
enrich their holistic development and overall academic success. 
By embracing the ``application to vocation'' mindset, we 
support veteran recruiting and college/career transitions by 
leveraging our Aggie Core Values to ``Serve Well Those Who Have 
Served!''
    The VRSC vision is to become ``the Texas A&M System Model 
University'' and improve our national ranking to truly become 
the university known for personal, all-inclusive support to 
Aggie Veterans and their families. As a highly visible 
institutional single point of contact (``one-stop referral 
shop''), the VRSC finds new avenues to maximize both TAMU and 
external resources to ensure world class academic and 
transition support that prepares Aggie Vets for future 
leadership in a global society. In short, as the focal point of 
Aggie Veteran collaboration and support, we foster a new sense 
of Aggie tradition to ``Serve Well Those Who Have Served!''
    Using these mission and vision statements as a guide, the 
VRSC has developed and implemented a variety of new programs 
that enhance veteran recognition, improve health service 
access, increase academic support, connects students with local 
community resources, and identifies employment opportunities 
(both full and part time). The VRSC was designed to ensure that 
Texas A&M continues to improve the quality of support as our 
student veteran population increases.
    The VRSC recently launched the Aggie Veteran Network (AVN). 
It is designed to connect Aggie student vets, dependents, 
military families, and veteran faculty/staff with each other 
and with external organizations. The mission of the AVN is 
twofold: First, to connect those who are providing, or are 
willing to provide, resources and support to our students. The 
second part of the AVN mission is to link our military 
affiliated students with high-impact opportunities to support 
each other and the local community. In the next year, the AVN 
will link with the new Association of Former Student Aggie 
Veteran & Military Constituent Network. As these programs grow, 
they will become a foundational and innovative method to 
effectively link and network current student veterans with one 
of the largest and most active former student organizations in 
the country to promote countless internship and employment 
opportunities.
    In 2008, the Mays School of Business at Texas A&M 
University introduced the Entrepreneurship Bootcamp for 
Veterans with Disabilities (EBV) which followed on the heels of 
a successful program launch at Syracuse University in 2007. At 
Texas A&M, EBV is a collaboration between the Center for New 
Ventures and Entrepreneurship, and the Center for Executive 
Development and Mays Business School. The EBV initiative offers 
cutting edge, experiential training in entrepreneurship and 
small business management to Soldiers, Sailors, Airmen and 
Marines disabled as a result of their service supporting 
operations Enduring Freedom and Iraqi Freedom. The intent of 
the program is to open the door to entrepreneurial opportunity 
for these men and women, developing their competencies in the 
many steps and activities associated with creating and 
sustaining an entrepreneurial venture. Importantly, the program 
is offered entirely free to qualifying veterans.
    EBV has been a tremendously successful program for our 
veterans, specifically highlighting the role that 
entrepreneurship may play as a means through which our veterans 
with disabilities can take meaningful steps toward 
independence. Recent survey data highlighted that 66% of the 
Texas A&M EBV participants (for the five year period) had 
started and continued to grow a business. Of these respondents, 
87% still had a business in operation at the time they took the 
survey. Participant comments included the following:
    ? ``I have no words that can describe the effect this 
program has made on me. Life-changing is the closest I can 
think of. Dr. Lester, Ashley Crane, and Jennifer Cutler deserve 
great praise for the time and effort spent on the program.''
    ?``Hands-down one of the best experiences of my life.''
    Along with Syracuse University and Texas A&M University the 
program was also adopted by Florida State University, U.C.L.A., 
Purdue University, University of Connecticut, LSU, and Cornell.
    In the first year, the Texas A&M VRSC also started numerous 
other initiatives to fulfill the ``application to vocation'' 
mission to better support our student veterans (see Attachment 
A for the complete summary). Many of the VRSC new programs are 
focused on facilitating the veteran transition from the 
military environment to the college campus. These efforts 
included extensive partnerships, workshops, programs, and 
events that are focused on academic success and ultimately, 
meaningful employment after graduation.
    To provide an immediate positive impact on the student 
veteran transition and initial academic success, the VRSC 
developed a series of initiatives in the new ``Aggie Vet 
Connect Program'' (see Attachment B for details). As ``non-
traditional students,'' many of our veterans were unaware of 
existing campus and community resources. Aggie Vet Connect was 
designed to proactively provide student veterans with 
information about available resources. The elements of Aggie 
Vet Connect include: New student conference presentations; Vet 
Camp; Faculty/Staff and Academic Advisor engagement 
opportunities and student veteran awareness presentations and 
panels; recreational sports/wounded warrior engagement; Peer-
to-Peer Mentoring Training/Programs; and special events to 
promote veteran engagement with traditional students. As the 
VRSC prepares for the second year, the initial success of the 
Aggie Vet Connect Programs dictates that these programs will 
increase in both size and scope.
    Within weeks of opening, the VRSC established a new 
partnership with the Texas A&M Career Center. With the Career 
Center's dedicated focus on student veteran employment, this 
partnership has continued to strengthen and grow over the past 
year. This partnership has produced a number of effective 
events and programs to include:
    * One of the first events co-sponsored by these offices was 
the ``Boots to Business Suits'' program. The Career Center 
invited corporate leaders to discuss the skills valued in 
veterans, how veterans can be successful in the job search 
process, how employers assist veterans in making the successful 
transition into their organizations, and how veterans can 
continue to further their careers. As a result of the very 
positive response from student veteran attendees, this type of 
event will be repeated in the future.
    * Throughout the year, numerous corporations and federal 
agencies contact either the VRSC or the Career Center to 
specifically discuss veteran internship and future employment 
opportunities. Our offices have developed a systematic plan to 
ensure that both the Career Center and VRSC staffs are 
represented at these meetings. This partnership allows both 
offices to better serve both prospective employers and our 
student veterans. Additionally, the VRSC now confidentially 
collects information about security clearances previously (or 
currently) held by student veterans. We are rapidly learning 
how to use this information to better ``connect'' students with 
clearances to federal agencies and corporations that require 
security clearances for future employment.
    * In August 2013, the VRSC held the first ``Vet Camp'' to 
provide an in-depth orientation for new student veterans prior 
to the first day of classes. The typical ``best practices'' for 
this type of orientation tend to focus only on the immediate 
``transition to college'' challenges. The Texas A&M VRSC and 
Career Center took a slightly different approach; we included 
topics and information that incorporated a longer-term 
perspective. The Career Center provided three presenters to 
stress the importance of ``connecting'' with their office and 
employment resources early in their college experience to 
facilitate future employment.
    In addition to partnership activities with the VRSC, the 
Career Center continues to develop and expand their own veteran 
specific programs. They have designated two staff members, both 
of whom have military experience, to advise student veterans. 
They added veteran specific questions to their post-graduation 
survey to track veteran outcomes. In their employment system 
database, they added a flag to tag those recruiters interested 
in veteran students and they also added a flag for veteran 
students to facilitate easier notification of veteran students 
about employment opportunities. They have included student 
veterans on panels during annual Recruiter Training and during 
Advisory Council meetings. They have marketed existing 
programs, including a National Security Panel, specifically to 
veteran students.
    In the past year, the staff of the Texas A&M Career Center 
had more than 350 advising contacts with student veterans. In 
addition, student veterans had more than 400 interviews on 
campus through the Texas A&M Career Center last year. Finally, 
more than 200 student veterans have accessed their online 
recruiting system, ``HireAggies,'' since the beginning of the 
fall 2013 semester.
    In February 2014, the Student Government Vice President for 
Veterans Affairs will host OPERATION VET SUCCESS; the 1st 
Annual Texas A&M Student Veteran Career Fair. The mission of 
this event is to improve or build student veterans career 
preparation skills through the use of a national career fair, 
workshops, and keynote speakers by providing the opportunity to 
network with national veteran support organizations and 
veterans enrolled in higher education from across the country. 
The Texas A&M Career Center has been instrumental in the 
development of this event.
    The VRSC has established close ties with the local office 
of both the Texas Workforce Commission and the Texas Veterans 
Commission. We frequently refer students to these offices for 
employment and other assistance. Periodically, the VRSC has 
invited both TVC and TWC employees to campus to meet with 
students. The VRSC used social media to advertise the ``office 
hours'' and provided office space for these meetings. 
Representatives from the Texas Veterans Leadership Program have 
used a similar arrangement to provide ``one-on-one'' resume 
reviews.
    The VRSC has partnered with several university departments 
to explore unique academic, recruiting and employment support. 
The History Department (through funding by the Texas A&M 
Association of Former Students) is currently teaching a 
``Veteran Only'' History class to provide student veterans with 
the opportunity to connect with each other in an academic 
environment. The VRSC has partnered with Mays Business School 
and the Construction Science Department to proactively recruit 
more veterans to their programs. As the Aggie Veteran Network 
expands, the VRSC will seek additional partnerships to assist 
with recruiting and employment support for our student 
veterans. We are only just now beginning to understand the 
potential impact that can be realized through our networking 
and partnerships.
    In addition to full time employment assistance, the VRSC 
also provides student veterans with numerous part time 
employment opportunities that provide financial support while 
enrolled in classes. The VRSC maintains lists of local 
businesses (and other campus departments) that are actively 
seeking to hire veterans. These employment opportunities are 
advertised through the student veteran social media channels. 
The VRSC and the VSO also employ approximately 8 VA work study 
students on a part time basis to support the activities of both 
offices.
    As the Director of the VRSC, one of my roles is to serve as 
the co-advisor for the Student Veteran Association (SVA) at 
Texas A&M. In early 2013, we helped to facilitate the expansion 
and reorganization of the SVA. The leadership structure was 
expanded from five to 22 students. One of the new leadership 
positions is the Student Veteran Employment Liaison Officer. 
This position is designed to serve as a way for a student SVA 
leader to help collect information (i.e., job leads), advertise 
and facilitate employment for other SVA members.
    As the VRSC develops new programs for the second year, it 
is now evident that a student veteran spouse group or network 
is in high demand. We are currently working with the SVA 
leaders to determine the structure and focus for this effort. 
Although the final details are still under development, it will 
include aspects of family support and resources to include 
childcare, medical and dental services, marriage enrichment, 
financial planning, housing, and spouse employment.
    In August 2013, Texas A&M welcomed our new ``VetSuccess'' 
on Campus (VSOC) VA counselor. This VA funded position provides 
our students with direct access to the VA. As we develop future 
plans, we are working to determine the most efficient ways to 
employ this added resource. Although not directly related to 
future employment, the VSOC counselor (in a short two months) 
has already proven to be a superb advocate for our student 
veterans as she enhances the student's abilities to receive 
timely and appropriate VA support. In turn, this helps them 
focus on their current mission: Academic Success!
    In summary, the Texas A&M VRSC is a very new office that is 
just beginning to explore and fully develop programs to better 
serve student veterans like James Rowin whom I brought with me 
today. In his 10 years in the US Marine Corps Reserve, he 
deployed to Iraq three times and later deployed to the Horn of 
Africa in a civilian capacity. His wife is a US Army Reserve 
Officer. Both James and his wife are student veterans at Texas 
A&M. The Rowin's exemplify another generation of great 
Americans who have earned and deserve our support. As our 
office grows, we are determined to proactively combine and 
leverage our networks, programs and resources to develop 
innovative best practices that enhance the development of our 
student veterans who have been, and remain, dedicated to 
serving the greater good.
    Thank you again for providing this opportunity for me and 
Texas A&M to support the efforts to improve programs that 
directly assist veterans in finding meaningful employment 
following the completion of their studies.
    Mr. Flores. So you are now dismissed. We will change 
panels. Some of us on the dais may leave for a couple of 
minutes, and then we will come back and get ready for the third 
panel.
    [Recess.]
    Mr. Flores. I would like to recognize the third panel and 
continue with our hearing this morning. The third panel 
consists of Chairman Andres Alcantar, with the Texas Workforce 
Commission, and Mr. Shawn Deabay, with the Texas Veterans 
Commission.
    Each of you will be recognized for 5 minutes, and we will 
begin with Chairman Alcantar. I would like to remind everybody 
the green light means that the timer has started. The yellow 
light means you have a minute left, and the red light means 
that you need to wrap up pretty quickly.
    So, Chairman Alcantar, let us start with you.

                  STATEMENT OF ANDRES ALCANTAR

    Mr. Alcantar. Thank you. Good morning, Chairman Flores, 
Ranking Member Takano, and Congressman Williams.
    I am Andres Alcantar, chairman of the Texas Workforce 
Commission. Thank you for the opportunity to offer testimony 
and appear before this committee.
    The Texas Workforce Commission partners with 28 local 
boards, including Workforce Solutions for the Heart of Texas 
that serves the Waco area, and fellow State agencies, such as 
the Texas Veterans Commission, to provide a broad range of 
employment, job training, and related services to our veterans. 
All veterans walking through the doors at our Workforce 
Solutions offices across the State receive priority of service 
across employment and support service programs.
    These programs include the Employment Services Program, 
Workforce Investment Act, TANF, SNAP, child care, and other 
support services. This priority of service extends to TWC's 
work in Texas.com, the State's largest database for job 
matching and with a 2-day hold for veterans on all postings to 
ensure veterans receive first viewing and the opportunity for 
applying.
    We are also a partner in Texas' dedicated Web site, the 
Texas Veterans Portal, where veterans, family members, and 
survivors can find helpful information from across a number of 
governmental agencies.
    To demonstrate our commitment to assisting veterans, let me 
take a few minutes to highlight a handful of programs at TWC. 
First, and happening next week, TWC, in partnership with our 
boards and TVC will host in 27 cities across the State the 
Hiring Red, White, and You veterans jobs fairs on November 
14th. Last year's initial event of the Hiring Red, White, and 
You campaign attracted 12,000 veterans, 1,400 employers 
statewide, and resulted in approximately 2,800 veterans being 
hired by participating employers. We hope to exceed those 
numbers this year.
    Military veterans possess the skills, discipline, and 
leadership that employers are looking for. The Hiring Red, 
White, and You effort connects veterans with employers in order 
to help these individuals successfully transition to civilian 
life through employment.
    Another exciting program we have developed in Texas is 
College Credit for Heroes. Established by the 82nd Texas 
legislature with the support of Governor Perry and members of 
the legislature, the College Credit for Heroes initiative aims 
to maximize the amount of college credit that our veterans 
receive for their prior military training and occupational 
experience, reducing the amount of time that a veteran has to 
spend in the classroom. That is at the heart of this effort.
    In July 2001, TWC and the Higher Ed Coordinating Board 
began working on this initiative with seven community colleges 
in Texas. Central Texas College developed an integral part of 
the effort, a Web-based application for veterans and service 
members to receive college credit for this prior military 
training and education.
    Veterans using this application are receiving an average of 
25 college credits per evaluation, equivalent to almost a year 
of college. As of October 1, 2013, the Web site has received 
over 30,000 visits and has 17,000 veteran and service member 
account holders and have requested almost 2,000 evaluations for 
college credits.
    Recently, the program was expanded to include six new 
partner schools. In addition, four of the originating 
institutions were awarded additional funding to continue 
developing innovative programs.
    Just last month, the Texas A&M system and all the 
universities operating under this system joined the program and 
signed agreements committing to review all the transcript 
evaluations used to award college credit to veterans and 
service members for their prior training. We now have 30 
colleges and universities participating in this initiative.
    Texas has a high concentration of veterans, an estimated 
1.7 million, and was 1 of 4 States selected to develop a 
national model for partnering with the Army and the workforce 
system to address unemployment. The State of Texas Soldier 
Employment Initiative was developed to find new ways to 
outreach and provide access to jobs and reemployment service 
for our veterans.
    In June 2002, the Texas Workforce Commission was awarded 
the grant. We are working hard to reduce the amount of time it 
takes for our veterans to reconnect and make a successful 
transition.
    In closing, I want to recognize the commitment of our 28 
local boards to serve our veterans, all of which make our 
veterans a priority population that they serve, including here 
through the Heart of Texas Workforce Solutions. Workforce 
Solutions in central Texas, for example, has a business 
resource center jointly developed with the Central Texas 
College, Greater Killeen Chamber of Commerce, and has worked 
hard to develop small and start-up business opportunities for 
our veterans.
    Another example is in the Upper Rio Grande where our local 
board there is partnering with Fort Bliss. The Texas Workforce 
Commission recognizes that the State of Texas can lead the way 
for the Nation in assisting veterans. This is an ongoing effort 
that requires many partners, and it is a key component of how 
we do business.
    These men and women have served our country, and we are 
proud of them and recognize the service they and their families 
have made. Our veterans have real-world experience and the 
education that are needed by employers, employers that are 
working hard to create opportunities all across many industries 
that we have in this State.
    And our veterans will be a key to continuing the success 
that we have been able to generate. And it has allowed Texas to 
be the best place to live, to work, and to do business.
    Thank you for the opportunity to allow me to testify before 
this committee.

            [The prepared statement of Mr. Alcantar]

    Oral Testimony of Andres Alcantar, Chairman, Texas 
Workforce Commission
    U.S. House Veterans Affairs Committee Subcommittee on 
Economic Opportunity
    ``Texas' Innovative Approaches to Jobs and Employment for 
Veterans''
    November 6, 2013
    Good morning Chairman Flores, Ranking Member Takano and 
distinguished members of the Subcommittee. I am Andres 
Alcantar, Chairman of the Texas Workforce Commission. Thank you 
for the opportunity to offer testimony and appear before this 
committee.
    The Texas Workforce Commission (TWC) partners with 28 Local 
Workforce Development Boards (Boards) and fellow state agencies 
such as the Texas Veterans Commission (TVC) to provide a broad 
range of employment, job training and related services to our 
veterans. All veterans walking through the doors at our 
workforce solutions offices across the state receive priority 
of service across employment and support service programs. 
These programs include Employment Services, Workforce 
Investment Act, Temporary Assistance for Needy Families (TANF), 
Supplemental Nutrition and Assistance Program (SNAP), Child 
Care and other support services. This priority of service 
extends to TWC's WorkInTexas.com, the state's largest database 
for matching job seekers with employers, with a two day veteran 
hold on all postings to ensure veterans receive first viewing 
and the opportunity for applying. We are also a partner in 
Texas' dedicated website, Texas Veterans Portal, where 
veterans, families, and survivors can find helpful information 
from across a number of government agencies.
    To further demonstrate our commitment to assisting 
veterans, let me take a few minutes to highlight a handful of 
programs at TWC. First and happening next week, TWC in 
partnership with our Boards and TVC will host in 27 cities 
across the state ``Hiring Red, White and You!'' veteran job 
fairs on November 14th. Last year's event attracted more than 
12,000 veterans and 1,400 employers statewide, and resulted in 
approximately 2,800 hires by participating employers. We hope 
to exceed those numbers this year.
    Military veterans possess the skills, discipline and 
leadership experience that are ideally suited to employers in 
need of a ready and available workforce. The ``Hiring Red, 
White & You!'' effort connects veterans with employers in order 
to help these individuals successfully transition to civilian 
life through employment.
    Another exciting program we have developed in Texas is 
College Credit for Heroes. Established by the 82nd Texas 
Legislature, the College Credit for Heroes initiative aims to 
maximize the amount of college credit that our heroes receive 
for their military training and occupational experience, 
reducing the amount of time a veteran spends in the classroom.
    In July 2011, TWC and the Texas Higher Education 
Coordinating Board (THECB) began working on this initiative 
with seven colleges. Central Texas College developed an 
integral part of the effort - www.collegecreditforheroes.org - 
a web-based application for veterans and service members to 
receive college credit hours for prior military education and 
training via an official transcript. Veterans utilizing this 
application are receiving an average of 25 college credits per 
evaluation, equivalent to almost one year of college. As of 
October 1, 2013, the website has received over 30,000 visits 
and has 17,000 veteran and service member account holders who 
have requested almost 2,000 evaluations for college credit.
    Recently, the program expanded to include 6 new partner 
schools. In addition, four of the originating institutions were 
awarded additional funding to expand their offerings to veteran 
students. Just last month, the Texas A&M System and all 
universities operating under the System joined the program and 
signed agreements committing to review all the transcript 
evaluations used to award college credit to veterans and 
service members for their military training. We now have 30 
colleges and universities participating in the initiative.
    Texas has a high concentration of veterans in our state, an 
estimated 1.7 million and was one of four states selected to 
develop a national model for partnerships between the Army and 
the workforce system, including Unemployment Compensation. The 
State of Texas Soldier Employment Initiative was developed to 
find new ways to outreach and provide access to jobs and 
reemployment services to recipients of Unemployment 
Compensation for Ex-Service Members (UCX) and, where possible, 
to reduce the duration of the receipt of UCX benefits. In June 
2012, the Texas Workforce Commission was awarded the grant.
    The focus of the grant is to provide enhanced outreach and 
employment services that lead to employment before or shortly 
after soldiers separate from active duty. A major part of the 
overall strategy is to build and enhance partnerships between 
participating entities, improve data sharing, and develop 
innovative outreach and reemployment strategies for the Veteran 
population. The overriding goal of the pilot program is to 
provide meaningful employment that gives the financial freedom 
that former service members need to provide for themselves and 
their families.
    In closing, I want to recognize the commitment of our 28 
local Boards to serve our veterans, and highlight the efforts 
of two local boards with military bases in their territory. 
First, Workforce Solutions of Central Texas has a Business 
Resource Center jointly supported through a unique partnership 
of Central Texas College, Greater Killeen Chamber of Commerce, 
and Workforce Solutions of Central Texas. The Business Resource 
Center provides small and start-up business development 
guidance, services, and workshops. Veterans benefit from 
counseling and training for entrepreneurship and small business 
ownership. Two of the initiatives include the Fort Hood 
Veterans Entrepreneur Bootcamp and the Fort Hood Region 
Government Vendor Conference & Exposition.
    Another example is underway by our Upper Rio Grande 
Workforce Board. In September, Board staff met with the 
Transition Manager at Fort Bliss to discuss how to work better 
together in matching employers with soldiers and family 
members. On October 16th, the Board provided its mobile unit 
and staff to assist soldiers and family members at the Fort 
Bliss job fair.
    The Texas Workforce Commission recognizes that the State of 
Texas can lead the way for the nation in assisting veterans. 
This is an ongoing effort that requires many partners working 
together to ensure that veterans' needs are being fully 
addressed. These men and women have served their country, and 
we are proud of them and recognize the sacrifice they and their 
families have made. Our veterans have real world experience, 
leadership skills, and education. Their military contributions 
kept our nation secure, and now their contributions and talents 
as veterans will continue to make Texas the best place to live, 
work and do business. Thank you for allowing me to testify and 
I look forward to answering any questions.
    Mr. Flores. Thank you, Chairman. Thank you, Chairman 
Alcantar.
    Mr. Deabay, you are recognized for 5 minutes.

                   STATEMENT OF SHAWN DEABAY

    Mr. Deabay. Good morning, Mr. Chairman Flores, Ranking 
Member Takano, and committee members.
    My name is Shawn Deabay. I am the Director of Veterans 
Employment Services for the Texas Veterans Commission. I have 
been in Veterans Employment Services for close to 14 years and 
an Army veteran.
    I am accompanied by Duncan McGhee, who is also an Army 
veteran with 30 years private sector experience, and he is our 
Veteran Entrepreneur Program Manager and also a U.S. Army 
veteran.
    The Texas Veterans Commission has four major programs--
Claims Representation and Counseling, Education, Grant Funding, 
and the Veterans Employment Program. We also, within those four 
programs, have two initiatives. One is the Women Veterans 
Initiative and also the Veteran Entrepreneur Program.
    So what we have done and we would like to do with the Texas 
Veterans Commission is find out what the need is in Texas for 
veterans, and what we learned was that veterans who want to 
start their own business found it very confusing, very 
difficult to maneuver through the process of starting their own 
business and to realize all of the resources that out there for 
them to utilize to start their own business.
    So April 2012, we launched a Veteran Entrepreneur Program 
with Duncan, and what he is doing is trying to bridge that gap 
between those resources and the veterans. He has held seven 
seminars. Those seven seminars have resulted in 1,000 veterans 
being assisted towards veterans owning their own business.
    He also provides one-on-one counseling services for them to 
include helping with business plans, just learning what need is 
of the veteran and doing his best to help them accomplish what 
they want to accomplish as far as starting their own business. 
Because of his success, the Veteran Entrepreneur Program was 
officially started on the 83rd Texas legislative session.
    There is another phase to the entrepreneur program, which 
includes a Business Basics 101 course. We are investigating 
several existing curriculum sources and engaging with several 
Texas State universities in creating this curriculum, and 
Duncan will be able to answer any questions you have about the 
next phase and where we are going with the entrepreneur 
program.
    Now Veterans Employment Services, you probably know them as 
LVERs and DVOPs, the JVSG grant that all the States get from 
Department of Labor and Vets. Basically, we call them job 
coaches here in Texas. They help the veteran with whatever that 
need is, whether it is translating military skills, helping 
with resumes, application assistance, direct placement. 
Whatever that need is, that veteran that we serve, is what we 
try to do for them.
    We also don't wait for veterans to come in and see us. We 
are very aggressive. We feel we should see as many veterans as 
we possibly can and provide high-quality services to them. What 
makes them successful is the one-on-one aspect of the job. They 
don't--we don't just rely on automated services, but we provide 
that one-on-one assistance.
    From those job coaches, or LVERs and DVOPs, we have taken 
four and made them veterans business representatives. Their 
number-one mission is to outreach to employers to help them 
with their hiring needs. So we help the veteran, but we also 
want to help the employers.
    And again, we want to identify the need. So what employers 
tell us a lot is we want to hire veterans, but we do now know 
where they are. How do we get them? That is where we come in.
    We can work with our job coaches, who see approximately 
60,000 veterans a year, and help those link up. They can also 
help them with their resume, make sure it is what the employer 
wants as far as skills, education level, and experience, and 
make sure that the veteran possesses those skills.
    2011 and 2012, the four business representatives helped 
employers with 1,428 jobs, resulting in 2,189 veteran resumes 
and applications to be reviewed by employers. That contributed 
to the overall success of the last 12-month period of 32,224 
veterans locating and having employment, with 84.02 percent 
retaining employment. So we are very proud of that.
    Since the inception of the VBR program, our quality of our 
services has gone up. In other words, the number of veterans we 
see, there is a higher percentage of those finding employment.
    In closing, I want to thank you for the opportunity to 
speak to you about what the Texas Veterans Commission is doing. 
Again, our goal is to serve as many veterans as possible. With 
so many transitioning service members coming back and will be 
coming back, we owe it to our Nation's heroes to do the very 
best that we possibly can.
    And I just want to thank you very much for this 
opportunity.

    [The prepared statement of Mr. Deabay]

    Good Morning, Chairman Flores, Ranking Member Takano and 
Members of the Subcommittee. On behalf of our Chairman, Eliseo 
``Al'' Cantu, and the Commissioners of the Texas Veterans 
Commission, I would like to thank the Subcommittee for this 
opportunity to testify before you today and for your interest 
in the efforts the state of Texas has undertaken in order to 
serve the 1.7 million Veterans in our state.
    My name is Shawn Deabay and I have the privilege of serving 
as the Director of Veterans Employment Services at the Texas 
Veterans Commission. As such, I am responsible for the 
management and execution of the Jobs for Veterans State Grant 
(JVSG) from the U.S. Department of Labor Veteran Employment and 
Training Services (DOL-VETS) for the state of Texas. I also 
provide oversight to our new Veterans Entrepreneur Program 
(VEP).
    Joining me today is Mr. Duncan McGhee, the Program Manager 
for the Veterans Entrepreneur Program (VEP). A veteran of the 
United States Army, Duncan brings over 30 years of private 
sector experience as a ``serial entrepreneur'' prior to 
building this new program at the Texas Veterans Commission.
    TEXAS VETERANS COMMISSION
    The Texas Veterans Commission is the Veterans advocacy 
agency for the state of Texas. Our mission is to advocate for 
and provide superior service to Veterans in the areas of claims 
assistance, employment services, education, and grant funding 
that will significantly improve the quality of life for all 
Texas Veterans, their families and survivors. The Texas 
Veterans Commission provides these services through four 
program areas: Claims Representation and Counseling, Veterans 
Employment Services, Veterans Education Program, and the Fund 
for Veterans' Assistance. Additionally, the Texas Veterans 
Commission has three initiatives that connect Veterans with 
services: Veterans Communication and Outreach, Women Veterans 
Initiative, and the Veterans Entrepreneur Program.
    No other state has centralized all of these program areas 
within their state's Veterans agency. Texas is becoming 
recognized for aggressively leading on Veteran issues. National 
leaders have referred to the ``Texas-model'' when advocating 
for the integration of Veterans services. This integration 
allows the agency to remain Veteran focused, with no competing 
priorities.
    VETERANS EMPLOYMENT SERVICES (VES)
    The Texas Veterans Commission offers employment services to 
all Veterans in Texas through our Veterans Employment Services 
(VES) program. The goal of these services is to match Veteran 
job seekers with the best opportunities available. In addition, 
employers are matched with qualified Veterans.
    Veterans Employment Representatives (VER) provides a full 
range of employment services. VERs are specifically trained to 
assist Veterans with job applications, resume preparation, job 
matching, job searches, and other employment services. VES has 
152 VERs located in 92 Workforce Centers in 75 cities 
throughout Texas to provide one-on-one assistance to Veterans.
    Approximately 99% of funding for VES is provided through a 
federal grant from the Department of Labor, Veterans' 
Employment and Training Services (DOL-VETS), with additional 
state General Revenue to support three (3) FTEs for the Family 
Employment Assistance Counselor (FEAC) program. Under this 
grant program, funds are allocated to TVC in direct proportion 
to the number of Veterans seeking employment within their 
state.
    VETERAN BUSINESS REPRESENTATIVES (VBRs)
    To help Texas Veterans get back to work or into better 
jobs, there must be a substantial coordination with employers. 
Providing support to employers creates more opportunities to 
better serve Veterans. Helping employers fill job vacancies 
provides the greatest potential to positively affect employer 
relations and improve the well-being of all Veterans.
    Through media coverage and active marketing, TVC has been 
inundated with employer phone calls and email correspondence 
from across Texas and the nation, eager to hire skilled 
Veterans. Because of this increased demand TVC expanded the 
Business Outreach Program to four positions, in 2011, and 
designating them as Veterans Business Representatives (VBR). 
The VBR's are strategically located in Houston, Dallas/Fort 
Worth, San Antonio and Austin and are vested in building 
relationships with large companies and influential Texas 
employers in an effort to promote the hiring of highly 
qualified Veterans. They work hand in hand with Texas Workforce 
Commission business service units (BSU) to outreach to 
employers and employer organizations such as SHRM and local 
chambers of Commerce.
    A VBR is an advocate for job-seeking Veterans, through 
employer outreach activities. VBRs use employer outreach as a 
tool to promote the advantages of hiring Veterans to employers 
and employer groups. The focus of the program is on marketing 
job seeking Veterans/eligible spouses as individuals who have 
highly marketable skills and experience.
    VBRs advocate for Veterans with business, industry, and 
other community-based organizations by participating in a 
variety of outreach activities such as:
    ? Planning and participating in job and career fairs.
    ? Coordinating with unions, apprenticeship programs, and 
business organizations to promote employment and training 
programs for Veterans.
    ? Informing Federal contractors of their responsibility to 
recruit and re-train qualified Veterans.
    ? Promoting credentialing and licensing opportunities.
    In 2011 and 2012, the VBRs helped employers recruit for 
1,428 jobs. This resulted in 2,819 Veteran resumes being 
reviewed by employers. Over the next few years the military 
will continue to draw down troops at an unprecedented level in 
an economically challenging situation. The VBR program is 
bridging the gap between job-seeking Veterans and employers 
that are eager for Veteran employees.
    VETERAN ENTREPRENEUR PROGRAM
    There is another innovative component to meeting the 
Veteran employment need in Texas. In April 2012, the Texas 
Veterans Commission launched a pilot project to focus on 
promoting entrepreneurship among veterans which has hosted a 
series of seven seminars throughout the state and assisted over 
1,000 Veterans towards entrepreneurship.
    Based upon this highly successful pilot project, the 
Veteran Entrepreneur Program, was formally established by 
passage of Senate Bill 1476, authored by State Senator Royce 
West, during the 83rd Regular Session of the Texas Legislature. 
State Representative Ralph Sheffield, who also sponsored the 
legislation in the Texas House, successfully secured funding in 
the state budget to fund this new program.
    The purpose of the Veteran Entrepreneur Program is to 
foster and promote Veteran Entrepreneurship throughout the 
state of Texas.
    Today's Veterans are poised to be the backbone of a new 
generation of small businesses that can quickly build a 
sustainable new jobs base in Texas. Veterans are eager to build 
for themselves, their families, and their Veteran employees, 
long-term careers and secure retirements through small business 
ownership.
    The goal of Veteran Entrepreneur Program is to create a 
veritable army of Veteran Entrepreneurs throughout the state of 
Texas. These Veteran Entrepreneur businesses will add value to 
the communities where they are established and create 
employment opportunities for other Veterans.
    The Veteran Entrepreneur Program is delivering value to 
Veterans and the state of Texas in the following ways:
    1) Bridging the gap between the available resources and 
Veteran Entrepreneurs. Through the Veteran Entrepreneur Seminar 
series and in response to requests from individual Veterans the 
Entrepreneur Program is connecting Veteran Entrepreneurs with 
community resources, funding sources and sources of continuing 
education.
    2) Providing one-on-one business guidance and counseling. 
Veteran Entrepreneurs contact the Veteran Entrepreneur Program 
seeking answers to a broad array of business challenges across 
an amazing spectrum. From a mere introduction to simple 
business ideas to complex strategies for expanding and growing 
a business the Veteran Entrepreneur Program meets the challenge 
and, in every case to date, has exceeded expectations.
    3) Conducting Seminars. The Veteran Entrepreneur Program 
conducts a series of seminars around the state that provide a 
one-stop-shopping experience where Veterans and a broad array 
of resources come together under one roof. Veterans are not 
only able to have their specific questions answered in this 
forum, they also enjoy the advantage of hearing their fellow 
Veteran Entrepreneurs interface with the resources and are 
exposed to new ideas and concepts in the process.
    To date, the Veteran Entrepreneur Program has attained 
phenomenal success on a limited budget. From April of 2012 
until now, the program has operated with a single, dedicated 
resource and achieved the following documented successes of 
veterans served:
    Business Plan Assistance 17
    Financing & Structure 38
    Resource Information 1,146
    Total 1,201
    The Texas Veterans Commission Veteran Entrepreneur Program 
will continue to provide the services outlined above but 
currently is developing the next phase; a ``Business Basics 
101'' course. This will be an application driven program 
wherein Veteran Entrepreneurs will enter the Program with an 
idea and leave with the tools, knowledge and funding necessary 
for successful business ownership.
    The Veteran Entrepreneur Program is investigating several 
existing curriculum sources and engaging several Texas state 
universities in the creation of entrepreneur curriculum.
    CLOSING
    The state of Texas is leading on Veteran issues. The 
Governor, Lieutenant Governor, and the Texas Legislature 
demonstrated their commitment to the Veterans of Texas this 
past legislative session by passing a number of key legislative 
initiatives for Veterans and by obligating significant funding 
for programs to assist Veterans in our state. State leaders 
deserve recognition for taking bold actions to serve the 
Veterans of our state.
    Veterans in Texas are also served by an active 
Congressional delegation that continually seeks to improve the 
services and benefits provided to them.
    Our goal at the Texas Veterans Commission is to assist as 
many Veterans as we can while continuing to provide high-
quality services. There will be thousands of military service 
men and women coming home over the next few years, which will 
increase the need for our services. We owe it to our nation's 
heroes to assist them with their employment needs when they 
come home. Employment stabilizes Veterans and their family's 
lives allowing them to make the difficult transition from 
military to civilian life.
    Again, I want to thank you for the opportunity to testify 
before you today. Thank you for the work are doing, and will 
do, on behalf of Texas Veterans, and all Veterans, of this 
nation's Armed Forces.
    ELISEO ``AL'' CANTU, JR., Major, US Army (Retired), 
Chairman
    DANIEL P. MORAN, Captain, USMC (Retired) Member
    JAMES H. SCOTT, Colonel, USAF (Retired) Vice Chairman
    J.K. ``JAKE'' ELLZEY, Commander, US Navy (Retired) Member
    REV. RICHARD McLEON IV, US Army Veteran Secretary
    TEXAS VETERANS COMMISSION
    THOMAS P. PALLADINO, Colonel, US Army (Retired) Executive 
Director
    Mr. Flores. Thank you, Mr. Deabay.
    I thank the third panel for their testimony.
    I now recognize myself for 5 minutes for questions. 
Chairman Alcantar, tell us a little bit about the success of 
last year's Red, White, and You job fairs, and what do you have 
planned for this coming week?
    Mr. Alcantar. I am really proud of the way our local boards 
have worked with our local partners. These veterans job fairs 
are free of charge. They are free of charge to the employer. 
The whole goal is to make sure that we help our veterans make a 
successful transition.
    Twenty-seven locations across the State on the same day 
last year, the week of Veterans Day, like we are doing again 
this year November 14th, we had over 1,400 employers that hired 
over 2,800 veterans or their spouses. Because we are not only 
targeting veterans, we understand the commitment and sacrifice 
of the spouses.
    And in addition to making these fairs available, we also 
have for them opportunities for them to take advantage of our 
Skills for Veterans program and connect them with the other 
services that we have available through our One-Stops all 
across the State.
    Mr. Flores. Okay. Thank you.
    Mr. Deabay, tell us a little bit about the services that 
are provided by the veterans benefits representatives that 
provide the local veteran employment representative, or LVERs. 
What do they provide that LVERs don't provide? Can you walk me 
through that?
    And you know, here is kind of where I am going. It seems 
like to some of us on the subcommittee that we need to change 
the--that DOL should change the mission of LVERs to match the 
more successful model that you use. Can you walk us through 
that?
    Mr. Deabay. Right. So our LVERs, they do provide services 
to veterans, and I only have--only, I know, 152. But Texas is a 
very large State. So they serve a lot of veterans.
    What the business representatives are able to do is solely 
focus their purpose on helping employers and then being able to 
leverage the LVERs and DVOPs in the field to help supply. What 
would not work is to have the veterans business representatives 
go to employers and then come back without those veterans to be 
able to refer to them and be able to source them.
    So the LVERs take care of the--they also outreach to 
employers, but not to the scale of a veterans business 
representative. So the LVERs will handle maybe the smaller, the 
more localized companies while the veterans business 
representatives are regionally placed so they can look at the 
larger companies and what their overall need is to hire 
veterans.
    Mr. Flores. Okay. Thank you.
    And then, Mr. Deabay, talk a little bit more about the 
Texas model and the benefits to having all the--all your 
services under one roof, all your services for veterans under 
one roof.
    Mr. Deabay. Yes, well, when veterans come into the 
workforce center, we partner with, obviously the workforce 
commission and the local boards. There is--employment is the 
end game, but there is a lot of obstacles before you get to 
being employment ready.
    To be able to have our claims counseling, to have our 
education, to know all of the grants that we provide to help 
veterans get through all of the tough times to get to 
employment. At the end of the day, we are there to help with 
employments. But to have everything within the veterans 
commission is so helpful to have all those resources to help 
them overcome those obstacles to get them employment ready 
faster.
    Mr. Flores. Okay. And Chairman Alcantar, do you have the 
results of the Texas Soldier Employment Initiative, and how has 
that program reduced the reliance on UCX benefits?
    Mr. Alcantar. Well, the progress to date is very promising. 
The goal is to really connect our veterans, as they are 
returning home, a little bit faster.
    And through our partnership with TVC and with the four 
boards that we are working together that are participating in 
this grant, we have been able to reduce the amount of time that 
our veterans are receiving unemployment from around 
approximately 24 weeks to around 19 weeks. It is a very 
positive trend.
    We continue to find ways to take advantage of all of our 
other competencies related to translating working with the 
soldiers prior to their release, working with the veterans 
after they have released to really identify and connect them to 
the different services that we have available through our One-
Stops. I think that is a very positive model.
    Yet the merging of our infrastructure in a way that 
benefits the core competencies that TVC brings into it really 
is at the heart of this integrated model that at its core basis 
has alignment with the employers in different industries in 
these different communities, really generating the results that 
we are looking for.
    The best part of this partnership is that we are engaging 
and doing these very thoughtful, aligned solutions in 
communities where Texas is creating jobs, and they are creating 
jobs across all of our major industries, and that is a positive 
trend.
    Mr. Flores. Thank you.
    Mr. Takano, you are recognized for 5 minutes for questions.
    Mr. Takano. Mr. Deabay, can you just elaborate a little 
more on your entrepreneur program? How many veterans have 
started businesses after attending the Veteran Entrepreneur 
Program?
    Mr. Deabay. Okay. I would like to yield to Mr. McGhee.
    Mr. McGhee. Thank you very much.
    Duncan McGhee, with the Texas Veterans Commission Veteran 
Entrepreneur Program.
    There is no way to know exactly how many because there are 
so many resources that are provided. I have helped over 1,300 
veterans with regard to information, but the individuals that I 
have had direct contact with in terms of helping them with 
business plans, helping them start their businesses, helping 
them to find funding. I say I have started--that is being 
arrogant.
    I have assisted more than 22 businesses getting launched 
that I know for a fact that I have had a hand in helping.
    Mr. Takano. What type of businesses are those they have 
launched?
    Mr. McGhee. That is a great question. It is across the 
board. There is businesses that, quite frankly, I would never 
do in a lifetime. I have spent 30 years as a serial 
entrepreneur, and I helped one gentleman start a tour company, 
a bicycle tour company in downtown Houston.
    If you know the traffic in Houston and you make that 
connection, that is a bit of--that is something I just couldn't 
see myself doing, quite frankly. But on the other end of the 
spectrum, but I have helped him get started, helped him get 
capitalized with his business plan, and they are actually very 
successful. They broke even in 6 months, and they are doing 
phenomenal. So, yay.
    The flip side of that is I helped another business down in 
the what is called the Eagle Ford Shale to generate capital 
with a trucking business. They wanted to expand their business 
and add trucks, dump trucks. So I helped them to create a 
business plan, identify the market, make the market granular 
and pursue $200,000 in capital for that business.
    So there is really no one set business. It is really 
veterans who are coming out today have this amazing vision, if 
you will, for what it is they want to do and what they want to 
accomplish. What they don't have is they don't have the 
business acumen and experience to take those ideas and put them 
into a solid plan, and that is what we do.
    Mr. Takano. I see from the written testimony that you have 
the intention to develop a Business 101 course.
    Mr. McGhee. That is correct.
    Mr. Takano. And it looks like it is in conjunction with a 
number of different Texas institutions.
    Mr. McGhee. Well, we interfaced with a number of 
institutions to see if we could help them or have them help us 
create a curriculum. That didn't turn out the way we had hoped 
it would in terms of that dialogue. So I am in the process of 
creating a curriculum myself.
    I worked with a number of CDFIs, community development 
financial institutions. They have agreed to capitalize any of 
the businesses that go through our program with a minimum of 
$20,000 at a 5 percent loan rate and up to as much as $100,000 
depending on the value proposition.
    So what we are doing right now, what I am doing right now 
is taking--building a curriculum that over the course of 6 to 8 
weeks, based on weekends, I can bring veterans in and do a very 
crash course, down and dirty, ``this is what you do.'' I mean, 
very granular, but very quick get them through this process.
    And then at the end of that process, it will be a shark 
tank sort of an event where they know they have $20,000. But if 
they want more, then they will have to go, you know, they will 
have to do the shark tank thing to make it happen.
    Mr. Takano. So I essentially see growing of the effort to 
provide some sort of training or education on the basics of 
running the business, and then trying to connect veterans with 
some sort of start-up capital?
    Mr. McGhee. That is correct.
    Mr. Takano. Do you see a need to organize this more 
coherently?
    Mr. McGhee. I do. There is a number of things. There is a 
number of things that we could do. You know, one is to do it 
coherently, absolutely.
    I have veterans from across the country, quite frankly, 
that are contacting me. I have veterans from California. I have 
veterans from Florida, from all around the country who are 
contacting me, going, ``Can you help me with my business?'' And 
the answer is, ``Yes, I can.''
    I have developed a process. It is a very clean, very simple 
process. It is 10 steps for starting your business. There is 
resources that are localized to those veterans that can help 
them through that process.
    But if there are some sort of way to standardize that 
across the country, then there obviously would be somewhat 
better. And there is a number of things that we could do at the 
Federal level that are very, very simple modifications that 
would yield huge results.
    For example, if you look at the GI bill, if we made just a 
modest, modest change to the post 9/11 GI bill, we could make 
some mods there, too.
    Mr. Takano. Mr. McGhee, I am sorry. My time is up.
    Mr. McGhee. Thank you.
    Mr. Takano. And I hope that through written testimony or 
personal contact with our offices to find out more about this.
    Mr. McGhee. I will be happy to do so.
    Mr. Flores. You have 30 seconds remaining or so ----
    Mr. Takano. Yes, Mr. Chairman, if you would indulge me. If 
you would elaborate more on these simple Federal fixes?
    Mr. McGhee. Sure. Again, as I said, post 9/11. If you take 
a look at post 9/11, as an example, it has a provision for on-
the-job training. For those individuals who don't want to 
pursue a traditional education, there is on-the-job training.
    But that on-the-job training pretty much, by virtue of the 
way it is structured, precludes you from leveraging that for a 
franchise. So we have had lots of conversation today about 
franchises. But if I were a post 9/11 veteran and I were to 
come into a franchise organization and then use that training 
as part of my on-the-job training, at the end of that, I would 
basically have $17,000. That could go a long way towards this.
    The other thing that we could do from a pure entrepreneur 
perspective is if we look at some of the Federal contracts we 
do, a real good example of that would be if you were to look at 
the U.S. Army's military installation and contracting command, 
they have an advance--they have a spreadsheet that shows you 
all the various contracts that are coming up for Federal 
contracts within the military posts.
    In Texas alone, we have Fort Sam, Fort Bliss, Fort Hood, 
and that is over--there is over $3 billion in contracts that 
are available, but less than 1 percent are for veteran 
businesses. And even that 1 percent, that 1 percent is only 3 
contracts that are very unique.
    There are things on those military posts like lawn 
maintenance that I could put my hand on two dozen veteran 
businesses tomorrow that could do that contract, yet that is 
not set aside for them or that is not for veteran businesses. 
It is for a small business, which is great. But there ought to 
be some allocation, in my opinion, for veterans, especially 
when you are looking at military installations.
    And then the third thing that we could take a look at is 
how we are spending dollars, or how the Federal Government is 
spending dollars today in those various--within the States. So, 
as an example, we look at we have what is called the Veteran 
Business Outreach Centers. They do a great job.
    They are called VBOCs, and they are really good 
organizations and do a phenomenal job. But they have some 
limitations.
    And so, if you look at Texas, for example, our VBOC is 
located in Harlingen. That is the furthest southernmost tip of 
our State, and in terms of their ability to provide services to 
veterans or veterans to access that service, it is a challenge. 
And then on top of that, some of the dollars that are allocated 
for that are spent on overhead versus on actually going towards 
meeting the needs of veterans.
    So those are just three things that as I look at it from a 
very high level, just minor modifications to those three things 
could have a huge impact in terms of how we are able to help 
veterans start and grow their businesses.
    Mr. Takano. Thank you, Mr. Chairman, for that 30 seconds.
    Mr. Flores. I am glad that you asked. That was good.
    Mr. Williams, you are recognized for 5 minutes.
    Mr. Williams. Yes, thank you, Mr. Chairman.
    And I want to thank all three of you for being here. You 
are doing a fantastic job. Chairman, appreciate it.
    But I want to follow through with, Duncan, you are doing a 
great job in explaining today. I had just a couple questions. 
You have done a pretty good job in answering. But I am a 
business guy. I come from the private sector, still own a 
business, been in business 42 years. I am a job creator, 
everything you are doing.
    Just briefly, you touched on the curriculum design. What 
would be just a typical curriculum? What, from the beginning to 
end, the things that you cover?
    Mr. McGhee. Sure. Sure. So a typical curriculum would be 
Introduction to Accounting, and not Introduction to Accounting 
in terms of--so I have been through a number of the larger 
programs that are out there. I have been to the EBV program. It 
is a great program. But it is designed for organizations, for 
veterans who are already in business.
    Where the veterans that I am interfacing with really don't 
understand a debit from a credit. So you have to get down to 
the granular level, but do it in such a way it is basic. It is 
basic training for that. So the introduction to that.
    And at the same time you are introducing that, we will have 
some software that they will be able to input and build, for 
example, a chart of accounts. This is chart of accounts. Build 
your chart of accounts. Build this. Then they will be able to 
take that, and that will be about a 2-hour segment, and it is 
just a very down and dirty introduction.
    Marketing, introduce them to marketing. How do you segment 
the market? What things do you look for, and are you a B2B? Are 
you B2C? Are you B2G?
    And in each of those segments, there is a different value 
proposition. There is a different message. How do we segment 
that market, and what are you targeting? So, again, about an 
hour to 2 hours on that and transition into operations, 
transition to HR. But do it in such a way that it is very 
fundamental.
    Right now, we talk to these veterans with some relatively 
high-level stuff. But the veterans that I come in contact with, 
they really need ----
    Mr. Williams. How long do you spend with them?
    Mr. McGhee. Well, I haven't started doing--I am building 
the curriculum right now. But in terms of the veterans that I 
work with, it ranges across the board in terms of how much time 
I spend with them.
    So, right now, I am working with 12 veterans on their 
business plans, and we are working in terms of wherever their 
business plan is. In terms of readiness, some of them are not 
bad. Others, you look at it, and you go, I mean, you are never 
going to fly with this. So it depends on the veteran, on where 
they are in the process, and where we want to get to relative 
to the end game.
    So I spend anywhere from 12 to 70 hours with veterans, it 
just depends, quite frankly. But on the curriculum that we are 
building, that is going to be, I am estimating, a 6-week, 12-
hour--6 weekends, 12 hours a day on a Saturday, 12 hours on a 
Sunday. And over the course of 6 to 8 weeks of that.
    Mr. Williams. That is good. They are lucky to have you.
    Now so when they go out there, how do you, as an 
entrepreneur, as a businessman, how do you see the market out 
there right now? I mean, financing is still an issue. Angel 
investors are an issue. How do you see the market as far as 
starting a new business today?
    How do you see--do you think they have got great 
opportunity? Do you think there is regulations, though, from 
the Federal Government standpoint that we might be able to kind 
of whittle down a little bit and give you a little more 
breathing room, right?
    Mr. McGhee. Yes, I look at no matter what the environment, 
whether we are in a recess or whether we are boom times, there 
is opportunity. You just have to look for it.
    And the veterans that I come in contact with, for the most 
part, they have identified the opportunity. I don't have to 
present them with the opportunity. They come to me with ideas, 
and like I said, some of those ideas, I will think there is 
just no way I would ever do this. But they are very much 
excited about what it is that they want to do.
    And so, I think there is lots of opportunity in the market. 
I think the market is ripe for veteran entrepreneurship. And if 
you look at entrepreneurship in the State of Texas, you know, 
veterans represent 7 percent of the overall population. But 
veteran-owned businesses represent 9 percent of the businesses 
in Texas.
    So, anecdotally, it suggests anyway that we are predisposed 
to business. But what we don't have--and one thing was 
mentioned earlier with regard to introducing veterans or 
military personnel to their future earlier than 6 months. I 
would take that a step further. I would say that if it were me 
and I had an opportunity to say something, I would say that you 
would have a day at basic training, just like when I went in 
2000, I took part in a very interesting project for generating 
venture capital.
    And within the first 4 minutes of our presentation, we had 
to have--we had to lay out our exit strategy. They didn't 
really care about our business. They didn't really care about 
how we wanted to serve veterans or what we wanted to do. They 
wanted to know how do I get money? What is your exit strategy?
    And if it were me and I had an opportunity to do something 
different for the military personnel, part of basic training 
would have a day of what is your exit strategy? Here are the 
things that are going to be available to you. Here are the 
things that you can do. And make them start thinking about 
their exit strategy from day one because at some point, whether 
you make a career out of the military or you do like I did, do 
your 3 years and get out, some point military comes to an end, 
and civilian begins.
    Mr. Williams. Thanks for your involvement. Appreciate it.
    I yield back, Mr. Chairman.
    Mr. Flores. Thank you, Mr. Williams.
    I would like to thank the panel for your testimony. Andres 
and Shawn and Duncan, it was very helpful to have you here, and 
you made this a diverse discussion today from private sector to 
education to government support, and I appreciate all the 
testimony.
    Thank you, Mr. Takano, for traveling all the way from 
California to Texas.
    And Mr. Williams, you didn't have to travel very far, but 
thank you for joining us here in Waco.
    Mr. Williams. Glad to be here.
    Mr. Flores. I would like to thank all of the audience for 
their participation today.
    Before we adjourn, I would like to extend my thanks again 
to the students, the staff, and the administration of Baylor 
University for hosting us and for our witnesses that took time 
out of their busy schedules to be here.
    I also want to remind the audience that we have a resource 
table out in the Fentress Room, which is to the right out the 
hall, and I would ask our veterans and guests to be sure and to 
avail themselves of that.
    I would like to thank the representatives for Congressman 
Carter's office for being here today as well.
    I would like to thank Baylor for giving us the great 
``Veterans of Baylor'' T-shirts, and also I think it says 
``From salutes to sic 'em'' on the back. Now be sure and wear 
your blackout shirts tomorrow when you all beat the heck out of 
OU. So probably have to wear a coat, too, based on what I saw 
about the weather.
    I would ask unanimous consent that all Members have 5 
legislative days in which to revise and extend the remarks and 
to include any extraneous materials on today's hearing. Hearing 
no objection, so ordered.
    Mr. Flores. And this hearing is now adjourned. Thank you.
    [Whereupon, at 12:18 p.m., the subcommittee was adjourned.]









                                APPENDIX

                              ----------                              


                   Aggie Vet Connect Program:

    Texas A&M University Veteran Resource & Support Center
    Program Description: Due to a lack of communication and 
programming, many of our 600+ student veterans are dis-
connected from the available university and local resources. 
Aggie Vet Connect is one of our first major initiatives. It 
will become a full range of programs developed and organized by 
the VRSC in partnership with other offices and organizations. 
It is designed to proactively facilitate the engagement of 
student veterans to help identify those in need of additional 
academic or mental well-being assistance. Specific programs 
include:
    -  New Student Conference and sponsorship programs that:
    o Connect current veteran students with new veteran 
students to facilitate transition to TAMU.
    o Enables early identification of wounded warriors and 
facilitates student veteran data collection.
    - Peer-to-peer veteran student mentoring program (which 
includes formal mentor training).
    - Faculty/Staff connections with student veterans to 
facilitate:
    o Faculty/Staff awareness of unique needs of student 
veterans/wounded warriors, signs/symptoms of PTSD/TBI, and 
military-to-student transition issues.
    o Faculty/Staff sensitivity to student veteran experiences.
    o Faculty/Staff ``ATM Veteran Mentor'' participation.
    o Student veteran awareness of, and interaction with, 
veteran faculty/staff members.
    - Increase overall campus awareness of student veteran/
wounded warrior experiences.
    Program Goals: Our overall goal is to improve the TAMU 
student veteran/wounded warrior success rates. Measurement of 
this goal is elusive; there is very little existing data on 
previous/current success rates. Sub goals include:
    1. Develop TAMU's first proactive student veteran 
transition support program that meets the critical needs of 
student veterans/wounded warriors as they enter Texas A&M.
    2. Better identify the TAMU student veteran population 
(beyond benefit certification data) to facilitate on-going 
student needs and program assessments to improve student and 
program success rates.
    3. Facilitate early contact (prior to 1st class day) with 
student veterans better connect them with additional existing 
on-campus resources as needed.
    4. In partnership with the TAMU Academic Success Center, 
develop TAMU's first proactive student veteran peer-to-peer 
mentoring program to improve academic performance.
    5. Expand our (currently limited) faculty/staff programs to 
meet the critical needs of returning service members (i.e., 
early identification of student veteran transitional problems 
or PTSD/TBI).
    6. Develop a systematic program to improve faculty/staff 
(focused on academic advisors) engagement with student 
veterans/wounded warriors.
    7. Develop new programs and facilitate unique opportunities 
that connect student veterans with the greater student body.
    PROGRAM COMPONENTS
    The Aggie Vet Connect Program is comprised of seven sub-
programs.
    1. New/Transfer Student Conference Student Veteran Program
    Participants: All new/transfer undergraduate TAMU student 
veterans and wounded warriors. Mandatory Student Veteran 
Information Session: All veterans must attend (military 
dependent attendance is highly encouraged) to receive 
information on benefits and VRSC military affiliated programs/
opportunities.
    Vet Connect Event: At the end of Day 1 of the conference, 
new student veterans and dependents are invited to meet with 
current veteran students, dependents, and selected faculty/
staff for a ``1-on-1 engagement'' social event to facilitate 
transition into the university environment and learn more about 
student veteran/wounded warrior programs.
    2. Vet Camp - This is a 1-day orientation program conducted 
prior to the 1st day of class. It is designed to get student 
veterans ready for their classes and to facilitate their 
transition to Texas A&M.
    Participants: Vet Camp will be open to all new student 
veterans (it is mandatory for some specified veteran co-
enrollment students when the new VETS Program is approved by 
TAMU).
    Vet Connect Event: As one part of this program participants 
will select and meet their student veteran peer mentor and 
their faculty/staff mentor. They will also connect with other 
campus veteran/wounded warrior support offices to include 
representatives from Student Counseling Services, Academic 
Success Center, and Academic Advisors.
    3. Vet Connect Breakfasts/Lunches - These events will be 
used to facilitate a recurring opportunity to improve and 
expand faculty/staff/advisor engagement with student veterans.
    Participants: This event will be open to all TAMU student 
veterans.
    Vet Connect Event: At each breakfast/lunch, one or more 
university faculty, staff or advisors will be invited by 
student veterans as their ``Guest(s) of Honor.'' Although the 
agenda will be informal, the guest will be asked to provide a 
brief background on their role at TAMU, their military 
experience (if applicable), and their advice on student 
success. Student veteran participants will be asked to share 
their background/military experiences and ask questions of the 
guest.
    4. Recreational Sports Veteran/Wounded Warrior Engagement 
Activities - In partnership with TAMU Recreational Sports, the 
Aggie Adaptive Sports Club and the Student Veterans 
Association, the VRSC will assist in coordinating participant 
sports events that draw student veterans/wounded warriors and 
other non-veteran students together.
    Participants: This event will be open to all TAMU student 
veterans/wounded warriors. The leadership of the Aggie Adaptive 
Sports Club and the Student Veteran Association will be asked 
to identify students from other TAMU student organizations to 
participate with the student veterans/wounded warriors.
    Sports Activities: The specific activity may include 
adaptive sports or other sport/event already programmed by TAMU 
Recreational Sports during the semester.
    Vet Connect Event: These events are designed to facilitate 
unique opportunities that connect student veterans/wounded 
warriors with the greater student body.
    5. Faculty/Staff Veteran Awareness/Training Sessions - 
These sessions are designed to expand faculty/staff programs to 
meet the critical needs of returning service members. Topics 
will vary but may include PTSD/TBI awareness, student veteran 
needs, veteran scholarship opportunities/financial aid, Wounded 
Warrior Higher Education Program, and veteran career counseling 
trends/information.
    Participants: Faculty, staff and advisors along with 
student veterans.
    Vet Connect Event: The student veteran panel will serve as 
the ``Capstone Event'' to improve faculty, staff and advisor 
engagement with student veterans/wounded warriors.
    6. Student Veteran Peer-to-Peer Mentor Training Classes - 
These sessions will be a mandatory requirement for all student 
veterans that want to participate in the peer-to-peer mentoring 
program.
    Participants: Any student veteran who has been at TAMU for 
at least one semester and meets academic requirements.
    Vet Connect Event: At the conclusion of each semester, the 
VRSC will conduct a peer-to-peer mentoring program assessment 
event. All participants will be asked to meet and provide input 
and discuss the value of the program and ways to improve 
student veteran peer mentoring efforts.
    7. Special Events - These events will be identified as 
opportunities become available. They may include special 
veteran workshops, conferences, meetings or events and will be 
used to expand other programs to meet the critical needs of 
returning service members and to increase veteran awareness and 
connections across campus.
    Participants: To be determined by the nature of the event.
    Vet Connect Event: To be determined by the nature of the 
event.

                                 [all]

</pre></body></html>
